                                MESSAGE FROM THE
                                INSPECTOR GENERAL

“Doing more with less” is a familiar refrain      and (4) provide technical audit-related
that has been heard with increasing               assistance in areas of importance to the
frequency during the past few years.              Department.
Daunting as this concept may seem, we are
all constantly reminded of its critical           On the investigative side, we have been
importance in these times of budgetary            working diligently to more fully develop
restraint, and of the corresponding need to       fraud awareness, prevention, detection, and
devote our creative energies to meeting the       suppression within the Department of the
tremendous challenge that it poses. Taking        Interior. One way in which we have sought
seriously this challenge, we at the Office of     to meet this challenge is through the
Inspector General are continuing to pursue        development of an aggressive “Fraud
our quest for positive change within the          Awareness” outreach program focused on
Department of the Interior by searching for       informing Departmental personnel of the
opportunities to effectively deploy our           importance of reporting suspected
resources and to improve our techniques and       fraudulent activity related to their specific
approaches so as to maximize the beneficial       programs and educating them on how to
effects of our operations.                        recognize such activity. In this regard, our
                                                  special agents have made fraud awareness
In an attempt to “do more with less” while        presentations to employees in various
serving as a catalyst for positive change         program areas within each of the
within the Department of the Interior, we         Department’s eight bureaus and the Office of
have focused on diversifying our activities so    the Solicitor. These presentations have been
as to employ more innovative approaches in        made in some 16 different states throughout
the accomplishment of our mission. In this        the United States where the Department has
regard, we have added to our traditional          a presence and in the District of Columbia.
audit and investigative activities a variety of   The success of this program thus far is amply
proactive and other projects designed to:         demonstrated by increased referrals to the
(1) enhance our “prevention and detection”        Office of Inspector General by Departmental
efforts by promoting increased sensitivity to     employees and continuous requests from
indications of fraud among program                various bureaus within the Department to
personnel; (2) identify and address,              expand, even further, the reach of our “Fraud
creatively, areas of potential vulnerability in   Awareness” program.
Departmental and insular area programs and
operations; (3) provide audit services during
the early stages of program development;


             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997              i
                                                                                  CONTENTS


                                                                                                                                                                              Page
Statistical Highlights . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v
Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  Department Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
  OIG Organization . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Audit Activity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Investigative Matters . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Legislative Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Significant Audits and Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
  Financial Statements Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
  Bureau of Indian Affairs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
  Bureau of Land Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
  Bureau of Reclamation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
  Insular Areas . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
  Minerals Management Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
  Multi-Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
  National Park Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
  Office of Surface Mining Reclamation and Enforcement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
  U.S. Fish and Wildlife Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
  U.S. Geological Survey . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

Appendices
1 - Summary of Audit Activities From October 1, 1996, Through March 31, 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                               25
2 - Audit Reports Issued or Processed and Indirect Cost Proposals Negotiated
    During the 6-Month Period Ended March 31, 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             26
    - Internal Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       26
    - Contract and Grant Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 28
    - Single Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       31
    - Indirect Cost Proposals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        47
3 - Monetary Impact of Audit Activities From October 1, 1996, Through March 31, 1997 . . . . . . . . . . . . . . . . . . . . . .                                                   56
4 - Non-Federal Funding Included in Monetary Impact of Audit Activities
    During the 6-Month Period Ended March 31, 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                             57
5 - Audit Resolution Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          58
    - Table I - Inspector General Audit Reports With Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                    58
    - Table II - Inspector General Audit Reports With Recommendations That
       Funds Be Put To Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .            59
    - Table III - Inspector General Audit Reports With Lost or Potential Additional Revenues . . . . . . . . . . . . . . . . . . .                                                 60
6 - Summary of Audit Reports Over 6 Months Old Pending Management Decisions . . . . . . . . . . . . . . . . . . . . . . . . . . .                                                  61
    - Internal Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       61
    - Contract and Grant Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                 63
    - Single Audit Reports . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       64
7 - Summary of Internal Audit Reports Over 6 Months Old Pending Corrective Action . . . . . . . . . . . . . . . . . . . . . . . .                                                  69
8 - Cross-References to the Inspector General Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                      73
9 - Statutory and Administrative Responsibilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                    74



                         Semiannual Report to the Congress: October 1, 1996 - March 31, 1997                                                                                        iii
                                         STATISTICAL HIGHLIGHTS

Audit Activities
 Audit Reports Issued or Processed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 486
  - Internal Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
  - Contract Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 42
  - Single and Grant Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 411
 Indirect Cost Proposals Negotiated . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 193

Impact of Audit Activities - (Dollar Amounts in Millions)
  Total Monetary Impact . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $33.7
   - Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $13.6
   - Recommendations That Funds Be Put To Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $18.4
   - Lost or Potential Additional Revenues . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $1.7
  Internal Audit Recommendations Made . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 204
  Internal Audit Recommendations Resolved . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 154

Administrative Actions Taken by Bureaus
  Matters Referred for Administrative Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 64
  Removals/Resignations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
  Employee Suspensions (Totaling 172 days) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
  Reprimands/Counseling . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
  Reassignments/Transfers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
  General Policy Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

Investigative Activities
 Total Reports Issued . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 68
 Cases Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 68
 Cases Opened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 94
 Cases Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 508
 Hotline Complaint Matters Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 60
 Hotline Complaint Matters Opened . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 0
 Hotline Complaint Matters Closed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
 Hotline Complaint Matters Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 75
 General Information Matters Received . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 178

Impact of Investigative Activities
  Indictments/Informations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
  Convictions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
  Sentencings . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37
   - Jail . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 335 months
   - Probation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1,173 months
   - Community Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1,830 hours
   - Criminal Judgments/Restitutions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $2,079,895
  Cases Pending Prosecutive Action as of October 1, 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 176
  Cases Referred for Prosecution This Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51
  Cases Declined . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
  Cases Pending Prosecutive Action as of March 31, 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 158
  Administrative Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33
  Civil Referrals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                       Semiannual Report to the Congress: October 1, 1996 - March 31, 1997                                                                                       v
     Civil Declinations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
     Civil Judgments (3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $1,403,000
     Cases Pending Civil Action as of March 31, 1997 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
     Non-Civil Recoveries . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . $2,309,776




vi                       Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
                                      INTRODUCTION


Department Profile
T    he Congress created the Department of
     the Interior (DOI) on March 3, 1849, to
manage the Nation’s internal affairs. As the
                                                 Conservation, development, and utilization
                                                 of fish and wildlife resources;

Nation’s principal conservation agency, DOI      Coordination of Federal and state
has responsibility for most of our nationally    recreation programs;
owned public lands and natural resources.        Preservation and administration of the
This includes fostering the use of our land      Nation’s scenic and historic areas;
and water resources; protecting our fish,
wildlife, and biological diversity; preserving   Operation of Job Corps Conservation
the environmental and cultural values of our     Centers and Youth Conservation Corps
national parks and historic places; and          Camps and coordination of other manpower
providing for the enjoyment of life through      and youth training programs;
outdoor recreation. DOI assesses our
mineral resources and works to ensure that       Reclamation of arid lands in the West
                                                 through irrigation; and
their development is in the best interests of
all our people by encouraging stewardship        Management of hydroelectric power
and citizen participation in the care of these   systems.
resources.
                                                 DOI is also concerned with the social and
DOI has about 70,000 employees, spends           economic development of the insular areas
about $9 billion a year, collects revenues       and administers programs providing services
of about $6 billion a year, and is               to Indians and Alaska Natives.
geographically dispersed to over 2,000
locations. The jurisdiction of DOI includes:

Administration of over 500 million acres of
Federal land and trust responsibilities for
approximately 50 million acres of land,
mostly Indian reservations;

Conservation and development of mineral
and water resources;




             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997              1
OIG Organization

T    o cover DOI’s many and varied
     activities, the Office of Inspector
General (OIG) has a budget of $24 million
                                                  In addition to the Inspector General’s
                                                  requirement for semiannual reporting to the
                                                  Secretary of the Interior and the Congress in
and has 251 full-time employees. Employees        accordance with the Inspector General Act
are under the direction of the Assistant          of 1978 (Public Law 95-452), as amended,
Inspectors General for Audits,                    OIG’s mission encompasses a wide array of
Investigations, and Administration and are        statutory and administrative audit and
assigned to the headquarters office in            investigative responsibilities (see
Washington, D.C., and field offices in:           Appendix 8). These responsibilities include
                                                  OIG’s review of various programs and
Agana, Guam; Rapid City, South Dakota;            activities within DOI in accordance with
Albuquerque, New Mexico; Sacramento,              numerous public laws, Office of
California; Arlington, Virginia; St. Paul,        Management and Budget (OMB) circulars,
Minnesota; Billings, Montana; St. Thomas,         and criminal and civil investigative
U.S. Virgin Islands; Lakewood, Colorado;          authorities (see Appendix 9).
Tulsa, Oklahoma; and Phoenix, Arizona.
                                                  In the insular areas of Guam, American
OIG provides policy direction for and             Samoa, the U.S. Virgin Islands, and the
conducts, supervises, and coordinates all         Commonwealth of the Northern Mariana
audits, investigations, and other activities in   Islands, OIG performs the functions of
DOI to promote economy and efficiency or          government comptroller through audits of
prevent and detect fraud, waste, and              revenues, receipts, expenditures, and
mismanagement. The Inspector General is           property in accordance with the Insular
DOI’s focal point for independent and             Areas Act of 1982 (48 U.S.C. 1422). OIG
objective reviews of the integrity of             has additional audit responsibilities in the
operations; is the central authority concerned    Federated States of Micronesia, the Republic
with the quality, coverage, and coordination      of the Marshall Islands, and the Republic of
of the audit and investigative services           Palau pursuant to the Compact of Free
between DOI and other Federal, state, and         Association Act of 1985 (Public Law 99-
local governmental agencies; and reports          239). OIG’s organizational chart is included
directly to the Secretary of the Interior on      on the following page.
these matters. The Inspector General
provides the means for keeping the Secretary
and the Congress fully and currently
informed about problems and deficiencies
relating to the administration of DOI
programs and operations and the necessity
for corrective actions.




2            Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
                                         U.S. DEPARTMENT OF THE INTERIOR
                                                       OFFICE OF INSPECTOR GENERAL



                                                                    INSPECTOR GENERAL
             Executive Staff Assistant




                                                                      CHIEF OF STAFF AND
                                                                      GENERAL COUNSEL




                     ASSISTANT                                            ASSISTANT                                   ASSISTANT
                INSPECTOR GENERAL                                    INSPECTOR GENERAL                           INSPECTOR GENERAL
                    FOR AUDITS                                        FOR MANAGEMENT                             FOR INVESTIGATIONS
                                                                         AND POLICY


                   Deputy Assistant                           Division of
                                                              Information            Division of Human                      Deputy Assistant
                  Inspector General                                                                                        Inspector General
                                                               Resources                  Resources
                     for Audits                               Management                                                    for Investigations




   Eastern                Central                    Western                                                    Eastern                     Western
Regional Office       Regional Offices            Regional Office                                               Division                    Division
                      Lakewood, CO
Arlington, VA                                     Sacramento, CA                                              Arlington, VA              Lakewood, CO
                      Albuquerque, NM

                                                                                             Division of
                                      Caribbean                        Division of
            North Pacific                                                                   Acquisition and
                                    Regional Office                     Financial
           Regional Office                                                                   Management
                                                                       Management
                                                                                              Operations
            Agana, Guam                St. Thomas,
                                      Virgin Islands
                                     AUDIT ACTIVITY


Summary of Audit                                  Proactive and
Results                                           Joint Audit Efforts

O      IG auditors issued or processed 486
       audit reports during the 6-month period
ending March 31, 1997. Appendix 1
                                                  O     IG continues to conduct both proactive
                                                        and joint audit efforts within DOI and
                                                  within the insular areas. These efforts are
summarizes audit activities, and Appendix 2       conducted "in our desire to serve as a
lists the audit reports issued or processed       catalyst for positive change," to "do more
and the 193 indirect cost proposals               with less," and to "continue our efforts to
negotiated. Monetary findings in the audit        accomplish the Government’s reinvention
reports and indirect cost proposals totaled       goals."
$33.7 million, which was composed of
questioned costs, funds to be put to better       These audit efforts consist of identifying
use, and lost or potential additional revenues,   areas of potential vulnerabilities and
as summarized in Appendix 3. Appendix 4           providing technical assistance and consulting
identifies the non-Federal funds (from audits     services to DOI bureaus and offices and
of insular area governments) included in the      insular areas to improve the efficiency and
monetary impact of audit activities. During       effectiveness of DOI and insular area
this 6-month period, OIG resolved $42.0           programs and operations and to assist DOI
million of monetary findings from prior and       bureaus in correcting and preventing
current reporting periods. Appendix 5             weaknesses and deficiencies in the bureaus’
provides summary information on the               financial accounting systems. OIG’s
resolution of the monetary impact, Appendix       proactive and joint audit efforts during this
6 provides a listing of audit reports over 6      reporting period have included the following:
months old pending management decisions
on recommendations and/or monetary
impact, and Appendix 7 provides a summary
of resolved audits over 6 months old pending
final action by management on
recommendations and on monetary impacts.




4            Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
Cooperating With the Federal                     Participating in the Government of
Emergency Management Agency’s                    Guam’s Financial Modernization
OIG                                              Project


U     nder a cooperative agreement, OIGs of
      the Federal Emergency Management
Agency (FEMA) and DOI, with
                                                 A     t the request of the Governor of Guam,
                                                       OIG’s North Pacific Region auditors
                                                 completed a review of the Government’s
participation from the U.S. Virgin Islands       Financial Management Modernization
Bureau of Audit and Control, conducted           Project. The purpose of the Project was to
reviews of accounting controls, procurement      fundamentally restructure the Government’s
practices, and grant administration              financial operations and information
procedures of various agencies of the Virgin     processes. OIG concluded, after the review,
Islands Government. These proactive              that the Project would improve the
reviews were conducted in anticipation of        Government’s financial management by
the receipt by the Virgin Islands Government     providing increased control over and better
of FEMA-approved disaster grants in the          understanding by Governmental officials and
aftermath of Hurricane Marilyn, which struck     the public of the Government’s financial
the Virgin Islands on September 15, 1995.        operations and financial position.
As a result of this proactive effort, 13 audit
reports were issued (5 during this reporting     Assisting DOI Bureaus and Offices
period) relating to improving the
                                                 With Their Financial Statements
management, control, and expenditure of the
disaster grant funds.
                                                 A     udits of the bureaus’ and offices’
                                                       financial statements are required by the
                                                 Chief Financial Officers Act of 1990. OIG
                                                 issued unqualified opinions on the audits of
                                                 the financial statements of five DOI bureaus
                                                 and offices during this reporting period, with
                                                 the cooperation and assistance of DOI and
                                                 these bureaus.




             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997              5
Participating in Development of an                resources, including water, timber, hard and
Accounting Standard                               soft minerals, oil, and gas. In addition to the
                                                  senior auditor, the task force comprises
                                                  senior-level officials from the Bureau of
S   ince January 1997, an OIG senior
    auditor has been participating as a
member of a task force established by the
                                                  Land Management (BLM), the U.S. Forest
                                                  Service, the Minerals Management Service
Federal Accounting Standards Advisory             (MMS), DOI’s Office of Financial
Board to establish a new accounting               Management, the General Accounting Office
standard for Federal financial statements.        (GAO), the Federal Accounting Standards
Specifically, the task force is responsible for   Advisory Board, the U.S. Department of
developing an accounting standard for             Commerce’s Bureau of Economic Analysis,
recognizing on Federal financial statements       and academic institutions.
the Government’s inventory of natural




6             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
                        INVESTIGATIVE MATTERS


D     uring the past 6 months, the Office of
      Investigations has conducted
investigations that have resulted in 36
                                                 are the following:

                                                 Underpayment of Royalties
indictments/informations, 37 convictions,        Initiative
and financial recoveries of $3,482,895. In
addition, our investigations during this
semiannual reporting period have led to the
issuance of bills for collection totaling
                                                 A     major initiative undertaken by OIG has
                                                       been the identification and investigation
                                                 of fraudulent royalty underpayments on
$2,309,776.                                      Federal mineral leases. OIG is vigorously
                                                 pursuing such matters in conjunction with
Update on                                        the Fraud Section, Civil Division, U.S.
                                                 Department of Justice, and various U.S.
Proactive                                        Attorney’s Offices throughout the United
                                                 States.
Initiatives
                                                 Coal Reclamation Fees Initiative

O     IG is continuing to accomplish its
      statutory mission by aggressively
pursuing a variety of proactive initiatives      T     his initiative focuses on the recovery of
                                                       delinquent fees for coal reclamation
designed to: (1) enhance our "prevention         owed by surface coal operators regulated by
and detection" efforts by promoting              the Office of Surface Mining Reclamation
increased sensitivity to indications of fraud    and Enforcement (OSM). Specifically
among program personnel and (2) creatively       targeted are coal mine operators who either
identify and address areas of potential          fail to pay reclamation fees to DOI by means
vulnerability in DOI and insular area            of falsifying documents used by OSM to
programs and operations. These initiatives,      assess reclamation fees or who attempt to
reported in prior semiannual reports, have       conceal assets in an attempt to avoid
resulted in increased referrals, criminal        payment of the fees owed.
convictions, and financial recoveries returned
to the U.S. Treasury and DOI.

We have recently embarked on several new
initiatives in furtherance of our fraud
awareness, prevention, detection, and
suppression effort. Among these initiatives


             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997               7
Environmental Initiative                           credit card fraud awareness presentation,
                                                   which will be designed to make DOI

O      IG will target companies and
       individuals who violate the Outer
Continental Shelf Lands Act. In pursuing
                                                   employees aware of credit card fraud
                                                   indicators.

this initiative, OIG will consider all available   Workers’ Compensation Fraud
criminal, civil, and administrative sanctions.     Initiative

Government Purchase Card
Initiative                                         T    his initiative targets beneficiaries of
                                                        workers’ compensation who fail to
                                                   report other earned income as required by

T  his initiative involves the identification
   and suppression of credit card fraud in
DOI’s Government credit card program.
                                                   the Office of Workers’ Compensation
                                                   Programs, as well as those employees who
                                                   have apparently recovered from their work-
OIG is also in the process of developing a         related disabilities but who continue to
                                                   receive benefits of the Programs.




8             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
                             LEGISLATIVE REVIEW


O     IG provided comments to BLM on
      S. 94 and H.R. 449, The Southern
Nevada Public Land Management Act of
                                                 Clark County, Nevada, "totaling in the
                                                 hundreds of millions of dollars." The
                                                 potential shortcoming related to the
1977, regarding land disposal in the Las         subsequent exchange of land conveyed in the
Vegas Valley. Specifically, OIG said that the    Act to the County. As a result of OIG’s
legislation as written contained "a potential    comments, BLM modified its testimony to
shortcoming" that could have provided "the       the bill to advise the Congress of the
means for a . . . significant windfall" to       potential shortcoming in the legislation.




             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997           9
                         SIGNIFICANT AUDITS AND
                             INVESTIGATIONS

                                                 control structure, which had been identified
Financial                                        in previous reports. Specifically, we found a
Statements Audits                                control weakness regarding the reporting and
                                                 documenting of real property values and the
                                                 reconciling of real property general ledger
T    he financial statements audits are
     required by the Chief Financial Officers
Act of 1990. During this semiannual period,
                                                 accounts with the related subsidiary
                                                 accounts. To address this weakness, BLM
                                                 developed a plan that redefined the types of
OIG audited and issued audit reports on the      buildings and structures to be reported,
financial statements of 5 of DOI’s 10            established reasonable values for the
bureaus and offices through the coordinated      redefined buildings and structures, and
efforts of OIG, DOI, and the 5 bureaus and       adjusted the subsidiary accounts and the
offices. Because the remaining bureaus did       financial statements for fiscal year 1995
not close their financial records and did not    accordingly.
prepare, in a timely manner, financial
statements that were accurate and complete,
OIG was unable to complete the audits and        Bureau of Indian
issue the remaining related reports by the
March 1, 1997, target date.                      Affairs
OIG was able to issue unqualified opinions       Accountability Over Trust Funds
on the financial statements of OSM, MMS,         Inadequate
the Office of Insular Affairs, and the
Departmental Offices (formerly Office of the
Secretary financial statements). We also
reported that these bureaus’ and offices’
                                                 O     IG issued an audit report prepared by
                                                       an independent public accountant on
                                                 the statement of assets and trust fund
internal accounting controls met the required    balances for tribal and individual Indian
internal control objectives and that there       monies and other special appropriation funds
were no material instances of noncompliance      as of September 30, 1995. The statement,
with provisions of laws and regulations that     prepared by the Office of Trust Funds
we tested.                                       Management, Bureau of Indian Affairs
                                                 (BIA), reported a trust fund balance of
An unqualified opinion was also issued on        approximately $2.7 billion.
the financial statements of BLM. However,
we reported a condition that affected BLM’s


10           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
                                                  According to Area Office officials, these
The independent public accountant rendered        deficiencies occurred because of the lack of
a qualified opinion on the statements of          administrative support staff to maintain
assets and trust fund balances at                 complete files, the lack of Area Office
September 30, 1995, because of deficiencies       internal procedures on debt collection and
in the accounting policies, practices, data,      loan write-offs, and the belief that the
and automated systems and because cash and        Division of Accounting Management was
overnight investments could not be                performing the debt collection activities and
independently verified. These conditions          that lenders were performing the required
prevented certain material accounts from          analyses of guaranteed loan proposals.
being audited. In addition, the report stated     These deficiencies directly contributed to the
that various tribal organizations and             write-off of about $2.9 million of loans in
individual Indians for whom the Office held       1993 and to the risk that an additional
assets did not agree with certain balances        $14.8 million of loans that are over 1 year
reported by the Office and have filed claims      past due may not be collected. Based on
against the Office over its fiduciary             BIA’s response to our draft report, we
responsibilities. The public accountant’s         considered two of the report’s six
report on the internal accounting control         recommendations resolved and implemented
structure contained 16 recommendations to         and four recommendations resolved but not
address 4 material weaknesses, 6 reportable       implemented.
conditions, and 6 advisory comments.
Further, the report stated that the Office had    Judgment Award Funds
complied with material applicable laws and        Administered Properly
regulations in its management of the trust
funds. Based on the response to the public
accountant’s report from the Office of Trust
Funds Management, we considered all 16 of
                                                  B    IA distributed judgment award funds of
                                                       approximately $4.6 million to the
                                                  Seminole Nation of Oklahoma in
the report’s recommendations resolved but         accordance with applicable laws for fiscal
not implemented.                                  years 1994 and 1995. The Indian Claims
                                                  Commission awarded the funds to the Nation
Direct and Guaranteed Loans Not                   as compensation for aboriginal lands taken
Adequately Managed                                by the United States under provisions of the
                                                  Treaty of Camp Moultrie. We also

B     IA’s Eastern Area Office did not
      adequately manage and control its loan
program. Specifically, the Area Office did
                                                  determined that the Nation fully complied
                                                  with the plan for the use and distribution of
                                                  the funds. Specifically, the Nation
not: (1) always screen loan applications for      established a separate Judgment Fund Office
reasonable assurance of the borrower’s            to administer the program, passed tribal
ability to repay; (2) adequately monitor          ordinances that established seven individual
outstanding loans; (3) initiate debt collection   programs and eligibility criteria for each
activities when appropriate; and (4)              program, prepared annual budgets for the
sufficiently justify loan write-offs.             individual programs and distributed the funds



              Semiannual Report to the Congress: October 1, 1996 - March 31, 1997            11
in accordance with those budgets, and             Former Police Officer Convicted
deposited funds into a separate interest-
bearing account for each program. The
individual programs established were school
clothing assistance, burial assistance, elderly
                                                  A     joint investigation by OIG and BIA of
                                                        activities of a former Chief of Police for
                                                  a New Mexico Indian tribe revealed that
assistance, household economic assistance,        between December 1993 and June 1994, the
higher education, cultural and recreational       former law enforcement officer sold or
enhancement, and economic and business            pawned at least 13 firearms belonging to the
development. Our report did not contain any       tribe’s police department. In addition to
recommendations.                                  converting the proceeds of these sales, the
                                                  former law enforcement officer took
Lengthy Embezzlement Uncovered                    possession of four vehicles that had been
                                                  provided to the police department through a

A     joint investigation with the Federal
      Bureau of Investigation (FBI) revealed
that the finance director of a Nevada Indian
                                                  forfeiture program, sold some of the
                                                  vehicles, and kept others for his personal
                                                  use. After indictment by a Federal grand
tribe embezzled approximately $393,000 in         jury in Albuquerque, New Mexico, and
tribal funds between June 1992 and March          subsequent arrest by special agents from
1996. The finance director, a tribal member,      OIG and the FBI, the former law
had administrative responsibility for various     enforcement officer pled guilty to theft from
tribal bank accounts, including monies for        an Indian tribal organization and was
education and health services for tribal          sentenced to 1 year and 1 day of
members. The finance director obtained cash       imprisonment and 3 years of probation and
directly from the education account and           was ordered to pay $50 in fines and $4,073
covered these thefts by transferring monies       in restitution to the tribe.
into the account from other accounts. The
finance director claimed that the stolen          Public Corruption Investigation
monies were lost through gambling at local        Conducted
casinos. The finance director pled guilty to
an indictment charging theft of tribal funds
and was sentenced to 25 months of
imprisonment and 3 years of probation and
                                                  A     n 18-month investigation was
                                                        conducted by DOI in conjunction with
                                                  a Task Force on Indian Gaming in the U.S.
was ordered to pay $50 in fines and               Attorney’s Office, District of Minnesota, of
$393,000 in restitution to the tribe.             allegations of Federal program fraud, civil
                                                  rights violation related to election fraud,
                                                  bribery, embezzlement of tribal funds,
                                                  conspiracy, and other corrupt activities by
                                                  elected public officials of a Minnesota Indian
                                                  tribe. This investigation resulted in the
                                                  indictment and conviction of three tribal
                                                  leaders: the chairman of the tribe, a
                                                  secretary/treasurer, and a councilman. The


12           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
three tribal officials were sentenced in            Program. OIG made two recommendations
Federal district court in Minneapolis,              to improve BLM’s accounting practices for
Minnesota, to combined sentences of                 Program funds. BLM concurred with the
134 months of imprisonment and 108                  recommendations, stating that it will expand
months of probation and were ordered to             the use of its program support cost
pay $67,000 in fines and restitution of             methodology to all field offices or implement
$844,310. This investigation, which                 alternative techniques to improve cost
focused on the tribe’s construction of a            allocations for charging future buyouts and
gaming casino and the award of a $2.8               permanent-change-of-station costs. Based
million painting and drywall subcontract,           on BLM’s response to our draft report, OIG
revealed that the tribal councilman owned           requested information as to when these
the company which received the subcontract          actions would be accomplished.
and gave a secret interest in it to the tribal
chairman. The investigation also disclosed
that the tribal chairman received more than         Bureau of
$400,000 in illicit gratuities from the
company and that the tribe’s
                                                    Reclamation
secretary/treasurer, who approved the
subcontract award, received more than               Management and Internal Control
$21,000 from the company. A fourth                  Improvements Needed
individual, a tribal member charged with
notarizing several hundred bogus absentee
ballots, pled guilty to lying to OIG agents
investigating the bogus ballots and was
                                                    O     ur audit of the Bureau of Reclamation’s
                                                          (BOR) Administrative Service Center
                                                    mainframe computer system and its
awaiting sentencing.                                processing environment identified 15
                                                    weaknesses. Specifically, the report
                                                    identified weaknesses in computer center
Bureau of Land                                      management and operations; local area
Management                                          network protection; access to the Federal
                                                    Financial System; mainframe computer
                                                    system physical and logical security; and
Funds Generally Spent for Program                   contingency planning, backup, and disaster
Purposes                                            recovery. Based on BOR’s response to our
                                                    draft report, we considered 13 of the

I  n the first of three audit reports on BLM’s
   Wild Horse and Burro Program, OIG
stated that BLM had recorded and generally
                                                    report’s 24 recommendations resolved and
                                                    implemented and 10 recommendations
                                                    resolved but not implemented. We have
spent funds for Program purposes in                 requested BOR to reconsider the remaining
accordance with its accounting procedures.          recommendation, which is unresolved.
OIG did state, however, that BLM had
inaccurately classified certain indirect salaries
as direct costs in its financial records for the



              Semiannual Report to the Congress: October 1, 1996 - March 31, 1997             13
Subcontractors’ Claims Not                       we took exception to costs of $479,061
Substantiated                                    because these costs were unallowable or
                                                 were duplicated and because the overhead
                                                 rate was excessive.
W       e performed audits of two
        resubmitted claims of two
subcontractors that were included in a
certified claim filed by the contractor for
                                                 Insular Areas
$31,040,071 for constructing a visitors
center and parking structure at Hoover Dam,      GUAM
Nevada. Responses to both of these reports
were not due by the end of this reporting        Legislative Expenditures Not
period. The original claims were audited         Controlled Adequately
during 1995 and 1996.

As a part of the $31,040,071 claim, the
contractor proposed $1,136,120 for a
                                                 T    he Guam Legislature did not adequately
                                                      control its expenditures. Specifically,
                                                 the Legislature: (1) expended funds for
subcontractor that performed structural and      nongovernmental and questionable activities
ornamental iron work. The subcontractor          and misclassified expenditures during fiscal
submitted both a certified claim and an          years 1993, 1994, and 1995; (2) did not
alternative claim. We questioned the entire      prepare annual financial statements required
amount of each claim because the                 by Guam statute; (3) purchased equipment
subcontractor did not separately account for     without complying with the Legislature’s
claimed costs, as required by the prime          procurement rules; and (4) did not account
contract. Even though we questioned the          for office equipment and other reportable
entire claimed amounts, we provided the          property purchased with legislative funds.
contracting officer with information to assist   These conditions occurred because the
in reaching a determination of costs. Of the     Legislature did not have written guidelines
$1,136,120 proposed in the certified claim,      defining allowable and unallowable
we took exception to costs of $340,804 and       expenditures, a comprehensive accounting
classified costs of $465,302 as unsupported.     system, and written procedures for
Of the $1,070,658 proposed in the                implementing legislative procurement and
alternative claim, we took exception to costs    property management rules. As a result, the
of $490,579 and classified costs of $190,709     Legislature: (1) incurred almost $709,000 in
as unsupported.                                  questionable expenditures; (2) did not have
                                                 adequate accountability over legislative
Of the second subcontractor’s claim for          expenditures of $51.5 million; (3) did not
$2,251,028, we questioned the entire amount      have assurance that full value was received
because the subcontractor did not separately     for equipment and services totaling
account for these costs. However, we             approximately $241,000; and (4) did not
provided the contracting officer with            have adequate accountability over reportable
information to assist in reaching a              property totaling approximately $55,000.
determination of costs. Of the $2,251,028,       Based on the Legislature’s response to our


14           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
final report, we considered one of the           response to our draft report and documents
report’s six recommendations resolved and        subsequently provided, we considered all five
implemented and two recommendations              of the report’s recommendations resolved
resolved but not implemented, and we             and implemented.
requested additional information for the
remaining three recommendations. This            Former Businessman Sentenced
information was not due by the end of this
reporting period.

Costs of $5 Million Questioned
                                                 A    joint OIG-FBI investigation resulted in
                                                      the conviction of a Guam businessman
                                                 in connection with the bribery of an
                                                 undercover FBI agent posing as a U.S.

A     lthough the Guam Mass Transit
      Authority had taken action to improve
financial controls, reduce operating costs,
                                                 Department of Labor (DOL) official. The
                                                 Wage and Hour Division of DOL had
                                                 assessed the businessman a $300,000 fine in
and increase revenues, it: (1) issued            connection with wage and hour violations.
contracts in which contractors were              The businessman paid a $26,000 bribe to
compensated on a cost plus a percentage of       obtain a reduction of the wage and hour fine.
cost basis; (2) incurred and paid costs before   The businessman was sentenced to 6 months
contracts were approved; (3) issued purchase     of home confinement, 3 years of probation,
orders on a noncompetitive basis; (4) issued     and 750 hours of community service; was
contracts to companies that employed             ordered to make restitution in the amount of
immediate family members of Authority            $300,000; and was fined $12,050.
procurement officials; and (5) did not comply
with the staffing level authorized by the        Former Company Official
Guam Legislature. In addition, the Authority     Sentenced
had not ensured that: (1) contractors’
invoices included only supported costs which
were in compliance with contract terms; (2)
contractors’ costs were within their
                                                 A     former official of a Guam golf course
                                                       company pled guilty in Federal Court,
                                                 Agana, Guam, to one charge each of wire
approved budgets; and (3) the maintenance        fraud and money laundering in connection
and repair contractor maintained an adequate     with a scheme that involved bribery of a
number of buses to meet the Authority’s          Government of Guam official to lower the
service needs. These conditions occurred         appraised value of public land. The golf
because the Authority had not developed and      course company then leased the land under
implemented procurement and contract             favorable terms from the Government of
oversight procedures. In addition, the           Guam to construct a golf course. The
former Board of Directors had not provided       official also solicited and received kickbacks
adequate oversight and control over              from contractors who were awarded
Authority management. As a result, during        contracts to construct various aspects of the
fiscal years 1993 through 1995, the              golf course. The official was sentenced to
Authority incurred questioned costs of about     27 months of imprisonment, 3 years of
$5 million. Based on the Authority’s             probation on each charge, and 500 hours of


             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997             15
community service. The official was also         disaster-related projects involving public
required to surrender 69,500 shares of           facilities owned by local governments and
personally owned golf course stock to a          nonprofit organizations. However, the
business that was victimized by the scheme.      information required by the Office to
                                                 monitor the results of disaster-related
                                                 activities, such as drawdown and
U.S. VIRGIN ISLANDS                              disbursement of funds data, was not
                                                 processed by the Virgin Islands Department
Hurricane-Related Audits                         of Finance in a timely manner because of
                                                 insufficient numbers of personnel at the
Conducted in Cooperation With
                                                 Department to post the data timely to the
FEMA’s OIG                                       Financial Management System. As a result,
                                                 six drawdowns of funds, totaling
O     n September 15, 1995, Hurricane
      Marilyn struck the U.S. Virgin Islands,
causing major damage to public and private
                                                 $18.6 million, received through
                                                 December 31, 1995, were not recorded as of
                                                 February 1996, and expenditures of $14.5
structures and prompting the President to        million that were recorded for Program
issue a major disaster declaration. As a         projects as of December 31, 1995, did not
result, as of July 2, 1996, FEMA approved        represent the total expenditures through that
disaster grants of $109.6 million                date. We made seven recommendations that
($98.8 million as the Federal share and $10.8    addressed financial management, project
million as the local share) for the Virgin       administration, and the potential for funding
Islands Office of Management and Budget.         duplicative disaster recovery efforts. Based
Reviews were conducted under a                   on the Governor’s response to the final
cooperative agreement between OIGs of            report, we considered four of the report’s
FEMA and DOI, with participation from the        seven recommendations resolved and
Virgin Islands Bureau of Audit and Control.      implemented, one recommendation resolved
These reviews covered four functional areas:     but not implemented, and two
grant administration, accounting controls,       recommendations unresolved. The
hurricane-related contracting, and               unimplemented and unresolved
community disaster loans. As of March 31,        recommendations were referred to the
1997, all 13 of the final reports on the         Assistant Secretary for Policy, Management
hurricane-related audits had been issued.        and Budget for tracking of implementation
The five reports issued since our October        and/or for resolution.
1996 semiannual report (eight reports were
issued prior to that date) are summarized as         - Accounting Controls. The Virgin
follows:                                         Islands Department of Health had not
                                                 established procedures and controls that, in
    - Grant Administration. The Virgin           our opinion, would address the specific
Islands Office of Management and Budget          record-keeping requirements for FEMA or
established procedures to oversee financial      the Virgin Islands Government. We
and program operations of the Public             recommended that the Director of the Virgin
Assistance Program, which comprises


16           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
Islands Office of Management and Budget,         to the draft report, we considered four of the
in his capacity as the Governor’s Authorized     report’s seven recommendations resolved
Representative, direct the Department to         and implemented and requested that the
implement procedures and controls to ensure      Authority reconsider the remaining three
that: (1) costs are properly allocated among     recommendations, which are unresolved.
Damage Survey Reports; (2) adequate              The response to the final report was not due
documentation is maintained for hurricane-       by the end of this reporting period.
related expenditures; and (3) competitive
procedures are used for procurements.                - Contracting Practices. The Virgin
Based on the Office’s response to the draft      Islands Department of Public Works made
report, we considered the report’s               reasonable efforts to obtain competitive
recommendation resolved and implemented.         prices for debris removal services, but it did
                                                 not process procurement actions through the
The Virgin Islands Department of Public          Virgin Islands Department of Property and
Works designed a system of accounting            Procurement, as required by the Virgin
controls and procedures that should be           Islands Code. As a result, the Government’s
adequate to address FEMA’s record-keeping        interests were not safeguarded through
requirements, but it did not fully implement     formal contracts for debris removal services
those controls and procedures. Based on the      acquired at a total cost of approximately
response to the final report from the Office     $1.8 million. We recommended that the
of Management and Budget, which                  Department of Property and Procurement, in
responded for the Department, we                 coordination with the Department of Public
considered all of the report’s three             Works, establish contingency plans for
recommendations resolved but not                 procuring emergency debris removal and
implemented and requested additional             other emergency services in case of another
information on the recommendations.              hurricane or natural disaster. Based on the
                                                 Governor’s response to our draft report, we
The Virgin Islands Water and Power               considered all three of the report’s
Authority implemented a system of                recommendations resolved but not
accounting controls and procedures that          implemented.
should be adequate to address FEMA’s
record-keeping requirements, but Authority       Improvements Over Land Rentals
personnel did not comply with those              and Cash Collections Needed
established controls and procedures.
Specifically, the Authority did not always
identify expenditures to specific Damage
Survey Reports; it issued at least two "cost
                                                 T    he Division of Agriculture (now the
                                                      Virgin Islands Department of
                                                 Agriculture) did not: (1) ensure that farmers
plus percentage of cost" contracts, which are    complied with the terms and conditions of
prohibited by FEMA’s requirements; and it        formal rental agreements for the use of
did not have adequate control over materials     Government-owned land; (2) develop and
and supplies used during the recovery            maintain complete and accurate information
process. Based on the Authority’s response       on the status of leases and vacant parcels of



             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997            17
farmland under its jurisdiction; (3) collect all   because of insufficient priority on these
revenues due the Government for                    issues, inadequate followup, insufficient
agricultural programs; (4) purchase                dissemination of information to employers
agricultural products in accordance with           and employees, and inefficient organization;
existing procurement laws and regulations;         and the Office of the Government Insurance
(5) improve inventory control over                 Fund did not ensure that revenues and
agricultural products held for resale; and         expenditures were authorized and properly
(6) repair its office facilities on St. Thomas     recorded in the Fund’s accounting records
to make them safe for Division employees.          because of insufficient review of Fund
As a result of these deficiencies, the Division    transactions and inadequate reconciliation of
lost at least $90,000 in potential land rental     accounts. We made 15 recommendations to
revenues and did not adequately control            the Governor of the Virgin Islands to address
annual cash collections of about $200,000          these issues. The Virgin Islands Department
and inventories of agricultural products           of Labor agreed to take action to address
valued at about $207,000. The Governor of          seven of the recommendations, for which we
the Virgin Islands did not respond to the          requested documentation evidencing
report’s eight recommendations, which were         completion of the planned actions.
referred to the Assistant Secretary for Policy,    However, the eight recommendations
Management and Budget for resolution.              relating to insurance premium collections and
                                                   Fund administration are considered
Workmen’s Compensation                             unresolved because the Governor of the
Deficiencies Cited                                 Virgin Islands did not respond to these
                                                   recommendations.

B    ased on our review of the Government
     of the Virgin Islands Workmen’s
Compensation Program, we concluded that
                                                   Loan Application Process and
                                                   Collection Enforcement
the Division of Workmen’s Compensation             Improvements Needed
and the Office of the Government Insurance
Fund needed to make improvements in the
areas of collecting insurance premiums,
disbursing compensation, and safeguarding
                                                   T    he Virgin Islands Small Business
                                                        Development Agency needed to
                                                   improve its loan application process and the
Government Insurance Fund resources.               level of collection enforcement for
Specifically, the Office of the Government         delinquent loans. Specifically, we found that
Insurance Fund was not effectively enforcing       the Agency: (1) did not always adequately
the collection of workmen’s compensation           verify and analyze data in loan application
premiums because of limited coordination,          packages to determine the applicants’ credit
collection efforts, and communication              worthiness, financial stability, and ability to
between the respective offices; the Division       repay the loans;
of Workmen’s Compensation took as long as          (2) did not always secure adequate collateral
5 months to process employee claims and did        to protect the Government’s interests;
not periodically reevaluate the status of          (3) did not maintain an up-to-date record of
claimants receiving disability payments            outstanding loans; (4) did not refer loans in


18            Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
default to a private collection agency or to     income contributions from persons outside
the Virgin Islands Attorney General in a         the household; (3) required a competent
timely manner; and (5) did not provide           professional authority (as defined in 7 CFR
technical assistance to borrowers to help        246.2) to review and approve nutritional risk
them better manage their business finances.      assessments and food package
These deficiencies occurred because Agency       determinations at the time of certification of
personnel did not supplement basic               applicants; and (4) updated the drawdown
guidelines by establishing comprehensive         process for the food portion of the grant
policies and procedures for analyzing loan       funds. Based on the response to the draft
applications and for determining the type of     report from the Governor of the Virgin
collateral that would be considered adequate.    Islands, we considered four of the report’s
As a result of these deficiencies, the Agency    six recommendations resolved but not
had an overall delinquency rate of 70            implemented and two recommendations
percent, which represented 295 active loans,     unresolved. Although we requested
totaling about $6.1 million, that had become     additional information for the unresolved
delinquent since May 1971. In addition, the      recommendations, this information was not
Agency was required to pay off at least 15       due by the end of this reporting period.
guaranteed loans, totaling more than
$600,000, that were defaulted on by the
original borrowers. Based on the                 Minerals
Governor’s response to our draft report, we
considered all four of the report’s
                                                 Management
recommendations resolved but not
implemented.
                                                 Service
                                                 Contractor’s Costs Questioned
Program Administration Could Be
More Effective
                                                 D     uring 1985 and 1986, MMS issued
                                                       four cost-plus-fixed-fee contracts to
T    he Virgin Islands Department of Health
     administered the Women, Infants and
Children (WIC) Program in an effective
                                                 study California coastal commercial and
                                                 sport fisheries, monitor gray whales, and
                                                 administer technical conferences on the
manner and in compliance with grant terms        Alaska and Pacific Outer Continental
and applicable laws and regulations.             Shelves. After modifications, the contracts
However, we believe that administration of       totaled $1,681,539. During 1995, we
the WIC Program could be even more               audited the contractor’s claim for
effective if the Department took the             $1,665,636 and classified $720,169 as
following actions: (1) ensured that              unsupported. In response to that report, the
administrative funds were expended in            contractor reconstructed its accounting
accordance with established criteria and used    system and located documentation that was
exclusively for WIC Program activities; (2)      not available during the initial audit. This
required Program personnel to query              resulted in the costs claimed being increased
applicants and document the results for          by $237, to $1,665,873. We questioned


             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997            19
$180,134 of the $1,665,873 because the              reports that were issued by OIG and 1 audit
costs were in excess of costs incurred, were        report issued by GAO on the operations of
duplicated, were unsupported, or were for           the System by BLM and MMS. The 12
the purchase of unallowable beverages at a          audit reports summarized in the Biennial
conference. A response to this report was           Report had monetary impacts totaling over
not due by the end of this reporting period.        $92 million on various aspects of the System.
                                                    OIG concluded that MMS had made
Record Penalty Imposed for Unsafe                   significant progress in implementing the
Operation of Offshore Oil Well                      recommendations from the Task Force on
                                                    Royalty Compliance and that BLM had
                                                    discontinued the rental rate reduction for oil
A    n oil company agreed to pay a record
      $1,165,000 penalty in settlement of a
lawsuit for alleged violations of critical safety
                                                    and gas leases issued before 1987. GAO
                                                    concluded that MMS needed to encourage
regulations on its offshore drilling platform       the development of nonexplosive
in the Pacific Ocean near Ventura,                  technologies for removing well structures so
California. The investigation revealed that         that environmental damage would be
the oil company had been operating an oil           eliminated or minimized and to develop an
well from May through September 1994 with           overall strategy for properly plugging and
nonfunctioning safety valves. These critical        abandoning wells and for clearing lease sites
valves are designed to prevent blowouts, the        when oil and gas production ended. The
uncontrolled dangerous flow of oil and              Biennial Report stated that further
natural gas, and are considered to be the           improvements were needed to enhance oil
most important safety feature on an offshore        and gas royalty collections, but the Biennial
oil well. This is the largest penalty ever          Report did not make any new
assessed for violation of the Outer                 recommendations, stating that "the
Continental Shelf Lands Act and reflects            Department has generally been responsive to
rigorous enforcement of safety regulations to       the [28] audit recommendations (made in the
protect against catastrophic consequences of        12 audit reports) and has made the suggested
oil spills.                                         improvements to the Program."

                                                    Improvements in Overtime Controls
Multi-Office                                        Needed

Royalty Collections To Be Enhanced
                                                    D     OI did not have adequate guidance on
                                                          the use of administratively

I  n accordance with Section 302(b) of the
   Federal Oil and Gas Royalty Management
Act of 1982, OIG issued its Biennial Report
                                                    uncontrollable overtime. Specifically, four of
                                                    the five bureaus that used this form of
                                                    premium pay had not issued sufficient
on the Federal Royalty Management System            procedures for documenting overtime work,
for fiscal years 1994 and 1995, which was           computing the overtime pay rates, or
the sixth Biennial Report issued. The report        establishing employee eligibility for the pay.
was prepared based on the results of 11 audit       In some instances, bureaus did not comply



20            Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
with bureau-issued guidance on the use of
administratively uncontrollable overtime. As      National Park
such, we concluded that DOI did not have
assurance that administratively
                                                  Service
uncontrollable overtime payments were
appropriate or were computed properly.            High Cost of Employee Housing
Although we found that the methods used by        Noted
two bureaus to compute overtime rates
resulted in excess payments totaling as much
as $70,000, we found no evidence that the
bureaus or their employees systematically
                                                  O      IG concluded that the decision of the
                                                         National Park Service (NPS) to build
                                                  high quality, energy efficient single-family
abused this form of premium pay. To               homes resulted in high-cost employee
address the deficiencies, we recommended          housing at Grand Canyon and Yosemite
that DOI issue policies and procedures for        National Parks. Specifically, NPS spent
the use of administratively uncontrollable        $29.2 million to plan, design, develop
overtime, the bureaus issue policies to           infrastructure for, and construct 23 single-
implement DOI guidelines and ensure               family houses at Grand Canyon National
compliance with these guidelines, and one         Park and 34 apartments and 19 single-family
bureau discontinue the use of                     houses at Yosemite National Park. On a per
administratively uncontrollable overtime by       house basis, the average costs of the single-
employees who do not meet Federal and             family homes were $390,0000 at Grand
DOI eligibility requirements. Based on            Canyon and $584,000 at Yosemite National
DOI’s response to our draft report, we            Parks. In contrast, single-family housing
considered one of the report’s three              costs in the private sector ranged from an
recommendations resolved and implemented          estimated $102,000 to $250,000 near
and two recommendations resolved but not          Yosemite National Park and from an
implemented. Accordingly, the                     estimated $115,000 to $232,000 near Grand
unimplemented recommendations were                Canyon National Park. NPS attributed the
referred to the Assistant Secretary for Policy,   higher housing costs to expenses for
Management and Budget for tracking of             designing the homes and acquiring materials
implementation.                                   that provided greater energy efficiency,
                                                  lower maintenance costs, and greater
                                                  durability. We recommended that NPS focus
                                                  its efforts on meeting its housing needs in a
                                                  cost-effective manner. Based on NPS’s
                                                  response to our final report, we considered
                                                  the report’s recommendation resolved and
                                                  implemented.




             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997            21
Improvements in Oversight of                     Equitable Adjustment Proposal
Concessioners Needed                             Filed


N     PS’s National Capital Area
      (Washington, D.C.) was generally
providing adequate management and
                                                 N     PS entered into a contract with a
                                                       construction company to provide
                                                 building, parking, and roadway
oversight of two of its concessioners.           improvements to a beach facility. The
However, improvements were needed in             contractor filed an equitable adjustment
preparing operating and maintenance plans,       proposal of $1,143,635 for extended
scheduling and monitoring operating hours        overhead, financial damages, and extra work
and seasons, approving rates and prices,         related to construction delays. At our
modifying a contract to reflect changes in the   request, the Defense Contract Audit Agency
number of facilities operated, ensuring that     audited the proposal and questioned the
one concessioner rendered services in            entire $1,143,635. The cost exceptions
compliance with its concessions contract,        identified were for payments made to
ensuring that concessioners paid the proper      subcontractors that exceeded the subcontract
amounts of utility costs and building use and    price, extended overhead costs for delays
franchise fees, and ensuring that the            that were caused by the contractor,
concessioners maintained adequate controls       unsupported charges for financial damages
over revenues on which franchise fees are        caused by purported Government delays, and
based. These improvements were needed            disallowed liquidated damages not assessed
because NPS had not implemented measures         by NPS. A response to this report was not
to ensure that concessioners: (1) complied       due by the end of this reporting period.
with NPS regulations and concessions
contract provisions and (2) maintained           Small Business Set-Aside Contract
adequate records of concessions revenues.        Obtained Illegally
Also, NPS had not ensured that one
concessioner provided services in accordance
with the terms of its concessions contract.
Based on NPS’s response to the draft report,
                                                 N     PS awarded a $71,688 contract in 1994
                                                       to a Seattle, Washington, corporation
                                                 to furnish, deliver, and set up a double-wide
we considered two of the report’s eight          manufactured housing unit to be used as
recommendations resolved and implemented         office space for a national park in Idaho.
and six recommendations resolved but not         The contract was set aside for small
implemented.                                     businesses and required a certification from
                                                 the bidder that it was a small business
                                                 concern. The company specifically
                                                 represented to NPS that it was a small
                                                 business concern and that it therefore
                                                 qualified for bidding under the contract. In
                                                 June 1995, the company successfully
                                                 completed the contract, and the work was
                                                 accepted by NPS. However, in April 1996,


22           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
NPS learned that the company was, in fact, a     coordination between the assistance program
large business and had misrepresented its        director and OSM staff to ensure compliance
size. NPS referred these findings to OIG,        with the agreement’s financial management,
which opened an investigation and reported       accounting, and reporting requirements.
its findings to the Department of Justice’s      Based on OSM’s response to the draft
U.S. Attorney’s Office in Seattle. Although      report, we considered all three of the
the U.S. Attorney’s Office declined criminal     report’s recommendations resolved but not
prosecution, it decided to pursue civil          implemented.
remedies against the corporation under the
False Claims Act, which provides up to triple
damage awards against companies making           U.S. Fish and
false claims to the Government. Based on
this civil pursuit, the corporation paid a
                                                 Wildlife Service
$5,000 fine in settlement of its false claims.
                                                 Costs of Wildlife and Sport Fish
                                                 Restoration Grants Questioned
Office of Surface
Mining                                           O     IG issued three audit reports prepared
                                                       by the Defense Contract Audit Agency
Reclamation and                                  on the costs claimed for reimbursement
                                                 under grants awarded to the States of
Enforcement                                      Connecticut, Wyoming, and California for
                                                 the period of July 1993 through June 1995
                                                 for sport fish and wildlife restoration The
Additional Controls Over Technical
                                                 audits were requested by the U.S. Fish and
Assistance Agreement Needed                      Wildlife Service (FWS). Responses to these
                                                 reports were not due by the end of this
O     SM needs to strengthen controls over a
      technical assistance agreement with the
Republic of Indonesia. In that regard, we
                                                 reporting period.

                                                 In the first audit, the Audit Agency reviewed
found that financial information related to      costs of $8,146,877 spent by the State of
the technical assistance project was not         Connecticut. Of this amount, the Audit
reported consistently or documented              Agency questioned costs of $1,750,514,
adequately. Specifically, costs recorded in      which consisted of $1,606,605 for labor and
billing statements did not agree with costs      fringe benefits for State employees who were
recorded in quarterly reports, and               not working directly on the grant and
insufficient documentation was maintained to     $143,909 for travel, supplies, and other
support the costs on which a fixed               expenses because the State could not provide
administrative overhead rate was applied.        documentation that the expenses were
We also found that OSM needs to improve          chargeable to the grant.




             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997           23
In the second audit, the Audit Agency
reviewed costs of $14,961,502 spent by the        U.S. Geological
State of Wyoming. Of this amount, the
Audit Agency questioned costs of $190,417,
                                                  Survey
which consisted of $168,417 for excessive
vehicle usage costs and $22,000 for               Purchase Card Fraud Discovered
construction of a restroom and changing
facility, which were not allocable to the grant
project.                                          A     n employee with the U.S. Geological
                                                        Survey’s (USGS) Water Resources
                                                  Division in Atlanta, Georgia, made charges
In the third audit, the Audit Agency              of $25,575 to a Government purchase card
questioned costs of $3,351,268 of the             for personal goods and services not related
$36,425,434 spent by the State of California.     to USGS’s mission. The purchase card is a
These costs consisted of $3,238,665, which        credit card used throughout DOI for official
were allocable to another Federally funded        small purchase activities. The investigation
program, and $112,603, which represented          revealed that from December 1995 through
FWS’s share of Hunter Safety Instruction          August 1996, the employee charged goods
Validation Stamp fees that were not               and services for personal benefit and
deducted from program costs, as required by       concealed the purchasing activity from her
regulations.                                      supervisor’s attention by falsely reporting no
                                                  purchasing activity against the purchase card.
                                                  During the investigation, the employee
                                                  resigned from USGS and moved from the
                                                  Atlanta area. The employee pled guilty to
                                                  wire fraud in connection with the theft and
                                                  was sentenced to 6 months of imprisonment,
                                                  3 months of home confinement, 3 years of
                                                  supervised release, and 200 hours of
                                                  community service. The employee also was
                                                  ordered to make restitution in the amount of
                                                  $25,575.




24           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
                                              APPENDIX 1

                     SUMMARY OF AUDIT ACTIVITIES FROM
                    OCTOBER 1, 1996, THROUGH MARCH 31, 1997
                                   AUDITS PERFORMED BY:
                                                  OTHER
                                                 FEDERAL            NON-FEDERAL
                                                AUDITORS              AUDITORS
                                              (With Review and      (With Review and
                                                Processing by        Processing by
                          OIG STAFF              OIG Staff)            OIG Staff)

                         Internal and           Contract and
                        Contract Audits         Grant Audits          Single Audits        TOTAL

REPORTS ISSUED TO:


Department/ Office
of the Secretary                          6                    1                      10            17

Fish and Wildlife
and Parks                                 2                    12                     81            95

Indian Affairs                            4                    4                  202              210

Insular Areas                         14                       0                      19            33


Land and Minerals
Management                                7                    6                      79            92

Water and Science                         4                    15                     20            39

  Subtotal                            37                       38                 411              486

INDIRECT COST PROPOSALS NEGOTIATED FOR:

Indian Tribes and
Organizations                        162                       0                      0            162

State Agencies                        31                       0                      0             31

  Subtotal                           193                       0                      0            193

    TOTAL                            230                       38                 411              679




                Semiannual Report to the Congress: October 1, 1996 - March 31, 1997                 25
                                                                APPENDIX 2

  AUDIT REPORTS ISSUED OR PROCESSED AND INDIRECT COST
 PROPOSALS NEGOTIATED DURING THE 6-MONTH PERIOD ENDED
                     MARCH 31, 1997


     This listing includes all internal, contract, and single audit reports issued and indirect cost agreements negotiated during the 6-month period ended
     March 31, 1997. It provides report number, title, issue date, and monetary amounts identified in each report (*funds to be put to better use,
     **questioned costs, ***unsupported costs (unsupported costs are included in questioned costs), and ****lost or potential additional revenues).




INTERNAL AUDITS                                        BUREAU OF LAND                                              97-I-488 FINANCIAL
                                                       MANAGEMENT                                                  MANAGEMENT
                                                                                                                   MODERNIZATION
BUREAU OF INDIAN                                       97-I-319 BUREAU OF LAND                                     PROJECT, GOVERNMENT
AFFAIRS                                                MANAGEMENT COMBINED                                         OF GUAM (2/19/97)
                                                       COMPARATIVE FINANCIAL
97-I-136 JUDGMENT FUNDS                                STATEMENTS FOR FISCAL                                       97-I-591 GUAM
AWARDED TO THE                                         YEARS 1995 AND 1996                                         LEGISLATURE,
SEMINOLE NATION OF                                     (1/16/97)                                                   GOVERNMENT OF GUAM
OKLAHOMA (11/7/96)                                                                                                 (3/24/97) *$1,004,084
                                                       97-I-375 EXPENDITURES
97-I-196 STATEMENT OF                                  CHARGED TO THE WILD                                         97-I-617 FOLLOWUP OF
ASSETS AND TRUST FUND                                  HORSE AND BURRO                                             RECOMMENDATIONS
BALANCES AT                                            PROGRAM, BUREAU                                             CONCERNING FOOD
SEPTEMBER 30, 1995,                                    OF LAND MANAGEMENT                                          SERVICES OPERATIONS,
OF THE TRUST FUNDS                                     (2/7/97)                                                    DEPARTMENT OF
MANAGED BY THE OFFICE                                                                                              EDUCATION, GOVERNMENT
OF TRUST FUNDS                                                                                                     OF
                                                       BUREAU OF                                                   GUAM (3/26/97) **$351,231
MANAGEMENT (12/13/96)                                  RECLAMATION
97-I-504 DIRECT AND                                                                                                U.S. Virgin Islands
                                                       97-I-683 MAINFRAME
GUARANTEED LOAN                                        COMPUTER POLICIES AND
PROGRAMS,                                                                                                          97-E-29 ACCOUNTING
                                                       PROCEDURES,                                                 CONTROLS FOR DISASTER
EASTERN AREA OFFICE,                                   ADMINISTRATIVE
BUREAU OF INDIAN                                                                                                   ASSISTANCE FUNDS,
                                                       SERVICE CENTER, BUREAU                                      DEPARTMENT OF HEALTH,
AFFAIRS                                                OF RECLAMATION (3/31/97)
(3/10/97)                                                                                                          GOVERNMENT OF THE
                                                                                                                   VIRGIN ISLANDS (10/9/96)
97-I-549 REVIEW OF
                                                       INSULAR AREAS
UNDELIVERED ORDERS AT
SELECTED LOCATIONS,                                    Guam
BUREAU OF INDIAN
AFFAIRS                                                97-I-241 GUAM MASS
(3/3/97)                                               TRANSIT AUTHORITY,
                                                       GOVERNMENT OF GUAM
                                                       (3/31/97) **$4,977,487



26                Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
97-I-40 DIVISION OF              97-E-279 ACCOUNTING              NATIONAL PARK
AGRICULTURE,                     CONTROLS FOR DISASTER            SERVICE
DEPARTMENT                       ASSISTANCE FUNDS, VIRGIN
OF ECONOMIC                      ISLANDS                          97-I-224 COST OF
DEVELOPMENT                      WATER AND POWER                  CONSTRUCTION OF
AND AGRICULTURE,                 AUTHORITY                        EMPLOYEE HOUSING AT
GOVERNMENT OF THE                (1/7/97)                         GRAND CANYON AND
VIRGIN ISLANDS (10/21/96)                                         YOSEMITE NATIONAL
****$90,000                      97-I-590 SUPPLEMENTAL            PARKS, NATIONAL PARK
                                 FOOD PROGRAM FOR                 SERVICE (12/6/96)
97-E-55 ACCOUNTING               WOMEN,                           97-I-515 OVERSIGHT OF
CONTROLS FOR DISASTER            INFANTS AND CHILDREN,            CONCESSIONS OPERATIONS
ASSISTANCE FUNDS,                DEPARTMENT OF HEALTH,            AND FEE PAYMENTS,
DEPARTMENT OF PUBLIC             GOVERNMENT OF THE                GUEST SERVICES, INC., AND
WORKS, GOVERNMENT OF             VIRGIN ISLANDS (3/24/97)         ROCK CREEK PARK HORSE
THE VIRGIN ISLANDS               **$32,500                        CENTER, INC., NATIONAL
(10/21/96)                                                        PARK SERVICE (2/28/97)
                                 MINERALS
97-E-189 SUBGRANT                MANAGEMENT
ADMINISTRATION FOR
                                                                  OFFICE OF THE
DISASTER ASSISTANCE
                                 SERVICE                          SECRETARY
FUNDS, OFFICE OF
MANAGEMENT AND                   97-I-445 MINERALS                97-I-396 OFFICE OF
BUDGET, GOVERNMENT OF            MANAGEMENT SERVICE               INSULAR AFFAIRS
THE VIRGIN                       FINANCIAL STATEMENTS             CONSOLIDATED FINANCIAL
ISLANDS (11/26/96)               FOR FISCAL YEARS 1995            STATEMENTS FOR FISCAL
                                 AND 1996 (2/7/97)                YEARS 1995 AND 1996
97-E-239 PROCUREMENT                                              (1/29/97)
PRACTICES FOR                    MULTI-OFFICE
HURRICANE-RELATED                                                 97-I-550 RECOVERY OF
DEBRIS REMOVAL,                  97-I-408 BIENNIAL                COSTS OF THE WORKING
DEPARTMENT                       REPORT ON THE FEDERAL            CAPITAL FUND, OFFICE OF
OF PUBLIC WORKS,                 ROYALTY MANAGEMENT               AIRCRAFT SERVICES,
GOVERNMENT OF                    SYSTEM FOR FISCAL YEARS          OFFICE OF THE SECRETARY
THE VIRGIN ISLANDS               1994 AND 1995 (2/19/97)          (3/12/97)
(12/17/96)
                                 97-I-548                         97-I-619 DEPARTMENT OF
97-I-243 WORKMEN'S               ADMINISTRATIVELY                 THE INTERIOR
COMPENSATION PROGRAM,            UNCONTROLLABLE                   DEPARTMENTAL
GOVERNMENT OF THE                OVERTIME, DEPARTMENT             OFFICES FINANCIAL
VIRGIN ISLANDS                   OF THE INTERIOR (2/27/97)        STATEMENTS FOR FISCAL
(12/30/96)** $875,000 &                                           YEARS 1995 AND 1996
**** $1,655,000                                                   (3/17/97)

97-I-257 SMALL BUSINESS
DEVELOPMENT AGENCY,
GOVERNMENT OF THE
VIRGIN ISLANDS (1/15/97)
*$6,100,000




             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997        27
97-I-682 DEPARTMENT OF         CONTRACT AND
THE INTERIOR ACTIVITIES                                         97-E-398 HALIBURTON
RELATED TO                     GRANT AUDITS                     NUS ENVIRONMENTAL
MANAGEMENT OF                                                   CORPORATION, COSTS
THE NATURAL RESOURCES          BUREAU OF INDIAN                 INCURRED FOR FISCAL
DAMAGE ASSESSMENT              AFFAIRS                          YEAR ENDED
RESTORATION FUND                                                DECEMBER 28, 1991 (2/6/97)
(3/31/97)                      97-E-226 NEW MEXICO
                               STATE UNIVERSITY, COSTS          97-E-399 HALIBURTON
OFFICE OF SURFACE              INCURRED FOR FISCAL              NUS ENVIRONMENTAL
MINING                         YEAR ENDED JUNE 30, 1995         CORPORATION, COSTS
                               (12/11/96)                       INCURRED FOR FISCAL
RECLAMATION AND                                                 YEAR ENDED
ENFORCEMENT                    97-E-227 NEW MEXICO              DECEMBER 28, 1992 (2/6/97)
                               STATE UNIVERSITY,
97-I-56 STATE                  OVERHEAD COST                    97-E-451 INFOTEC
RECLAMATION                    PROPOSAL TO ESTABLISH            DEVELOPMENT, INC., DATA
AND REGULATORY GRANT           NEGOTIATED FIXED RATES           PRODUCTS DIVISION,
PROGRAMS, OFFICE OF            FOR FISCAL YEAR ENDED            COSTS INCURRED FOR
SURFACE MINING                 JUNE 30, 1997 (12/12/96)         FISCAL YEAR ENDED
RECLAMATION AND                                                 SEPTEMBER 30, 1992
ENFORCEMENT (10/29/96)                                          (2/13/97)
                               97-E-431 C.C. JOHNSON AND
                               MALHOTRA, P.C., FINAL
97-I-165 FINANCIAL             COST PROPOSAL                    97-E-539 COMPUTER
CONTROLS OVER THE              SUBMITTED TO THE                 SCIENCES CORPORATION,
TECHNICAL ASSISTANCE           BUREAU OF INDIAN                 SYSTEM SCIENCES
AGREEMENT WITH THE             AFFAIRS UNDER                    DIVISION, BILLING
REPUBLIC OF INDONESIA          CONTRACT NO.                     SYSTEM (3/3/97)
(12/3/96)                      CMK00130291
                               (2/6/97) **$2,887                BUREAU OF
97-I-271 OFFICE OF
SURFACE MINING
                                                                RECLAMATION
                               97-E-628 C.C. JOHNSON AND
RECLAMATION AND                MALHOTRA, P.C., SELECTED
ENFORCEMENT FINANCIAL                                           97-E-190 BURNS AND ROE
                               BILLS SUBMITTED TO THE           SERVICES CORPORATION,
STATEMENTS FOR FISCAL          BUREAU OF INDIAN
YEARS 1995 AND 1996                                             COSTS INCURRED FOR
                               AFFAIRS UNDER CONTRACT           CALENDAR YEAR 1993
(12/30/96)                     NO. CMK00130291                  (11/27/96)
                               (3/19/97)
U.S. GEOLOGICAL                                                 97-E-242 BURNS AND ROE
SURVEY                         BUREAU OF LAND                   SERVICES CORPORATION,
                               MANAGEMENT                       COSTS INCURRED FOR
97-I-98 GENERAL                                                 CALENDAR YEAR 1994
CONTROL ENVIRONMENT            97-E-188 PACER INFOTEC,          (12/19/96)
OF THE FEDERAL                 INC., LABOR FLOOR CHECK
FINANCIAL SYSTEM AT THE        (11/27/96)
RESTON GENERAL
PURPOSE COMPUTER
CENTER (10/31/96)




28         Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
97-E-336 J. WALLACE             MULTI-OFFICE                     U.S. FISH AND
ENTERPRISES, INC., AND                                           WILDLIFE SERVICE
AMERICAN BONDING                97-E-245 JOB CORPS,
COMPANY, COSTS                  INDEPENDENT AUDITORS’            97-E-100 U.S. FISH AND
CLAIMED UNDER BUREAU            REPORT AND COMBINING             WILDLIFE SERVICE
OF RECLAMATION                  SCHEDULES OF EXPENSES            WILDLIFE AND SPORT FISH
CONTRACT NO.                    FOR TWO FISCAL YEARS             RESTORATION GRANTS TO
1-CC-30-09150 (1/24/97)         ENDED JUNE 30, 1993              CONNECTICUT, TWO FISCAL
*$806,106                       (12/19/96)                       YEARS ENDED JUNE 30,
                                                                 1995 (10/30/96)
97-E-448 MCCAW’S                NATIONAL PARK                    **$1,750,514
DRILLING (USA), INC.,
CLAIM SUBMITTED TO
                                SERVICE
                                                                 97-E-162 GEONEX MARTEL,
BUREAU OF RECLAMATION                                            INC., COST PROPOSAL
UNDER                           97-E-180 EMS
                                CONSULTANTS, COSTS               SUBMITTED TO THE U.S.
CONTRACT NO.                                                     FISH AND WILDLIFE
1-CC-30-09150                   INCURRED FOR FISCAL
                                YEAR ENDED                       SERVICE UNDER
(2/13/97) *$479,061                                              SOLICITATION NO.
                                APRIL 30, 1996 (11/21/96)
                                                                 14-48-0009-006
INSULAR AREAS                   97-E-441 SHARP                   (11/20/96)
                                CONSTRUCTION
U.S. Virgin Islands             COMPANY, INC., CLAIM             97-E-440 U.S. FISH AND
                                AGAINST NATIONAL PARK            WILDLIFE SERVICE
97-E-519 VIRGIN ISLANDS         SERVICE UNDER CONTRACT           FEDERAL AID GRANTS TO
WATCH QUOTA                     NO. 1443CX160093902              WYOMING, TWO FISCAL
APPLICATIONS, CALENDAR          (2/12/97) *$1,143,635            YEARS ENDED JUNE 30,
YEAR 1997 (2/28/97)                                              1995 (2/10/97)
                                97-E-589 RESERV                  **$190,417
MINERALS                        CONSTRUCTION
MANAGEMENT                      COMPANY, INC., COST              97-E-450 U.S. FISH AND
                                PROPOSAL SUBMITTED TO            WILDLIFE SERVICE
SERVICE                                                          FEDERAL AID GRANTS TO
                                THE NATIONAL PARK
                                SERVICE UNDER                    CALIFORNIA, TWO FISCAL
97-E-160 APPLIED                                                 YEARS ENDED
SCIENCE ASSOCIATES, INC.,       SOLICITATION
                                NO. 1443CX500095905              MAY 31, 1995 (2/13/97)
COSTS INCURRED FOR                                               **$3,351,268
FISCAL YEAR ENDED APRIL         (3/10/97) *$163,076
30, 1992                                                         97-E-596 BURNS AND
(11/20/96) **$1,600             U.S. BUREAU OF
                                                                 MCDONNELL ENGINEERING
                                MINES                            COMPANY, INC., COST
97-E-310 MBC APPLIED                                             PROPOSAL SUBMITTED TO
ENVIRONMENTAL                   97-E-225 BOEING                  U.S. FISH AND WILDLIFE
SCIENCES, FOLLOWUP OF           AEROSPACE OPERATIONS,            SERVICE UNDER
COSTS SUBMITTED TO              INC., LABOR ACCOUNTING           SOLICITATION NO.
MINERALS MANAGEMENT             SYSTEM (12/12/96)                FWS-6-96-1029 (3/11/97)
SERVICE (1/24/97)
**$180,134 & ***$76,974




            Semiannual Report to the Congress: October 1, 1996 - March 31, 1997           29
97-E-610 WOODWARD-               97-E-120 SCIENCE                 97-E-537 AERO-METRIC,
CLYDE FEDERAL SERVICES,          APPLICATIONS                     INC., COST PROPOSAL
COST                             INTERNATIONAL                    SUBMITTED TO U.S.
PROPOSAL SUBMITTED BY            CORPORATION, COST                GEOLOGICAL
HYDROSPHERE RESOURCE             PROPOSAL SUBMITTED TO            SURVEY UNDER REQUEST
CONSULTANTS, INC., TO            U.S. GEOLOGICAL SURVEY           FOR PROPOSAL NO.
U.S. FISH AND WILDLIFE           UNDER SOLICITATION               1434-WR-97-SS-00006
SERVICE UNDER                    NO. 1434-CR-97-SS-00001          (2/26/97)
SOLICITATION                     (11/18/96)
NO. FWS-6-96-1029 (3/12/97)                                       97-E-538 ANALYTICAL
                                 97-E-121 SPACE IMAGING,          SURVEYS, INC., COST
97-E-615 MCLAUGHLIN              INC., COST PROPOSAL              PROPOSAL SUBMITTED TO
WATER ENGINEERS, LTD.,           SUBMITTED TO U.S.                U.S. GEOLOGICAL SURVEY
COST PROPOSAL                    GEOLOGICAL SURVEY                UNDER REQUEST FOR
SUBMITTED BY HRS                 UNDER SOLICITATION               PROPOSAL
WATER CONSULTANTS,               NO. 1434-CR-97-SS-00001          NO. 1434-WR-97-SS-00006
INC., TO U.S. FISH AND           (11/18/96)                       (2/26/97)
WILDLIFE SERVICE UNDER
SOLICITATION NO.                 97-E-122 RAYTHEON                97-E-613 PHOTO SCIENCE,
FWS-6-96-1029 (3/13/97)          E-SYSTEMS, INC., GARLAND         INC., COST PROPOSAL
*$19,185                         DIVISION, COST PROPOSAL          SUBMITTED TO U.S.
                                 SUBMITTED TO U.S.                GEOLOGICAL SURVEY
                                 GEOLOGICAL SURVEY                UNDER SOLICITATION
97-E-624 HYDROSPHERE             UNDER SOLICITATION               NO. 1434-WR-97-SS-00006
RESOURCE CONSULTANTS,            NO. 1434-CR-97-SS-00001          (3/13/97)
INC.,                            (11/18/96)
COST PROPOSAL                                                     97-E-614 NIES MAPPING
SUBMITTED TO U.S. FISH           97-E-161 COMPUTER                GROUP, INC., COST
AND WILDLIFE SERVICE             SCIENCE CORPORATION,             PROPOSAL SUBMITTED TO
UNDER SOLICITATION NO.           SYSTEM SCIENCES                  U.S. GEOLOGICAL SURVEY
FWS-6-96-1029 (3/18/97)          DIVISION, COSTS INCURRED         UNDER SOLICITATION
                                 FOR FISCAL                       NO. 1434-WR-97-SS-00006
97-E-625 HRS WATER               YEAR ENDED                       (3/13/97) *$13,505
CONSULTANTS, INC., COST          MARCH 30, 1992
PROPOSAL SUBMITTED TO            (11/27/96)                       97-E-623 HAMMON, JENSEN,
U.S. FISH AND WILDLIFE                                            WALLEN AND ASSOCIATES,
SERVICE UNDER                    97-E-510 MICHAEL BAKER,          COST
SOLICITATION NO.                 JR., INC., COST PROPOSAL         PROPOSAL SUBMITTED TO
FWS-6-96-1029 (3/19/97)          SUBMITTED TO U.S.                U.S. GEOLOGICAL SURVEY
*$44,284                         GEOLOGICAL                       UNDER SOLICITATION
                                 SURVEY UNDER REQUEST             NO. 1434-WR-97-SS-00006
U.S. GEOLOGICAL                  FOR PROPOSAL NO.                 (3/18/97)
SURVEY                           1434-WR-97-SS-00006
                                 (2/21/97)
97-E-115 HUGHES STX
CORPORATION, COST                97-E-511 MERRICK AND
PROPOSAL SUBMITTED TO            COMPANY, COST PROPOSAL
U.S. GEOLOGICAL SURVEY           SUBMITTED TO U.S.
UNDER SOLICITATION NO.           GEOLOGICAL SURVEY
1434-CR-97-SS-00001              UNDER SOLICITATION NO.
(11/18/96)                       1434-WR-97-SS-00006
                                 (2/21/97)


30           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
SINGLE AUDITS                   97-A-27 SANTA ANA                97-A-45 ASSINIBOINE
                                PUEBLO, FISCAL YEAR              AND SIOUX TRIBES, FISCAL
                                ENDED SEPTEMBER 30, 1995         YEAR ENDED
BUREAU OF INDIAN                (10/10/96)                       SEPTEMBER 30, 1995
AFFAIRS                                                          (10/17/96)
                                97-A-31 TABLE MOUNTAIN
97-A-1 CHEYENNE RIVER           RANCHERIA BAND OF                97-A-46 AROOSTOOK
SIOUX TRIBE, FISCAL YEAR        INDIANS, FISCAL YEAR             BAND OF MICMACS, FISCAL
ENDED                           ENDED DECEMBER 31, 1995          YEAR ENDED DECEMBER
SEPTEMBER 30, 1995              (10/10/96)                       31, 1995
(10/3/96)                                                        (10/17/96)
                                97-A-32 BLUE LAKE
97-A-2 WA HE LUTE               RANCHERIA, FISCAL YEAR           97-A-47 AMERICAN HORSE
INDIAN COMMUNITY                ENDED DECEMBER 31, 1995          SCHOOL, FISCAL YEAR
SCHOOL, FISCAL YEAR             (10/10/96)                       ENDED JUNE 30, 1995
ENDED JUNE 30, 1995                                              (10/17/96) **$8,363
(10/3/96)                       97-A-33 SOUTHERN
                                CALIFORNIA TRIBAL                97-A-48 ALL INDIAN
97-A-3 NAVAJO                   CHAIRMEN'S ASSOCIATION,          PUEBLO COUNCIL, INC.,
PREPARATORY                     INC.,                            FISCAL YEAR ENDED
SCHOOL, INC., FISCAL            FISCAL YEAR ENDED                JUNE 30, 1994 (10/17/96)
YEAR ENDED JUNE 30, 1996        MARCH 31, 1996 (10/10/96)
(10/3/96)                                                        97-A-49 CONFEDERATED
                                97-A-34 PONCA TRIBE OF           TRIBES OF THE GRAND
97-A-4 LONEMAN SCHOOL           OKLAHOMA, FISCAL YEAR            RONDE COMMUNITY OF
CORPORATION, FISCAL             ENDED SEPTEMBER 30, 1995         OREGON, FISCAL YEAR
YEAR ENDED JUNE 30, 1995        (10/10/96)                       ENDED DECEMBER 31, 1995
(10/3/96) **$18,400                                              (10/18/96)
                                97-A-41 GUIDIVILLE
97-A-5 TWIN HILLS               BAND OF POMO INDIANS,            97-A-50 CUYAPAIPE BAND
VILLAGE COUNCIL, FISCAL         FISCAL YEAR ENDED                OF MISSION INDIANS,
YEAR ENDED                      JULY 31, 1995 (10/17/96)         FISCAL YEAR ENDED
SEPTEMBER 30, 1995                                               DECEMBER 31, 1995
(10/3/96)                       97-A-42 SAC AND FOX              (10/17/96)
                                TRIBE OF THE MISSISSIPPI
97-A-6 CONFEDERATED             IN IOWA, FISCAL YEAR             97-A-59 YUPIIT SCHOOL
TRIBES AND BANDS OF THE         ENDED SEPTEMBER 30, 1995         DISTRICT, FISCAL YEAR
YAKAMA INDIAN NATION,           (10/17/96) **$21,866             ENDED JUNE 30, 1996
FISCAL YEAR ENDED                                                (10/17/96)
SEPTEMBER 30, 1994              97-A-43 STOCKBRIDGE-
(10/3/96) **$184,493            MUNSEE COMMUNITY,                97-A-60 DILLINGHAM
                                FISCAL YEAR ENDED                CITY SCHOOL DISTRICT,
97-A-25 NAVAJO AREA             SEPTEMBER 30, 1995               FISCAL YEAR ENDED
SCHOOL BOARD                    (10/17/96)                       JUNE 30, 1996 (10/17/96)
ASSOCIATION,
FISCAL YEAR ENDED               97-A-44 SHOSHONE                 97-A-62 KASHUNAMIUT
SEPTEMBER 30, 1995              PAIUTE TRIBE (DUCK               SCHOOL DISTRICT, FISCAL
(10/10/96)                      VALLEY RESERVATION),             YEAR ENDED JUNE 30, 1996
                                FISCAL YEAR ENDED                (10/17/96)
                                SEPTEMBER 30, 1995
                                (10/17/96)



            Semiannual Report to the Congress: October 1, 1996 - March 31, 1997             31
97-A-63 BRISTOL BAY             97-A-85 WAMPANOAG                 97-A-111 KUKON-
BOROUGH SCHOOL                  TRIBE OF GAY HEAD                KOYUKUK SCHOOL
DISTRICT, FISCAL YEAR           (AQUINNAH), FISCAL YEAR          DISTRICT, FISCAL
ENDED JUNE 30, 1996             ENDED                            YEAR ENDED
(10/17/96)                      SEPTEMBER 30, 1995               JUNE 30, 1996 (10/30/96)
                                (10/23/96)
97-A-77 SOUTHWEST                                                97-A-114 CHOCTAW
REGION SCHOOLS, FISCAL          97-A-86 COW CREEK BAND           NATION OF OKLAHOMA,
YEAR ENDED JUNE 30, 1996        OF UMPQUA TRIBE OF               FISCAL YEAR ENDED
(10/22/96)                      INDIANS, FISCAL YEAR             SEPTEMBER 30, 1995
                                ENDED DECEMBER 31, 1995          (10/31/96)
97-A-78 LAKE AND                (10/23/96)
PENINSULA SCHOOL                                                 97-A-116 DELAWARE TRIBE
DISTRICT, FISCAL YEAR           97-A-87 NATIVE VILLAGE           OF WESTERN OKLAHOMA,
ENDED JUNE 30, 1996             OF TANANA, FISCAL YEAR           FISCAL YEAR ENDED
(10/22/96)                      ENDED                            SEPTEMBER 30, 1995
                                SEPTEMBER 30, 1995               (10/31/96)
97-A-80 NENANA CITY             (10/23/96)
PUBLIC SCHOOLS, FISCAL                                           97-A-117 NATIVE VILLAGE
YEAR ENDED JUNE 30, 1996        97-A-88 ELK VALLEY               OF POINT HOPE, FISCAL
(10/22/96)                      RANCHERIA, FISCAL YEAR           YEAR ENDED
                                ENDED DECEMBER 31, 1994          DECEMBER 31, 1993
97-A-81 DEVILS LAKE             (10/23/96)                       (10/31/96)
PUBLIC SCHOOL DISTRICT
NO. 1, DEVILS LAKE, NORTH       97-A-90 VALDEZ NATIVE            97-A-123 FOND DU LAC
DAKOTA, FISCAL YEAR             TRIBE, FISCAL YEAR ENDED         DEVELOPMENT
ENDED                           DECEMBER 31, 1995                CORPORATION
JUNE 30, 1996 (10/22/96)        (10/23/96)                       AND FOND DU LAC
                                                                 MANAGEMENT, INC.,
97-A-82 YA-KA-AMA               97-A-91 CONFEDERATED             FISCAL YEAR ENDED
INDIAN EDUCATION AND            TRIBES OF CHEHALIS               DECEMBER 31, 1994 (11/7/96)
DEVELOPMENT, INC.,              RESERVATION, FISCAL
FISCAL YEAR ENDED               YEAR ENDED                       97-A-124 HOONAH CITY
SEPTEMBER 30,                   DECEMBER 31, 1995                SCHOOL DISTRICT, ALASKA,
1995 (10/22/96)                 (10/23/96)                       FISCAL YEAR ENDED JUNE
                                                                 30, 1996 (11/6/96)
97-A-83 FALLON                  97-A-92 PEORIA TRIBE
PAIUTE-SHOSHONE TRIBE,          OF INDIANS OF OKLAHOMA,          97-A-125 BISMARCK
FISCAL YEAR ENDED               FISCAL                           PUBLIC SCHOOL DISTRICT
DECEMBER 31, 1995               YEAR ENDED                       NO. 1, BISMARCK, NORTH
(10/23/96)                      MARCH 31, 1996 (10/23/96)        DAKOTA, FISCAL YEAR
                                                                 ENDED JUNE 30, 1996
97-A-84 CONFEDERATED            97-A-105 MESCALERO               (11/6/96)
SALISH AND KOOTENAI             APACHE TRIBE, FISCAL
TRIBES OF THE FLATHEAD          YEAR ENDED                       97-A-126 BIG BAY DE NOC
NATION, FISCAL                  SEPTEMBER 30, 1995               SCHOOL DISTRICT, COOKS,
YEAR ENDED                      (10/29/96)                       MICHIGAN, FISCAL YEAR
SEPTEMBER 30, 1995                                               ENDED JUNE 30, 1996
(10/23/96)                      97-A-109 LOWER YUKON             (11/6/96)
                                SCHOOL DISTRICT, FISCAL
                                YEAR ENDED JUNE 30, 1996
                                (10/30/96)


32          Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
 97-A-127 YUKON FLATS            97-A-142 SHAKOPEE                97-A-166 NORTH
SCHOOL DISTRICT,                 MDEWAKANTON SIOUX                AMERICAN INDIAN CENTER
ALASKA, FISCAL YEAR              COMMUNITY, FISCAL                OF BOSTON,
ENDED JUNE 30, 1996              YEAR ENDED                       INC., FISCAL YEAR ENDED
(11/6/96)                        SEPTEMBER 30, 1994               JUNE 30, 1995 (11/21/96)
                                 (11/14/96)
97-A-130 FOND DU LAC             97-A-143 SHAKOPEE                97-A-167 BEAR RIVER
DEVELOPMENT                      MDEWAKANTON SIOUX                BAND OF THE
CORPORATION,                     COMMUNITY, FISCAL                ROHNERVILLE
TWO FISCAL YEARS                 YEAR ENDED                       RANCHERIA, FISCAL
ENDED DECEMBER 31, 1995          SEPTEMBER 30, 1995               YEAR ENDED
(11/7/96)                        (11/14/96)                       SEPTEMBER 30, 1992
                                                                  (11/21/96) **$2,717
97-A-131 INDIAN                  97-A-144 PAIUTE INDIAN
TOWNSHIP TRIBAL                  TRIBE OF UTAH, FISCAL            97-A-168 CHEROKEE
GOVERNMENT, FISCAL               YEAR ENDED                       NATION, FISCAL
YEAR ENDED                       DECEMBER 31, 1995                YEAR ENDED
SEPTEMBER 30, 1995               (11/14/96)                       SEPTEMBER 30, 1994
(11/7/96)                                                         (11/20/96)
                                 97-A-145 MECHOOPDA
97-A-132 SALT RIVER              INDIAN TRIBE, FISCAL YEAR        97-A-169 CHEROKEE
PIMA-MARICOPA INDIAN             ENDED                            NATION, FISCAL
COMMUNITY, FISCAL YEAR           SEPTEMBER 30, 1995               YEAR ENDED
ENDED                            (11/14/96)                       SEPTEMBER 30, 1995
SEPTEMBER 30, 1995                                                (11/20/96)
(11/7/96)                        97-A-146 CAMPO BAND OF
                                 MISSION INDIANS, FISCAL          97-A-170 KIPNUK
97-A-133 MENOMINEE               YEAR ENDED                       TRADITIONAL TRIBAL
INDIAN TRIBE OF                  DECEMBER 31, 1995                COUNCIL, FISCAL YEAR
WISCONSIN, FISCAL                (11/14/96)                       ENDED DECEMBER 31, 1995
YEAR ENDED                                                        (11/21/96)
SEPTEMBER 30, 1995               97-A-147 INTERTRIBAL
(11/7/96)                        AGRICULTURE COUNCIL,             7-A-171 SHOALWATER BAY
                                 FISCAL YEAR ENDED                INDIAN TRIBE,
97-A-134 TOHATCHI                DECEMBER 31, 1995                FISCAL YEAR ENDED
SPECIAL EDUCATION AND            (11/14/96) **$1,400              SEPTEMBER 30, 1995
TRAINING CENTER, INC.,                                            (11/21/96)
FISCAL YEAR ENDED                97-A-148 SAC AND FOX
DECEMBER 31, 1995                NATION OF MISSOURI,              97-A-174 ST. MARY'S
(11/7/96) **$151,256             FISCAL YEAR ENDED                SCHOOL DISTRICT, FISCAL
                                 SEPTEMBER 30, 1995               YEAR ENDED JUNE 30, 1996
97-A-135 SUSANVILLE              (11/14/96)                       (11/21/96)
INDIAN RANCHERIA,
FISCAL YEAR ENDED                97-A-149 DIBE YAZHI              97-A-175 FORT BERTHOLD
DECEMBER 31, 1995 (11/7/96)      HABITIIN OLTA, INC., DBA         COMMUNITY COLLEGE,
                                 BORREGO PASS SCHOOL,             FISCAL YEAR ENDED
                                 TWO FISCAL YEARS ENDED           SEPTEMBER 30, 1995
                                 JUNE 30, 1995 (11/13/96)         (11/21/96)




             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997        33
97-A-181 BERING STRAIT          97-A-203 YAVAPAI-                97-A-220 SQUAXIN
SCHOOL DISTRICT, FISCAL         PRESCOTT INDIAN TRIBE,           ISLAND TRIBE, FISCAL
YEAR ENDED JUNE 30, 1996        FISCAL YEAR ENDED                YEAR ENDED
(11/21/96)                      DECEMBER 31, 1995 (12/5/96)      SEPTEMBER 30, 1995
                                                                 (12/5/96)
97-A-182 EGEGIK VILLAGE         97-A-205 COPPER RIVER
COUNCIL, FISCAL YEAR            NATIVE ASSOCIATION, INC.,        97-A-222 NATIVE VILLAGE
ENDED JUNE 30, 1996             FISCAL YEAR ENDED                OF KWIGILLINGNOK,
(11/21/96)                      SEPTEMBER 30, 1994               KWIGILLINGNOK IRA
                                (12/4/96)                        COUNCIL, FISCAL YEAR
97-A-197 DEVILS LAKE                                             ENDED DECEMBER 31, 1995
SIOUX TRIBE, FISCAL YEAR        97-A-206 GLENWOOD                 (12/5/96)
ENDED                           SCHOOL DISTRICT NO. 401,          97-A-234 TEMECULA BAND
SEPTEMBER 30, 1995              KLICKITAT COUNTY, TWO            OF LUISENO MISSION
(12/5/96)                       FISCAL YEARS ENDED               INDIANS OF THE
                                AUGUST 31, 1995 (12/4/96)        PECHANGA INDIAN
97-A-198 PLEASANT POINT                                          RESERVATION, FISCAL
PASSAMAQUODDY TRIBAL            97-A-214 CHIEF LESCHI            YEAR ENDED
COUNCIL, FISCAL YEAR            SCHOOLS, INC., FISCAL            SEPTEMBER 30, 1994
ENDED                           YEAR ENDED JUNE 30, 1995         (1/6/97)
SEPTEMBER 30, 1995              (12/5/96)
(12/5/96)                                                        97-A-235 TEMECULA BAND
                                97-A-215 RAMAH NAVAJO            OF LUISENO MISSION
97-A-199 GREAT LAKES            SCHOOL BOARD, INC.,              INDIANS OF THE
INDIAN FISH AND WILDLIFE        FISCAL YEAR ENDED                PECHANGA INDIAN
COMMISSION, FISCAL YEAR         DECEMBER 31, 1995                RESERVATION,
ENDED DECEMBER 31, 1995         (12/5/96)                        FISCAL YEAR ENDED
(12/5/96)                                                        SEPTEMBER 30, 1995
                                97-A-216 SAINT STEPHENS          (1/6/97)
97-A-200 NORTHERN               INDIAN SCHOOL
PLAINS INTERTRIBAL              EDUCATION ASSOCIATION,           97-A-251 FRAZER PUBLIC
COURT OF APPEALS, FISCAL        INC., FISCAL YEAR ENDED          SCHOOL, TWO FISCAL
YEAR ENDED                      JUNE 30, 1996 (12/5/96)          YEARS ENDED
SEPTEMBER 30, 1993                                               JUNE 30, 1995
(12/5/96)                       97-A-217 MUCKLESHOOT             (12/17/96)
                                INDIAN TRIBE, FISCAL YEAR
97-A-201 SISSETON-              ENDED                            97-A-252 SHASTA COLLEGE,
WAHPETON SIOUX TRIBE,           DECEMBER 31, 1995                TRINITY JOINT
FISCAL YEAR ENDED               (12/5/96)                        COMMUNITY COLLEGE
SEPTEMBER 30, 1995                                               DISTRICT, FISCAL YEAR
(12/5/96) **$1,166              97-A-218 POINT NO POINT          ENDED JUNE 30,1996
                                TREATY COUNCIL, FISCAL           (12/17/96)
97-A-202 NARRAGANSETT           YEAR ENDED
INDIAN TRIBE, TWO               DECEMBER 31, 1995 (12/5/96)      97-A-265 COPPER RIVER
FISCAL YEARS ENDED                                               NATIVE ASSOCIATION, INC.,
DECEMBER 31, 1992               97-A-219 YAKUTA NATIVE           FISCAL YEAR ENDED
(12/5/96)                       ASSOCIATION, FISCAL              SEPTEMBER 30, 1995
                                YEAR ENDED                       (12/31/96)
                                DECEMBER 31, 1995
                                (12/5/96)




34          Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
97-A-285 NORTHWEST               97-A-298 MIAMI TRIBE             97-A-318 WALKER RIVER
ARCTIC BOROUGH SCHOOL            OF OKLAHOMA, FISCAL              PAIUTE TRIBE, FISCAL
DISTRICT, FISCAL YEAR            YEAR ENDED                       YEAR ENDED
ENDED JUNE 30, 1996              SEPTEMBER 30, 1993 (1/9/97)      DECEMBER 31, 1995
(1/6/97)                                                          (1/16/97)
                                 97-A-299 MOHEGAN TRIBE
97-A-288 CONFEDERATED            OF INDIANS OF                    97-A-320 CABAZON BAND
TRIBES OF THE WARM               CONNECTICUT,                     OF MISSION INDIANS,
SPRINGS RESERVATION OF           FISCAL YEAR ENDED                FISCAL YEAR ENDED
OREGON, FISCAL YEAR              SEPTEMBER 30, 1995 (1/8/97)      JUNE 30, 1996 (1/16/97)
ENDED DECEMBER 31, 1995
(1/9/97)                         97-A-301 MIAMI TRIBE OF          97-A-321 SMITH RIVER
                                 OKLAHOMA, FISCAL YEAR            RANCHERIA, FISCAL YEAR
97-A-290 ESTOM YUMENDA           ENDED SEPTEMBER 30, 1994         ENDED DECEMBER 31, 1995
MAIDU OF ENTERPRISE              (1/9/97)                         (1/16/97)
RANCHERIA, FISCAL YEAR                                             97-A-322 SANTA YNEZ
ENDED DECEMBER 31, 1995          97-A-302 COUSHATTA               BAND OF MISSION INDIANS,
(1/9/97)                         TRIBE OF LOUISIANA,              FISCAL YEAR ENDED
                                 FISCAL YEAR ENDED                SEPTEMBER 30, 1995
97-A-291 CENTRAL TRIBES          DECEMBER 31, 1994                (1/16/97)
OF SHAWNEE AREA, INC.,           (1/8/97)
TWO FISCAL YEARS ENDED                                            97-A-323 ALABAMA-
NOVEMBER 30, 1995                97-A-305 MISSISSIPPI             COUSHATTA INDIAN
(1/9/97)                         BAND OF CHOCTAW                  RESERVATION, FISCAL
                                 INDIANS, FISCAL YEAR             YEAR ENDED
97-A-293 MILLE LACS              ENDED SEPTEMBER 30, 1995         DECEMBER 31, 1995
BAND OF CHIPPEWA                 (1/8/97)                         (1/16/97)
INDIANS, FISCAL
YEAR ENDED                       97-A-314 YERINGTON               97-A-324 PIINOLEVILLE
SEPTEMBER 30, 1995 (1/8/97)      PAIUTE TRIBE, FISCAL YEAR        INDIAN COMMUNITY,
**$6,161                         ENDED                            FISCAL YEAR ENDED
                                 DECEMBER 31, 1995                DECEMBER 31, 1994 (1/16/97)
97-A-294 SAULT STE.              (1/16/97)
MARIE TRIBE OF CHIPPEWA                                           97-A-325 PINOLEVILLE
INDIANS, FISCAL YEAR             97-A-315 FOREST                  INDIAN COMMUNITY,
ENDED DECEMBER 31, 1995          COUNTY POTAWATOMI                FISCAL YEAR ENDED
(3/20/97)                        COMMUNITY, INC., FISCAL          DECEMBER 31, 1995 (1/16/97)
                                 YEAR ENDED
97-A-295 SHOSHONE-               SEPTEMBER 30, 1995               97-A-326 QUZINKIE
BANNOCK TRIBES, INC.,            (1/16/97)                        TRIBAL COUNCIL, FISCAL
FISCAL YEAR ENDED                                                 YEAR ENDED
SEPTEMBER 30, 1995               97-A-316 CROW TRIBE              SEPTEMBER 30, 1995
(1/8/97)                         OF INDIANS, FISCAL               (1/16/97)
                                 YEAR ENDED
97-A-297 MIAMI TRIBE             SEPTEMBER 30, 1995
OF OKLAHOMA, FISCAL              (1/16/97)
YEAR ENDED
SEPTEMBER 30, 1992               97-A-317 WALKER RIVER
(1/9/97)                         PAIUTE TRIBE, FISCAL YEAR
                                 ENDED
                                 DECEMBER 31, 1994
                                 (1/16/97)


             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997           35
97-A-327 QUILEUTE              97-A-356 PORT GAMBLE             97-A-366 DUCKWATER
TRIBAL COUNCIL, FISCAL         S'KLALLAM TRIBE, FISCAL          SHOSHONE TRIBE, FISCAL
YEAR ENDED                     YEAR ENDED                       YEAR ENDED
SEPTEMBER 30, 1995             DECEMBER 31, 1995 (1/23/97)      DECEMBER 31, 1994 (1/23/97)
(1/16/97) **$5,876
                               97-A-357 FORT SILL               97-A-367 DUCKWATER
97-A-329 YSLETA DEL SUR        APACHE TRIBE OF                  SHOSHONE TRIBE, FISCAL
PUEBLO, TIGUA INDIAN           OKLAHOMA, FISCAL YEAR            YEAR ENDED
RESERVATION, FISCAL            ENDED DECEMBER 31, 1995          DECEMBER 31, 1995 (1/23/97)
YEAR ENDED                     (1/23/97)
DECEMBER 31, 1995                                               97-A-392 OWENS VALLEY
(1/17/97)                      97-A-359 STANDING ROCK           INDIAN WATER
                               SIOUX TRIBE, FISCAL YEAR         COMMISSION, FISCAL YEAR
97-A-346 MAZANITA BAND         ENDED SEPTEMBER 30, 1995         ENDED JUNE 30, 1996
OF MISSION INDIANS,            (1/23/97)                        (2/6/97)
FISCAL YEAR ENDED
DECEMBER 31, 1995              97-A-360 EASTERN                 97-A-393 BISHOP INDIAN
(1/23/97)                      SHOSHONE TRIBE OF THE            TRIBAL COUNCIL, FISCAL
                               WIND RIVER RESERVATION,          YEAR ENDED
97-A-348 SWINOMISH             FISCAL YEAR ENDED                DECEMBER 31, 1995 (2/6/97)
INDIAN TRIBAL                  DECEMBER 31, 1995 (1/23/97)
COMMUNITY,                                                      97-A-394 SITTING BULL
FISCAL YEAR ENDED              97-A-361 ASSOCIATION OF          COLLEGE, FISCAL YEAR
DECEMBER 31, 1995              VILLAGE COUNCIL                  ENDED JUNE 30, 1996
(1/23/97)                      PRESIDENTS, INC., FISCAL         (1/29/97)
                               YEAR ENDED
97-A-349 AUGUSTINE BAND        DECEMBER 31, 1995 (1/23/97)      97-A-395 HOPI DAY
OF MISSION INDIANS,                                             SCHOOL, FISCAL
FISCAL YEAR ENDED              97-A-362 KAIBAB BAND OF          YEAR ENDED
DECEMBER 31, 1994              PAIUTE INDIANS, FISCAL           JUNE 30, 1994 (1/29/97)
(1/23/97)                      YEAR ENDED
                               DECEMBER 31, 1995 (1/23/97)      97-A-401 HOPI DAY
97-A-350 FORT BIDWELL          **$15,279                        SCHOOL, FISCAL YEAR
INDIAN RESERVATION                                              ENDED JUNE 30, 1995
COMMUNITY, FISCAL YEAR         97-A-363 ELY SHOSHONE            (1/29/97)
ENDED                          TRIBE, FISCAL YEAR ENDED         **$3,719
SEPTEMBER 30, 1993             DECEMBER 31, 1995
 (1/23/97)                     (1/23/97)                        97-A-409 IOWA TRIBE OF
                                                                OKLAHOMA, FISCAL YEAR
97-A-351 FORT BIDWELL          97-A-364 OGLALA SIOUX            ENDED DECEMBER 31, 1995
INDIAN RESERVATION             TRIBE, FISCAL YEAR ENDED         (2/6/97)
COMMUNITY, FISCAL YEAR         DECEMBER 31, 1995
ENDED                          (1/23/97) **$58,038              97-A-410 PALA BAND OF
SEPTEMBER 30, 1994                                              MISSION INDIANS, FISCAL
(1/23/97)                      97-A-365 DUCKWATER               YEAR ENDED
                               SHOSHONE TRIBE, FISCAL           DECEMBER 31, 1995
97-A-355 ACOMA PUEBLO,         YEAR ENDED                       (2/6/97)
FISCAL YEAR ENDED              DECEMBER 31, 1993 (1/23/97)
DECEMBER 31, 1995
(1/23/97)




36         Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
97-A-411 PICAYUNE                97-A-434 CHIPPEWA/               97-A-473 POARCH BAND OF
RANCHERIA OF THE                 OTTAWA TREATY, FISHERY           CREEK INDIANS, FISCAL
CHUKCHANSI INDIANS,              MANAGEMENT                       YEAR ENDED
FISCAL YEAR ENDED                AUTHORITY, FISCAL YEAR           DECEMBER 31, 1995
OCTOBER 31, 1995 (2/6/97)        ENDED DECEMBER 31, 1995          (2/13/97)
 97-A-412 OTTAWA TRIBE           (2/6/97)
OF OKLAHOMA, FISCAL                                               97-A-474 SAN CARLOS
YEAR ENDED                       97-A-435 RED LAKE BAND           APACHE TRIBE, FISCAL
SEPTEMBER 30, 1995               OF CHIPPEWA INDIANS,             YEAR ENDED
(2/6/97)                         FISCAL YEAR ENDED                SEPTEMBER 30, 1995
                                 SEPTEMBER 30, 1995               (2/13/97)
97-A-413 SAUK-SUIATTLE           (2/6/97)
INDIAN TRIBE, FISCAL                                              97-A-475 NARRAGANSETT
YEAR ENDED                       97-A-436 CHEROKEE BOYS           INDIAN TRIBE, TWO FISCAL
DECEMBER 31, 1994                CLUB, INC., FISCAL YEAR          YEARS ENDED DECEMBER
(2/6/97)                         ENDED JUNE 30, 1996              31, 1993 (3/6/97) **$12,024
                                 (2/6/97)
97-A-414 SAUK-SUIATTLE                                            97-A-507 ATKA IRA
INDIAN TRIBE, FISCAL             97-A-437 MINNESOTA               COUNCIL, FISCAL YEAR
YEAR ENDED                       CHIPPEWA TRIBE, FISCAL           ENDED JUNE 30, 1996
DECEMBER 31, 1995 (2/6/97)       YEAR ENDED                       (2/19/97)
                                 SEPTEMBER 30, 1995 (2/6/97)
97-A-419 EIGHT NORTHERN                                           97-A-508 TABLE BLUFF
INDIAN PUEBLOS COUNCIL,          97-A-438 MENOMINEE               RESERVATION, FISCAL
INC., FISCAL YEAR ENDED          TRIBAL ENTERPRISES,              YEAR ENDED
MARCH 31, 1996 (2/5/97)          FISCAL YEAR ENDED                DECEMBER 31, 1994
                                 JUNE 30, 1996 (2/6/97)           (2/19/97)
97-A-420 CIBECUE
COMMUNITY EDUCATION              97-A-452 PAUMA BAND OF           97-A-509 BERING SEA
BOARD, INC., FISCAL YEAR         MISSION INDIANS, FISCAL          FISHERMAN'S
ENDED JUNE 30, 1995              YEAR ENDED                       ASSOCIATION,
(2/5/97) **$2,459                DECEMBER 31, 1994 (2/13/97)      FISCAL YEAR ENDED
                                                                  JUNE 30, 1995 (2/19/97)
97-A-432 YANKTON SIOUX           97-A-453 CHICKASAW
TRIBE, FISCAL YEAR               NATION, FISCAL                   97-A-516 OLD HARBOR
ENDED                            YEAR ENDED                       TRIBAL COUNCIL, TRIBAL
DECEMBER 31, 1994                SEPTEMBER 30, 1995               OPERATIONS, FISCAL YEAR
(2/6/97)                         (2/13/97)                        ENDED
                                                                  SEPTEMBER 30, 1995
97-A-433 ST. CROIX               97-A-469 AMERICAN                (2/24/97)
CHIPPEWA OF WISCONSIN,           INDIAN GRADUATE
FISCAL YEAR ENDED                CENTER, FISCAL YEAR              97-A-517 OLD HARBOR
SEPTEMBER 30, 1994               ENDED JUNE 30, 1995              TRIBAL COUNCIL, INDIAN
(2/6/97) **$3,491                (2/13/97)                        CHILD WELFARE ACT,
                                                                  FISCAL YEAR ENDED
                                 97-A-470 CRAZY HORSE             AUGUST 31, 1995 (2/24/97)
                                 SCHOOL, FISCAL YEAR
                                 ENDED JUNE 30, 1996
                                 (2/13/97)




             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997              37
97-A-541 COQUILLE                 97-A-564 COLUMBIA RIVER         97-A-637 COOK INLET
INDIAN TRIBE, FISCAL             INTER-TRIBAL FISH                TRIBAL COUNCIL, INC.,
YEAR ENDED                       COMMISSION, FISCAL YEAR          FISCAL YEAR ENDED
DECEMBER 31, 1995                ENDED                            SEPTEMBER 30, 1996
(2/27/97)                        DECEMBER 31, 1995                (3/20/97)
                                 (3/6/97)
97-A-542 MAKAH TRIBAL                                             97-A-662 PICURIS PUEBLO,
COUNCIL, FISCAL                  97-A-565 PAWNEE TRIBE            FISCAL YEAR ENDED
YEAR ENDED                       OF OKLAHOMA, TWO                 DECEMBER 31, 1994 (3/24/97)
SEPTEMBER 30, 1996               FISCAL YEARS ENDED
(2/27/97)                        DECEMBER 31, 1994 (3/6/97)       97-A-663 SHIPROCK
                                                                  ALTERNATIVE SCHOOLS,
97-A-543 SYCUAN BAND OF          97-A-566 KETCHIKAN               INC., TWO FISCAL YEARS
MISSION INDIANS, FISCAL          INDIAN CORPORATION,              ENDED JUNE 30, 1996
YEAR ENDED AUGUST 31,            FISCAL YEAR ENDED                (3/25/97)
1996 (2/27/97)                   DECEMBER 31, 1995
                                 (3/6/97)                         97-A-664 NATIVE VILLAGE
97-A-544 CAYUGA NATION,                                           OF SELAWIK, FISCAL YEAR
FISCAL                                                            ENDED DECEMBER 31, 1995
YEAR ENDED                       97-A-574 UPPER SIOUX             (3/25/97)
SEPTEMBER 30, 1996               COMMUNITY, FISCAL YEAR
(2/27/97)                        ENDED SEPTEMBER 30, 1993         97-A-665 MECHOOPDA
                                 (3/6/97)                         INDIAN TRIBE, FISCAL
97-A-545 HUALAPAI                                                 YEAR ENDED
TRIBE, FISCAL YEAR               97-A-585 PIERRE INDIAN           SEPTEMBER 30, 1996
ENDED DECEMBER 31, 1995          LEARNING CENTER, FISCAL          (3/25/97)
(2/27/97)                        YEAR ENDED JUNE 30, 1995
                                 (3/6/97)                         97-A-666 NATIVE VILLAGE
97-A-546 SOKAOGON                                                 OF KIANA, FISCAL YEAR
CHIPPEWA COMMUNITY,              97-A-593 PIERRE INDIAN           ENDED DECEMBER 31, 1995
MOLE LAKE BAND, FISCAL           LEARNING CENTER, FISCAL          (3/25/97)
YEAR ENDED                       YEAR ENDED JUNE 30, 1994
SEPTEMBER 30, 1995               (3/6/97)                         97-A-669 SOBOBA BAND OF
(2/27/97)                                                         MISSION INDIANS, FISCAL
                                 97-A-611 CONFEDERATED            YEAR ENDED DECEMBER
97-A-561 NATIVE VILLAGE          TRIBES OF SILETZ INDIANS         31, 1995 (3/27/97)
OF MEKORYUK (NVM),               OF OREGON, FISCAL YEAR
FISCAL YEAR ENDED                ENDED DECEMBER 31, 1995          97-A-674 ZUNI PUEBLO,
SEPTEMBER 30, 1995 (3/6/97)      (3/13/97)                        FISCAL YEAR ENDED
                                                                  DECEMBER 31, 1994
97-A-562 HOH TRIBAL              97-A-635 OJIBWA INDIAN           (3/27/97)
COUNCIL, FISCAL                  SCHOOL, FISCAL YEAR
YEAR ENDED                       ENDED JUNE 30, 1995              97-A-676 DULL KNIFE
SEPTEMBER 30, 1995 (3/6/97)      (3/20/97)                        MEMORIAL COLLEGE,
                                                                  FISCAL YEAR ENDED
97-A-563 UNITED                  97-A-636 OJIBWA INDIAN           JUNE 30, 1996 (3/27/97)
VILLAGES, INC., FISCAL           SCHOOL, FISCAL YEAR
YEAR ENDED                       ENDED JUNE 30, 1994
DECEMBER 31, 1995 (3/6/97)       (3/20/97)
**$1,740




38           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
97-A-677 OGLALA LAKOTA           97-A-152 OKANOGAN                97-A-262 NEW MEXICO
COLLEGE, FISCAL                  COUNTY, WASHINGTON,              STATE UNIVERSITY, FISCAL
YEAR ENDED                       FISCAL YEAR ENDED                YEAR ENDED
SEPTEMBER 30, 1996               DECEMBER 31, 1995                JUNE 30, 1996 (12/31/96)
(3/27/97)                        (11/12/96)
                                                                  97-A-267 KING COUNTY,
97-A-678 NORTHERN                97-A-153 LINN COUNTY,            WASHINGTON, FISCAL
CHEYENNE TRIBAL                  OREGON, FISCAL YEAR              YEAR ENDED
SCHOOLS, FISCAL YEAR             ENDED JUNE 30, 1996              DECEMBER 31, 1995
ENDED JUNE 30, 1996              (11/12/96)                       (12/20/96)
(3/27/97) **$406,858
                                 97-A-204 GRANT COUNTY,           97-A-286 KENAI
BUREAU OF LAND                   OREGON, FISCAL YEAR              PENINSULA BOROUGH,
MANAGEMENT                       ENDED JUNE 30, 1996              FISCAL YEAR ENDED
                                 (12/4/96)                        JUNE 30, 1996
97-A-20 CLALLAM                                                   (1/6/97)
COUNTY, WASHINGTON,              97-A-207 CHELAN COUNTY,
FISCAL YEAR ENDED                WASHINGTON, FISCAL YEAR          97-A-292 ALLEGHANY
DECEMBER 31, 1995                ENDED                            COUNTY, VIRGINIA, FISCAL
(10/8/96)                        DECEMBER 31, 1995                YEAR ENDED
                                 (12/4/96)                        JUNE 30, 1996
97-A-21 DOUGLAS                                                    (1/6/97)
COUNTY, WASHINGTON,              97-A-208 VALLEY COUNTY,
FISCAL YEAR ENDED                MONTANA, FISCAL YEAR             97-A-296 WESTMORELAND
DECEMBER 31, 1995                ENDED JUNE 30, 1995              COUNTY, VIRGINIA, FISCAL
(10/8/96)                        (12/4/96)                        YEAR ENDED
                                                                  JUNE 30, 1996
97-A-58 COLVILLE                 97-A-209 DANIELS                 (1/7/97)
SCHOOL DISTRICT NO. 115,         COUNTY, MONTANA,
FISCAL YEAR ENDED                FISCAL YEAR ENDED                97-A-300 AUGUSTA
AUGUST 31, 1995 (10/17/96)       JUNE 30, 1996                    COUNTY, VIRGINIA, FISCAL
                                 (12/4/96)                        YEAR ENDED
97-A-79 LEWIS COUNTY,                                             JUNE 30, 1996
WASHINGTON, FISCAL               97-A-210 MCCONE COUNTY,           (1/6/97)
YEAR ENDED                       MONTANA, FISCAL YEAR
DECEMBER 31, 1995                ENDED JUNE 30, 1995              97-A-338 ROCKBRIDGE
(10/22/96)                       (12/4/96)                        COUNTY, VIRGINIA, FISCAL
                                                                  YEAR ENDED
97-A-113 COWLITZ                 97-A-249 MINNEHAHA               JUNE 30, 1996
COUNTY, WASHINGTON,              COUNTY, SOUTH DAKOTA,             (1/21/97)
FISCAL YEAR ENDED                FISCAL YEAR ENDED
DECEMBER 31, 1995                DECEMBER 31, 1995                97-A-339 HENRY COUNTY,
(10/30/96)                       (12/17/96)                       VIRGINIA, FISCAL YEAR
                                                                  ENDED JUNE 30, 1996
97-A-128 WASATCH                 97-A-255 SPOTSYLVANIA            (1/21/97)
COUNTY, UTAH, FISCAL             COUNTY, VIRGINIA, FISCAL
YEAR ENDED                       YEAR ENDED JUNE 30, 1996         97-A-340 HALIFAX
DECEMBER 31, 1995                (12/17/96)                       COUNTY, VIRGINIA, FISCAL
(11/6/96)                                                         YEAR ENDED
                                                                  JUNE 30, 1996
                                                                  (1/22/97)



             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997          39
97-A-342 LOS ALAMOS              97-A-458 ORANGE COUNTY,           97-A-495 PULASKI
COUNTY, NEW MEXICO,              VIRGINIA,                        COUNTY, VIRGINIA, FISCAL
FISCAL YEAR ENDED                FISCAL YEAR ENDED                YEAR ENDED
JUNE 30, 1996 (1/22/97)          JUNE 30, 1996 (2/13/97)          JUNE 30, 1996 (2/20/97)

97-A-343 ROCKINGHAM              97-A-459 ANDERSON                97-A-496 SCOTT COUNTY,
COUNTY, VIRGINIA, FISCAL         COUNTY, SOUTH                    VIRGINIA, FISCAL YEAR
YEAR ENDED                       CAROLINA, FISCAL YEAR            ENDED JUNE 30, 1996
JUNE 30, 1996                    ENDED JUNE 30, 1996              (2/20/97)
(1/22/97)                        (2/13/97)
                                                                  97-A-497 WYTHE COUNTY,
97-A-381 CHINCOTEAGUE,           97-A-461 PIERCE COUNTY,          VIRGINIA, FISCAL YEAR
VIRGINIA, FISCAL YEAR            WASHINGTON, FISCAL YEAR          ENDED JUNE 30, 1996
ENDED JUNE 30, 1996              ENDED                            (2/20/97)
(1/29/97)                        DECEMBER 31, 1995
                                 (2/13/97)                        97-A-498 GRAYSON
97-A-421 NEW TOWN                                                 COUNTY, VIRGINIA, FISCAL
PUBLIC SCHOOL DISTRICT           97-A-465 YAKIMA COUNTY,          YEAR ENDED
NO. 1, FISCAL YEAR ENDED         WASHINGTON, FISCAL YEAR          JUNE 30, 1996
JUNE 30, 1996 (2/6/97)           ENDED                            (2/20/97)
                                 DECEMBER 31, 1995
97-A-425 FAUQUIER                (2/13/97)                        97-A-499 LEE COUNTY,
COUNTY, VIRGINIA, FISCAL                                          VIRGINIA, FISCAL YEAR
YEAR ENDED                       97-A-489 BOTETOURT               ENDED JUNE 30, 1996
JUNE 30, 1996                    COUNTY, VIRGINIA, FISCAL         (2/20/97)
(2/6/97)                         YEAR ENDED JUNE 30, 1996
                                 (2/20/97)                        97-A-500 FLOYD COUNTY,
97-A-426 SNOHOMISH                                                VIRGINIA, FISCAL YEAR
COUNTY, WASHINGTON,              97-A-490 CARROLL                 ENDED JUNE 30, 1996
FISCAL YEAR ENDED                COUNTY, VIRGINIA, FISCAL         (2/20/97)
DECEMBER 31, 1995                YEAR ENDED JUNE 30, 1996
(2/6/97)                         (2/20/97)                        97-A-501 DICKENSON
                                                                  COUNTY, VIRGINIA, FISCAL
97-A-427 WALLA WALLA             97-A-491 CRAIG COUNTY,           YEAR ENDED
COUNTY, WASHINGTON,              VIRGINIA, FISCAL YEAR            JUNE 30, 1996 (2/20/97)
FISCAL YEAR ENDED                ENDED JUNE 30, 1996
DECEMBER 31, 1995 (2/6/97)       (2/20/97)                        97-A-505 FREDERICK
                                                                  COUNTY, VIRGINIA, FISCAL
97-A-428 KITTITAS                97-A-492 MONTGOMERY              YEAR ENDED
COUNTY, WASHINGTON,              COUNTY, VIRGINIA, FISCAL         JUNE 30, 1996 (2/20/97)
FISCAL YEAR ENDED                YEAR ENDED JUNE 30, 1996
DECEMBER 31, 1995                (2/20/97)                        97-A-506 CHARLOTTE
(2/6/97)                                                          COUNTY, VIRGINIA, FISCAL
                                 97-A-493 FRANKLIN                YEAR ENDED
97-A-457 IDAHO STATE             COUNTY, VIRGINIA, FISCAL         JUNE 30, 1996
UNIVERSITY, TWO FISCAL           YEAR ENDED JUNE 30, 1996         (2/20/97)
YEARS ENDED                      (2/20/97)
JUNE 30, 1996                                                     97-A-525 SITKA, ALASKA,
(2/13/97)                        97-A-494 PATRICK                 FISCAL YEAR ENDED
                                 COUNTY, VIRGINIA, FISCAL         JUNE 30, 1996 (2/26/97)
                                 YEAR ENDED JUNE 30, 1996
                                 (2/20/97)


40           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
97-A-526 HARNEY                   97-A-573 PEND OREILLE            ENDED JUNE 30, 1996
COUNTY, OREGON,                   COUNTY, WASHINGTON,              (3/11/97)
FISCAL YEAR ENDED                 FISCAL YEAR ENDED                 97-A-602 CHARLES CITY
JUNE 30, 1996 (2/26/97)           DECEMBER 31, 1995                COUNTY, VIRGINIA, FISCAL
                                  (3/6/97)                         YEAR ENDED
97-A-527 FERRY COUNTY,                                             JUNE 30, 1996
WASHINGTON, FISCAL                97-A-576 MADISON                 (3/11/97)
YEAR ENDED                        COUNTY, VIRGINIA, FISCAL
DECEMBER 31, 1995                 YEAR ENDED                       97-A-645 ACCOMACK
(2/26/97)                         JUNE 30, 1996                    COUNTY, VIRGINIA, FISCAL
                                  (3/6/97)                         YEAR ENDED
97-A-528 THOMPSON,                                                 JUNE 30, 1996
CONNECTICUT, FISCAL               97-A-577 BATH COUNTY,             (3/19/97)
YEAR ENDED JUNE 30, 1996          VIRGINIA, FISCAL YEAR
(2/26/97)                         ENDED JUNE 30, 1996              97-A-646 ALBEMARLE
                                  (3/6/97)                         COUNTY, VIRGINIA, FISCAL
97-A-530 JEFFERSON                                                 YEAR ENDED
COUNTY, WASHINGTON,               97-A-578 GREENE COUNTY,          JUNE 30, 1996 (3/19/97)
FISCAL YEAR ENDED                 VIRGINIA, FISCAL YEAR
DECEMBER 31, 1995                 ENDED JUNE 30, 1996              97-A-649 POWDER RIVER
(2/26/97)                         (3/5/97)                         COUNTY, MONTANA,
                                                                   FISCAL YEAR ENDED
97-A-531 APPOMATTOX               97-A-579 AMHERST                 JUNE 30, 1996 (3/19/97)
COUNTY, VIRGINIA, FISCAL          COUNTY, VIRGINIA, FISCAL
YEAR ENDED                        YEAR ENDED JUNE 30, 1996         97-A-650 FAIRBANKS,
JUNE 30, 1996                     (3/5/97)                         NORTH STAR BOROUGH,
(2/26/97)                                                          ALASKA, FISCAL YEAR
                                                                   ENDED JUNE 30, 1996
97-A-532 WHITMAN                                                   (3/19/97)
COUNTY, WASHINGTON,               97-A-580 SMYTH COUNTY,            97-A-667 RAVALLI
FISCAL YEAR ENDED                 VIRGINIA, FISCAL YEAR            COUNTY, MONTANA,
DECEMBER 31, 1995                 ENDED JUNE 30, 1996              FISCAL YEAR ENDED
(2/26/97)                         (3/5/97)                         JUNE 30, 1996 (3/27/97)

97-A-534 BOISE STATE              97-A-581 RAPPAHANNOCK            BUREAU OF
UNIVERSITY, TWO                   COUNTY, VIRGINIA, FISCAL         RECLAMATION
FISCAL YEARS ENDED JUNE           YEAR ENDED JUNE 30, 1996
30, 1996 (2/26/97)                (3/5/97)                         97-A-212 NEW MAGMA
                                                                   IRRIGATION AND
97-A-569 FOREST COUNTY,           97-A-582 BENTON COUNTY,          DRAINAGE
PENNSYLVANIA, FISCAL              WASHINGTON, FISCAL YEAR          DISTRICT, FISCAL YEAR
YEAR ENDED                        ENDED                            ENDED JUNE 30, 1996
DECEMBER 31, 1995                 DECEMBER 31, 1995                (12/5/96)
(3/6/97)                          (3/5/97)
                                                                   97-A-460 SEATTLE,
97-A-572 GRANT COUNTY,            97-A-599 JACKSON                 WASHINGTON, FISCAL
WASHINGTON, FISCAL                COUNTY, OREGON, FISCAL           YEAR ENDED
YEAR ENDED                        YEAR ENDED JUNE 30, 1996         DECEMBER 31, 1995
DECEMBER 31, 1995                 (3/11/97)                        (2/13/97)
(3/6/97)
                                  97-A-600 GILES COUNTY,
                                  VIRGINIA, FISCAL YEAR


              Semiannual Report to the Congress: October 1, 1996 - March 31, 1997            41
97-A-471 SANTA ANA               97-A-612 NORTHERN                97-A-289 GUAM
WATERSHED PROJECT                MARIANAS COLLEGE,                COMMUNITY COLLEGE,
AUTHORITY, FISCAL YEAR           FISCAL YEAR ENDED                FISCAL YEAR ENDED
ENDED JUNE 30, 1996              SEPTEMBER 30, 1992               SEPTEMBER 30, 1994
(2/13/97)                        (3/13/97)                        (1/8/97)

97-A-472 METROPOLITAN            Federated States of              97-A-447 GOVERNMENT
WATER DISTRICT OF                Micronesia                       OF GUAM, FISCAL
SOUTHERN CALIFORNIA,                                              YEAR ENDED
FISCAL YEAR ENDED                97-A-155 COLLEGE OF              SEPTEMBER 30, 1993
JUNE 30, 1996 (2/13/97)          MICRONESIA, FISCAL YEAR          (2/11/97)
                                 ENDED SEPTEMBER 30, 1995
97-A-638 ELSINORE                (11/18/96)                       97-A-514 GOVERNMENT
VALLEY MUNICIPAL WATER                                            OF GUAM, FISCAL
DISTRICT, FISCAL YEAR            97-A-244 FEDERATED               YEAR ENDED
ENDED JUNE 30, 1996              STATES OF MICRONESIA             SEPTEMBER 30, 1995
(3/20/97)                        NATIONAL GOVERNMENT,             (2/21/97)
                                 FISCAL YEAR ENDED
97-A-639 TEHANA-COLUS            SEPTEMBER 30, 1995               97-A-521 GOVERNMENT
CANAL AUTHORITY, FISCAL          (12/23/96) **$166,523            OF GUAM, FISCAL
YEAR ENDED SEPTEMBER                                              YEAR ENDED
30, 1996 (3/20/97)               97-A-455 COLLEGE OF              SEPTEMBER 30, 1994
                                 MICRONESIA, FEDERATED            (2/25/97)
INSULAR AREAS                    STATES OF MICRONESIA,
                                 FISCAL YEAR ENDED                97-A-668 SANCTUARY,
                                 SEPTEMBER 30, 1995               INCORPORATED, FISCAL
Commonwealth of the                                               YEAR ENDED
Northern Mariana Islands         (2/14/97)
                                                                  SEPTEMBER 30, 1995
                                                                  (3/27/97)
97-A-37 COMMONWEALTH             Yap
OF THE NORTHERN                                                   Republic of Palau
MARIANA ISLANDS, FISCAL          97-A-287 YAP COMMUNITY
YEAR ENDED                       ACTION PROGRAM,
                                 FISCAL YEAR ENDED                97-A-335 PALAU
SEPTEMBER 30, 1995                                                COMMUNITY
(10/11/96) **$80,309             SEPTEMBER 30,1995 (1/6/97)
                                                                  ACTION AGENCY,
                                                                  FISCAL YEAR ENDED
97-A-454 COMMONWEALTH            Guam                             SEPTEMBER 30, 1992
PORTS AUTHORITY, FISCAL                                           (1/22/97)
YEAR ENDED                       97-A-154 GUAM HOUSING
SEPTEMBER 30, 1995 (2/14/97)     AND URBAN RENEWAL                97-A-407 PALAU
                                 AUTHORITY, FISCAL YEAR           COMMUNITY ACTION
97-A-592 COMMONWEALTH            ENDED SEPTEMBER 30, 1994         AGENCY, FISCAL
PORTS AUTHORITY, FISCAL          (11/18/96)                       YEAR ENDED
YEAR ENDED                                                        SEPTEMBER 30, 1993
SEPTEMBER 30, 1996 (3/11/97)     97-A-281 GUAM                    (2/4/97) **$2,883
                                 COMMUNITY COLLEGE,
                                 FISCAL YEAR ENDED                97-A-481 REPUBLIC OF
                                 SEPTEMBER 30, 1993               PALAU, FISCAL
                                 (1/3/97)                         YEAR ENDED
                                                                  SEPTEMBER 30, 1995
                                                                  (2/19/97) **$134,957



42           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
97-A-633 PALAU                    97-A-173 ILLINOIS STATE          97-A-337 WILLIAM MARSH
COMMUNITY COLLEGE,                MUSEUM SOCIETY, FISCAL           RICE UNIVERSITY, FISCAL
FISCAL YEAR ENDED                 YEAR ENDED JUNE 30, 1996         YEAR ENDED JUNE 30, 1996
SEPTEMBER 30, 1993 (3/19/97)      (11/21/96)                       (1/21/97)

NATIONAL                          97-A-176 MADISON,                97-A-341 SAN ANTONIO,
BIOLOGICAL                        WISCONSIN, FISCAL YEAR           TEXAS, FISCAL
                                  ENDED DECEMBER 31, 1995          YEAR ENDED
SERVICE                           (11/21/96)                       SEPTEMBER 30, 1995
                                                                   (1/22/97)
97-A-303 FIELD MUSEUM             97-A-179 EVERETT,
OF NATURAL HISTORY,               SNOHOMISH COUNTY,                97-A-344 LYNCHBURG,
FISCAL YEAR ENDED                 WASHINGTON, FISCAL YEAR          VIRGINIA, FISCAL
DECEMBER 31, 1995                 ENDED                            YEAR ENDED JUNE 30, 1996
(1/6/97)                          DECEMBER 31, 1995                (1/22/97)
                                  (11/21/96)
97-A-560 ASSOCIATION OF                                            97-A-353 ALICE FERGUSON
SYSTEMATICS                       97-A-211 MYSTIC SEAPORT          FOUNDATION, INC.,
COLLECTIONS,                      MUSEUM, INC., FISCAL             FISCAL YEAR ENDED
FISCAL YEAR ENDED                 YEAR ENDED                       DECEMBER 31, 1995 (1/23/97)
DECEMBER 31, 1995                 APRIL 26, 1996
(3/7/97)                          (12/4/96)                        97-A-354 FORD'S
                                                                   THEATER SOCIETY,
NATIONAL PARK                     97-A-246 SULLIVAN                FISCAL YEAR ENDED
SERVICE                           COUNTY, NEW YORK,                SEPTEMBER 30, 1995
                                  FISCAL YEAR ENDED                (1/23/97)
97-A-18 AUSTIN, TEXAS,            DECEMBER 31, 1995
FISCAL YEAR ENDED                 (12/17/96)                       97-A-358 MISSOULA,
SEPTEMBER 30, 1995                                                 MONTANA, FISCAL YEAR
(10/8/96)                         97-A-248 PORTAGE,                ENDED JUNE 30, 1996
                                  INDIANA, FISCAL                  (1/23/97)
97-A-76 BLOOMINGTON,              YEAR ENDED
INDIANA, FISCAL YEAR              DECEMBER 31, 1995                97-A-382 NEW HANOVER
ENDED DECEMBER 31, 1995           (12/17/96)                       COUNTY, NORTH
(10/22/96)                                                         CAROLINA,
                                  97-A-253 TAZEWELL                FISCAL YEAR ENDED
97-A-94 NATIONAL PARK             COUNTY, VIRGINIA, FISCAL         JUNE 30, 1996 (1/29/97)
SERVICE FUND OF WOMAN'S           YEAR ENDED JUNE 30, 1996
PARTY CORPORATION,                (12/17/96)                       97-A-383 NATIVE
FISCAL                                                             CALIFORNIA NETWORK,
YEAR ENDED                        97-A-268 DANVILLE,               FISCAL YEAR ENDED
SEPTEMBER 30, 1995                VIRGINIA, FISCAL YEAR            DECEMBER 31, 1995
(10/24/96)                        ENDED JUNE 30, 1996              (1/29/97)
                                  (12/23/96)
97-A-107 SOUTHERN                                                  97-A-384 DENVER ART
ALLEGHENIES                       97-A-284 ALLEGHENY               MUSEUM, FISCAL
CONSERVANCY,                      RIDGE CORPORATION,               YEAR ENDED
FISCAL YEAR ENDED                 FISCAL YEAR ENDED                SEPTEMBER 30, 1996
MAY 31, 1996 (10/30/96)           JUNE 30, 1996 (1/2/97)           (1/29/97)




              Semiannual Report to the Congress: October 1, 1996 - March 31, 1997            43
97-A-386 NEW HAMPSHIRE,         97-A-468 NATIONAL                97-A-608 SANTA FE,
FISCAL YEAR ENDED               INSTITUTE FOR THE                NEW MEXICO,
JUNE 30, 1995 (1/29/97)         CONSERVATION OF                  FISCAL YEAR ENDED
                                CULTURAL PROPERTY, INC.,         JUNE 30, 1996 (3/11/97)
97-A-387 EUGENE, OREGON,        FISCAL YEAR ENDED
FISCAL YEAR ENDED               DECEMBER 31, 1995 (2/13/97)      97-A-641 ST. PETERSBURG,
JUNE 30, 1996 (1/29/97)                                          FLORIDA, FISCAL
                                97-A-503 UNIVERSITY OF           YEAR ENDED
97-A-388 CARSON CITY,           MASSACHUSETTS, FISCAL            SEPTEMBER 30, 1996
NEVADA, FISCAL YEAR             YEAR ENDED JUNE 30, 1996         (3/19/97)
ENDED JUNE 30, 1996             (2/20/97)
(1/29/97)                                                        97-A-643 OKLAHOMA CITY,
                                97-A-568 SPRINGFIELD,            OKLAHOMA, FISCAL YEAR
97-A-415 DEPARTMENT OF          OREGON, FISCAL YEAR              ENDED JUNE 30, 1996
PARKS AND TOURISM,              ENDED JUNE 30, 1996              (3/19/97)
LITTLE ROCK, ARKANSAS,          (3/6/97)
FISCAL YEAR ENDED                                                97-A-644 NEW ENGLAND
JUNE 30, 1994 (2/6/97)          97-A-570 MODESTO,                CONSERVATORY OF MUSIC,
                                CALIFORNIA, FISCAL YEAR          FISCAL YEAR ENDED JUNE
97-A-416 DEPARTMENT OF          ENDED JUNE 30, 1996              30, 1996 (3/19/97)
PARKS AND TOURISM,              (3/6/97)
LITTLE ROCK, ARKANSAS,                                           97-A-672 PORTLAND,
FISCAL YEAR ENDED               97-A-575 GRAYS HARBOR            MAINE, FISCAL YEAR
JUNE 30, 1995 (2/6/97)          COUNTY, WASHINGTON,              ENDED JUNE 30, 1996
                                FISCAL YEAR ENDED                (3/27/97)
97-A-422 WEST LAFAYETTE,        DECEMBER 31, 1995
INDIANA, FISCAL YEAR            (3/5/97)                         97-A-673 EVART,
ENDED DECEMBER 31, 1995                                          MICHIGAN, FISCAL YEAR
(2/6/97)                        97-A-583 ERIE,                   ENDED JUNE 30, 1996
                                PENNSYLVANIA, FISCAL             (3/27/97)
97-A-423 SANDY CITY,            YEAR ENDED
UTAH, FISCAL YEAR ENDED         DECEMBER 31, 1995                OFFICE OF THE
JUNE 30, 1996 (2/6/97)          (3/5/97)                         SECRETARY
97-A-430 PACIFIC                97-A-598 HELENA,                 97-A-118 UTAH, FISCAL
COUNTY, WASHINGTON,             MONTANA, FISCAL YEAR             YEAR ENDED JUNE 30, 1995
FISCAL YEAR ENDED               ENDED JUNE 30, 1996              (10/29/96) **$527,000
DECEMBER 31, 1995               (3/11/97)
(2/6/97)                                                         97-A-129 STANFORD
                                97-A-603 ALBUQUERQUE,            UNIVERSITY, CALIFORNIA,
97-A-463 TACOMA,                NEW MEXICO, FISCAL               FISCAL YEAR ENDED
WASHINGTON, FISCAL YEAR         YEAR ENDED JUNE 30, 1996         AUGUST 31, 1994 (11/6/96)
ENDED                           (3/11/97)
DECEMBER 31, 1995
(2/13/97)                       97-A-607 GETTYSBURG,
                                PENNSYLVANIA, FISCAL
97-A-467 UNIVERSITY OF          YEAR ENDED
MIAMI, FISCAL YEAR ENDED        DECEMBER 31, 1996
MAY 31, 1996 (2/13/97)          (3/11/97)




44          Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
97-A-151 STANFORD               U.S. BUREAU OF                   97-A-177 EVANSVILLE,
UNIVERSITY, FISCAL YEAR         MINES                            VANDBERBURGH COUNTY,
ENDED AUGUST 31, 1995                                            INDIANA, FISCAL YEAR
(11/12/96)                      97-A-61 DEPARTMENT OF            ENDED DECEMBER 31, 1995
                                BUSINESS ECONOMIC                (11/21/96)
97-A-263 CALIFORNIA             DEVELOPMENT TOURISM
POLYTECHNIC STATE               AND HAWAII COMMUNITY             97-A-213 ARKANSAS GAME
UNIVERSITY FOUNDATION,          DEVELOPMENT                      AND FISH COMMISSION,
FISCAL YEAR ENDED               AUTHORITY, FISCAL YEAR           FISCAL YEAR ENDED
JUNE 30, 1996 (12/31/96)        ENDED JUNE 30, 1995              JUNE 30, 1995
                                (10/17/96)                       (12/5/96)
97-A-379 KAUAI COUNTY,           97-A-424 MICHIGAN
HAWAII, FISCAL YEAR             TECHNOLOGICAL                    97-A-247 HUMBOLDT
ENDED JUNE 30, 1996             UNIVERSITY, FISCAL YEAR          STATE UNIVERSITY
(1/29/97)                       ENDED JUNE 30, 1996 (2/6/97)     FOUNDATION,
                                                                 FISCAL YEAR ENDED
97-A-385 WASHOE COUNTY,                                          JUNE 30, 1996 (12/17/96)
NEVADA,
                                U.S. FISH AND
FISCAL YEAR ENDED               WILDLIFE SERVICE                 97-A-250 JUNEAU
JUNE 30, 1996 (1/29/97)                                          BOROUGH SCHOOL
                                97-A-26 CENTER FOR               DISTRICT, FISCAL
97-A-389 GEORGE                 PLANT CONSERVATION,              YEAR ENDED JUNE 30, 1996
WASHINGTON UNIVERSITY,          INC., FISCAL YEAR ENDED          (12/17/96)
FISCAL YEAR ENDED               DECEMBER 31, 1995
JUNE 30, 1995 (1/29/97)         (10/10/96)                       97-A-254 UNIVERSITY OF
                                                                 NEW MEXICO, FISCAL YEAR
97-A-524 SMITHSONIAN            97-A-30 DELAWARE,                ENDED JUNE 30, 1996
INSTITUTION, FISCAL YEAR        FISCAL YEAR ENDED                (12/17/96)
ENDED                           JUNE 30, 1995 (10/8/96)
SEPTEMBER 30, 1995              **$28,563                        97-A-256 OREGON, FISCAL
(2/26/97)                                                        YEAR ENDED JUNE 30, 1995
                                97-A-106 FRIENDS OF              (12/17/96)
97-A-533 WESTBEND,              ANIMALS, INC., FISCAL
WISCONSIN, FISCAL YEAR          YEAR ENDED                       97-A-266 FAIRFAX
ENDED DECEMBER 31, 1995         APRIL 30, 1996 (10/30/96)        COUNTY, VIRGINIA, FISCAL
(2/26/97)                                                        YEAR ENDED
                                97-A-108 TEXAS, FISCAL           JUNE 30, 1996 (12/20/96)
97-A-670 RUTGERS STATE          YEAR ENDED
UNIVERSITY OF NEW               AUGUST 31, 1995 (10/30/96)       97-A-269 PHILADELPHIA,
JERSEY, FISCAL YEAR                                              PENNSYLVANIA,
ENDED JUNE 30, 1996             97-A-110 AUBURN                  FISCAL YEAR ENDED
(3/27/97)                       UNIVERSITY, FISCAL YEAR          JUNE 30, 1995 (12/23/96)
                                ENDED SEPTEMBER 30, 1995
OFFICE OF SURFACE               (10/30/96)                       97-A-270 CALIFORNIA
MINING                                                           STATE UNIVERSITY, LONG
                                97-A-112 FLORIDA,                BEACH FOUNDATION,
RECLAMATION AND                 FISCAL YEAR ENDED                FISCAL YEAR ENDED
ENFORCEMENT                     JUNE 30, 1995 (10/28/96)         JUNE 30, 1996 (12/23/96)

97-A-330 WEST VIRGINIA,
FISCAL YEAR ENDED
JUNE 30, 1995 (1/17/97)


            Semiannual Report to the Congress: October 1, 1996 - March 31, 1997             45
97-A-304 MISSISSIPPI            97-A-571 CHESTERFIELD            97-A-172 CALIFORNIA
STATE UNIVERSITY, FISCAL        COUNTY, VIRGINIA, FISCAL         STATE UNIVERSITY
YEAR ENDED                      YEAR ENDED JUNE 30, 1996         SACRAMENTO
JUNE 30, 1995 (1/6/97)          (3/6/97)                         FOUNDATION,
                                                                 FISCAL YEAR ENDED
97-A-380 VIRGINIA BEACH,        97-A-606 NEW JERSEY,             JUNE 30, 1996 (11/21/96)
VIRGINIA, FISCAL YEAR           FISCAL YEAR ENDED
ENDED JUNE 30, 1996             JUNE 30, 1995 (3/11/97)          97-A-264 OREGON
(1/29/97)                                                        GRADUATE INSTITUTE OF
                                97-A-609 TENNESSEE,              SCIENCE AND
97-A-417 ALABAMA,               FISCAL YEAR ENDED                TECHNOLOGY,
FISCAL YEAR ENDED               JUNE 30, 1995 (3/11/97)          TWO FISCAL YEARS ENDED
SEPTEMBER 30, 1995                                               JUNE 30, 1996 (12/31/96)
(2/5/97)                        97-A-640 CHESAPEAKE,
                                VIRGINIA, FISCAL YEAR            97-A-390 CALIFORNIA
97-A-418 NORTH                  ENDED JUNE 30, 1996              INSTITUTE OF
CAROLINA, FISCAL YEAR           (3/19/97)                        TECHNOLOGY,
ENDED JUNE 30, 1995                                              FISCAL YEAR ENDED
(2/5/97)                        97-A-642 UNIVERSITY OF           SEPTEMBER 30, 1995
                                MARYLAND SYSTEM,                 (1/29/97)
97-A-429 KLICKITAT              FISCAL YEAR ENDED
COUNTY, WASHINGTON,             JUNE 30, 1996 (3/19/97)          97-A-502 NEW MEXICO
FISCAL YEAR ENDED                                                HIGHLANDS UNIVERSITY,
DECEMBER 31, 1995               97-A-671 PORTLAND,               FISCAL YEAR ENDED
(2/6/97)                        OREGON, FISCAL YEAR              JUNE 30, 1996 (2/20/97)
                                ENDED JUNE 30, 1996
97-A-462 METROPOLITAN           (3/27/97)                        97-A-529 BIGELOW
PARK DISTRICT OF TACOMA,                                         LABORATORY FOR OCEAN
FISCAL YEAR ENDED               97-A-675 LAKE COUNTY,            SCIENCES, FISCAL YEAR
DECEMBER 31, 1995               INDIANA, FISCAL YEAR             ENDED JUNE 30, 1996
(2/13/97)                       ENDED DECEMBER 31, 1995          (2/26/97)
                                (3/27/97)
97-A-464 RICHMOND,                                               97-A-604 UNIVERSITY OF
INDIANA, FISCAL YEAR            U.S. GEOLOGICAL                  ALASKA, FISCAL YEAR
ENDED DECEMBER 31, 1995         SURVEY                           ENDED JUNE 30, 1996
(2/13/97)                                                        (3/11/97)
                                97-A-19 WAYNE STATE
97-A-466 SUFFOLK,                                                97-A-605 DUKE
                                UNIVERSITY, FISCAL YEAR
VIRGINIA, FISCAL YEAR                                            UNIVERSITY, FISCAL YEAR
                                ENDED SEPTEMBER 30, 1995
ENDED JUNE 30, 1996                                              ENDED JUNE 30, 1996
                                (10/8/96)
(2/13/97)                                                        (3/11/97)
                                97-A-57 INSTITUTE OF
97-A-522 MASSACHUSETTS,                                          97-A-647 AMERICAN
                                ECOSYSTEM STUDIES, INC.,
FISCAL YEAR ENDED                                                MUSEUM OF NATURAL
                                FISCAL YEAR ENDED
JUNE 30, 1996 (2/26/97)                                          HISTORY, FISCAL YEAR
                                JUNE 30, 1996 (10/17/96)
                                                                 ENDED JUNE 30, 1996
97-A-547 OLD DOMINION                                            (3/19/97)
                                97-A-150 UNIVERSITY OF
UNIVERSITY RESEARCH             WISCONSIN SYSTEM, TWO
FOUNDATION, FISCAL YEAR         FISCAL YEARS ENDED JUNE
ENDED JUNE 30, 1996             30, 1995 (11/12/96)
(2/26/97)



46          Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
97-A-648 METROPOLITAN            97-P-13 FORT BIDWELL             97-P-28 KIPNUK
GOVERNMENT OF                    INDIAN COMMUNITY                 TRADITIONAL COUNCIL,
NASHVILLE,                       COUNCIL, FISCAL                  FISCAL YEAR ENDED
DAVIDSON COUNTY,                 YEAR ENDED                       DECEMBER 31, 1996
TENNESSEE, FISCAL YEAR           SEPTEMBER 30, 1993               (10/9/96)
ENDED JUNE 30, 1996              (10/3/96)
(3/19/97)                                                         97-P-35 OMAHA TRIBE
                                 97-P-14 BURNS PAIUTE             OF NEBRASKA, FISCAL
INDIRECT COST                    TRIBE, FISCAL                    YEAR ENDED
                                 YEAR ENDED                       SEPTEMBER 30, 1994
PROPOSALS                        DECEMBER 31, 1996 (10/3/96)      (10/10/96)
                                 *$11,990
BUREAU OF INDIAN                                                  97-P-36 OMAHA TRIBE
AFFAIRS                          97-P-15 COCOPAH                  OF NEBRASKA, FISCAL
                                 INDIAN TRIBE,                    YEAR ENDED
97-P-7 UNITED SIOUX              FISCAL YEAR ENDED                SEPTEMBER 30, 1996
TRIBES OF SOUTH DAKOTA           DECEMBER 31, 1996                (10/10/96) *$61,302
DEVELOPMENT                      (10/3/96) *$15,978
CORPORATION,                                                      97-P-38 EASTERN
FISCAL YEAR ENDED                97-P-16 CONFEDERATED             SHOSHONE TRIBE OF THE
SEPTEMBER 30, 1996               TRIBES AND BANDS OF THE          WIND RIVER RESERVATION,
(10/3/96)                        YAKAMA INDIAN NATION,            FISCAL YEAR ENDED
                                 FISCAL YEAR ENDED                DECEMBER 31, 1995
97-P-8 OGLALA SIOUX              SEPTEMBER 30, 1996               (10/17/96) *$30,300
TRIBE, FISCAL YEAR ENDED         (10/3/96) *$28,985
DECEMBER 31, 1996                                                 97-P-39 EASTERN
(10/3/96)                        97-P-17 YAKUTAT TLINGIT          SHOSHONE TRIBE OF THE
                                 TRIBE, FISCAL YEAR ENDED         WIND RIVER RESERVATION,
97-P-9 OGLALA SIOUX              DECEMBER 31, 1996                FISCAL YEAR ENDED
TRIBE, FISCAL YEAR ENDED         (10/3/96)                        DECEMBER 31, 1996
DECEMBER 31, 1994                                                 (10/16/96) *$25,427
(10/3/96)                        97-P-22 WASHOE TRIBE
                                 OF NEVADA AND                    97-P-51 YAVAPAI-APACHE
97-P-10 FORT BELKNAP             CALIFORNIA, FISCAL               TRIBE, FISCAL YEAR ENDED
COMMUNITY COUNCIL,               YEAR ENDED                       DECEMBER 31, 1996
FISCAL YEAR ENDED                DECEMBER 31, 1996                (10/17/96) *$201,591
SEPTEMBER 30, 1996 (10/3/96)     (10/7/96) *$32,101
                                                                  97-P-52 SKY PEOPLE
97-P-11 SQUAXIN ISLAND           97-P-23 TULALIP TRIBES           EDUCATION COMMITTEE,
TRIBE, FISCAL YEAR ENDED         OF WASHINGTON, FISCAL            FISCAL YEAR ENDED
SEPTEMBER 30, 1996               YEAR ENDED                       SEPTEMBER 30, 1997
(10/3/96) *$43,354               DECEMBER 31, 1996 (10/7/96)      (10/17/96)
                                 *$126,218
97-P-12 SKOKOMISH                                                 97-P-53 OTOE MISSOURIA
INDIAN TRIBE,                    97-P-24 SINTE GLESKA             TRIBE, FISCAL
FISCAL YEAR ENDED                UNIVERSITY, FISCAL               YEAR ENDED
SEPTEMBER 30, 1996               YEAR ENDED                       DECEMBER 31, 1996
 (10/3/96)                       SEPTEMBER 30, 1996               (10/17/96) *$28,748
                                 (10/8/96) *$62,247




             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997           47
97-P-54 BLACKFEET                97-P-75 NATIVE VILLAGE           97-P-102 SPOKANE TRIBE
COMMUNITY COLLEGE,               OF FORT YUKON,                   OF INDIANS, FISCAL
FISCAL YEAR ENDED                FISCAL YEAR ENDED                YEAR ENDED
SEPTEMBER 30, 1997               DECEMBER 31, 1996                SEPTEMBER 30, 1996
(10/17/96)                       (10/21/96) *$5,980               (10/29/96) *$110,428

97-P-64 YAVAPAI-APACHE           97-P-89 THREE AFFILIATED         97-P-104 HOPI TRIBE,
TRIBE, FISCAL                    TRIBES,                          FISCAL YEAR ENDED
YEAR ENDED                       THE MANDAN, HIDATSA              NOVEMBER 30, 1996
SEPTEMBER 30, 1994               AND ARIKARA NATIONS,             (10/29/96)
(10/17/96)                       FISCAL YEAR ENDED
                                 SEPTEMBER 30, 1996               97-P-119 SAULT STE.
97-P-65 YAVAPAI-APACHE           (10/23/96)                       MARIE TRIBE OF CHIPPEWA
TRIBE, FISCAL YEAR ENDED                                          INDIANS, FISCAL YEAR
DECEMBER 31, 1993                97-P-93 THREE AFFILIATED         ENDED DECEMBER 31, 1996
(10/17/96)                       TRIBES, THE MANDAN,              (10/31/96)
                                 HIDATSA AND
97-P-66 ALL INDIAN               ARIKARA NATIONS,                 97-P-137 QUECHAN INDIAN
PUEBLO COUNCIL, INC.,            FISCAL YEAR ENDED                TRIBE, FISCAL YEAR ENDED
FISCAL YEAR ENDED                SEPTEMBER 30, 1997               DECEMBER 31 1996
JUNE 30, 1996 (10/21/96)         (10/23/96)                       (11/8/96)
*$125,515
                                 97-P-95 CADDO INDIAN             97-P-138 KALISPEL TRIBE
97-P-68 ALL INDIAN               TRIBE OF OKLAHOMA,               OF INDIANS, FISCAL
PUEBLO COUNCIL, INC.,            FISCAL YEAR ENDED                YEAR ENDED
FISCAL YEAR ENDED                SEPTEMBER 30, 1996               SEPTEMBER 30, 1997
JUNE 30, 1995 (10/21/96)         (10/23/96) *$26,337              (11/8/96) *$5,962
*$78,983
                                 97-P-96 FOREST COUNTY            97-P-139 ZIA PUEBLO,
97-P-69 ALL INDIAN               POTAWATOMI COMMUNITY,            FISCAL YEAR ENDED
PUEBLO COUNCIL, INC.,            FISCAL YEAR ENDED                DECEMBER 31, 1996
FISCAL YEAR ENDED                SEPTEMBER 30, 1996               (11/11/96)
JUNE 30, 1994 (10/21/96)         (10/9/96)
                                                                  97-P-140 POJOAQUE
97-P-70 ALL INDIAN               97-P-97 SHOALWATER BAY           PUEBLO, FISCAL
PUEBLO COUNCIL, INC.,            INDIAN TRIBE, FISCAL YEAR        YEAR ENDED
FISCAL YEAR ENDED                ENDED                            SEPTEMBER 30, 1997
JUNE 30, 1993 (10/21/96)         SEPTEMBER 30, 1996               (11/13/96) *$4,241
                                 (10/23/96) *$11,517
97-P-74 CONFEDERATED                                              97-P-141 RAMAH NAVAJO
TRIBES OF THE WARM               97-P-99 SUMMIT LAKE              SCHOOL BOARD, INC.,
SPRINGS RESERVATION,             PAIUTE TRIBE, FISCAL YEAR        FISCAL YEAR ENDED
FISCAL YEAR ENDED                ENDED                            DECEMBER 31, 1996
DECEMBER 31, 1996                DECEMBER 31, 1996                (11/13/96) *$6,489
(10/21/96) *$59,592              (10/25/96) *$16,179
                                                                  97-P-156 RENO-SPARKS
                                 97-P-101 HOH INDIAN              INDIAN COLONY, FISCAL
                                 TRIBE, FISCAL YEAR ENDED         YEAR ENDED
                                 SEPTEMBER 30, 1996               DECEMBER 31, 1996
                                 (10/29/96)                       (11/15/96) *$11,910




48           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
97-P-158 RED CLIFF BAND         97-P-192 STILLAQUAMISH           97-P-233 SANTA YNEZ
OF LAKE SUPERIOR                TRIBE OF INDIANS, FISCAL         BAND OF MISSION INDIANS,
CHIPPEWA INDIANS, FISCAL        YEAR ENDED                       FISCAL
YEAR ENDED SEPTEMBER            SEPTEMBER 30, 1998               YEAR ENDED
30, 1996                        (12/02/96) *$26,008              SEPTEMBER 30, 1996
(11/18/96)                                                       (12/11/96)
                                97-P-193 TEMECULA BAND
97-P-159 MICCOSUKEE             OF LUISENO MISSION               97-P-236 GREAT LAKES
CORPORATION, FISCAL             INDIANS, FISCAL YEAR             INTER-TRIBAL COUNCIL,
YEAR ENDED                      ENDED SEPTEMBER 30, 1996         INC., FISCAL YEAR ENDED
SEPTEMBER 30, 1997              (12/02/96) *$11,694              JUNE 30, 1997 (12/11/96)
(11/6/96)
                                97-P-194 SITTING BULL            97-P-237 GREENVILLE
97-P-183 SAGINAW                COLLEGE, FISCAL YEAR             RANCHERIA, FISCAL YEAR
CHIPPEWA INDIAN TRIBE OF        ENDED JUNE 30, 1997              ENDED DECEMBER 31, 1996
MICHIGAN, FISCAL YEAR           (12/2/96)                        (12/12/96) *$3,629
ENDED
SEPTEMBER 30, 1996              97-P-195 FORT SILL               97-P-240 KIOWA TRIBE OF
(11/21/96)                      APACHE TRIBE OF                  OKLAHOMA, FISCAL YEAR
                                OKLAHOMA, FISCAL                 ENDED DECEMBER 31, 1996
97-P-184 OGLALA SIOUX           YEAR ENDED                       (12/16/96) *$51,423
TRIBE PARKS AND                 JUNE 30, 1997 (12/2/96)
RECREATION AUTHORITY,                                            97-P-258 MAKAH TRIBAL
FISCAL YEAR ENDED               97-P-223 PICAYUNE                COUNCIL, FISCAL
DECEMBER 31, 1996               RANCHERIA OF THE                 YEAR ENDED
(11/21/96) *$79,274             CHUKCHANSI INDIANS,              SEPTEMBER 30, 1997
                                6 MONTHS ENDED                   (12/20/96) *$4,969
97-P-185 OGLALA SIOUX           APRIL 30, 1997 (12/5/96)
TRIBE PARKS AND                                                  97-P-259 SHERWOOD
RECREATION AUTHORITY,           97-P-228 NORTHERN                VALLEY RANCHERIA,
FISCAL YEAR ENDED               ARAPAHO TRIBE, FISCAL            6 MONTHS ENDED
DECEMBER 31, 1994               YEAR ENDED                       JUNE 30, 1997 (12/20/96)
(11/21/96) *$20,634             DECEMBER 31, 1996
                                (12/10/96) *$389,080             97-P-260 KETCHIKAN
97-P-186 CHEROKEE                                                INDIAN CORPORATION,
NATION, FISCAL YEAR             97-P-229 CHEYENNE AND            FISCAL YEAR ENDED
ENDED SEPTEMBER 30, 1996        ARAPAHO TRIBES OF                DECEMBER 31, 1995
(11/26/96) *$963,014            OKLAHOMA, FISCAL YEAR            (12/20/96) *$13,765
                                ENDED DECEMBER 31, 1996
97-P-187 WINNEBAGO              (12/10/96) *$123,250             97-P-261 KETCHIKAN
TRIBE OF NEBRASKA,                                               INDIAN CORPORATION,
FISCAL YEAR ENDED               97-P-231 GILA RIVER              FISCAL YEAR ENDED
SEPTEMBER 30, 1996              INDIAN COMMUNITY,                DECEMBER 31, 1997
(11/26/96) *$36,490             FISCAL YEAR ENDED                (12/20/96)
                                MARCH 31, 1997
97-P-191 STILLAQUAMISH          (12/11/96) *$274,569             97-P-272 TABLE BLUFF
TRIBE OF INDIANS, FISCAL                                         RESERVATION (WIYOT
YEAR ENDED                      97-P-232 THE KLAMATH             TRIBE), FISCAL YEAR
SEPTEMBER 30, 1997              TRIBES, FISCAL YEAR              ENDED DECEMBER 31, 1997
(12/02/96) *$26,008             ENDED DECEMBER 31, 1996          (12/27/96)
                                (12/11/96) *$172,824



            Semiannual Report to the Congress: October 1, 1996 - March 31, 1997             49
97-P-273 COLORADO               97-P-306 SAN JUAN                97-P-352 FAIRBANKS
RIVER INDIAN TRIBES,            SOUTHERN PAIUTE TRIBE,           NATIVE ASSOCIATION,
FISCAL YEAR ENDED               FISCAL YEAR ENDED                FISCAL YEAR ENDED
DECEMBER 30, 1996               SEPTEMBER 30, 1995               JUNE 30, 1997 (1/22/97)
(12/27/96) *$43,857             (1/14/97)
                                                                 97-P-368 MAINE INDIAN
97-P-274 MOAPA BAND OF          97-P-307 SAN JUAN                EDUCATION, FISCAL YEAR
PAIUTES, FISCAL YEAR            SOUTHERN PAIUTE TRIBE,           ENDED JUNE 30, 1996
ENDED DECEMBER 31, 1997         FISCAL YEAR ENDED                (1/28/97)
(12/27/96)                      SEPTEMBER 30, 1997                97-P-370 TUOLUMNE BAND
                                (1/14/97)                        OF ME-WUK INDIANS,
97-P-275 COMANCHE                                                FISCAL YEAR ENDED
INDIAN TRIBE, FISCAL YEAR       97-P-308 THE COCOPAH             SEPTEMBER 30, 1997
ENDED                           INDIAN TRIBE, FISCAL YEAR        (1/27/97)
SEPTEMBER 30, 1997              ENDED
(12/27/96) *$19,400             DECEMBER 31, 1997                97-P-371 SCOTTS VALLEY
                                (1/14/97)                        BAND OF POMO INDIANS,
97-P-276 SOUTHERN UTE                                            FISCAL YEAR ENDED
COMMUNITY ACTION                97-P-309 BISHOP TRIBAL           DECEMBER 31, 1997
PROGRAM, FISCAL                 COUNCIL, FISCAL YEAR             (1/27/97)
YEAR ENDED                      ENDED DECEMBER 31, 1997
DECEMBER 31, 1997               (1/14/97)                        97-P-372 WAMPANOAG
(12/27/96)                                                       TRIBE OF GAY HEAD
                                97-P-331 SAN PASQUAL             (AQUINNAH), FISCAL
97-P-277 ORGANIZED              BAND OF MISSION INDIANS,         YEAR ENDED
VILLAGE OF KWETHLUK,            6 MONTHS ENDED JUNE 30,          SEPTEMBER 30, 1997
FISCAL YEAR ENDED               1997 (1/17/97)                   (1/24/97)
DECEMBER 31, 1996
(12/30/96)                      97-P-332 BLUE LAKE               97-P-373 KEWEENAW BAY
                                RANCHERIA, FISCAL YEAR           INDIAN COMMUNITY,
97-P-278 THE CHIPPEWA           ENDED DECEMBER 31, 1995          FISCAL YEAR ENDED
CREE TRIBE OF THE ROCKY         (1/17/97)                        SEPTEMBER 30, 1996
BOY'S RESERVATION,                                               (1/24/97)
FISCAL YEAR ENDED               97-P-333 BLUE LAKE
MARCH 31, 1997                  RANCHERIA, FISCAL YEAR           97-P-374 LEECH LAKE
(1/2/97)                        ENDED DECEMBER 31, 1997          TRIBAL COUNCIL, FISCAL
                                (1/17/97)                        YEAR ENDED
97-P-280 PUYALLUP TRIBE                                          SEPTEMBER 30, 1997
OF INDIANS, FISCAL              97-P-334 SUSANVILLE              (1/24/97)
YEAR ENDED                      INDIAN RANCHERIA, FISCAL
SEPTEMBER 30, 1996              YEAR ENDED DECEMBER 31,          97-P-376 TURTLE
(1/6/97)                        1997                             MOUNTAIN BAND OF
                                (1/17/97) *$2,979                CHIPPEWA INDIANS, FISCAL
97-P-282 EASTERN BAND                                            YEAR ENDED SEPTEMBER
OF CHEROKEE INDIANS,            97-P-347 PONCA TRIBE OF          30, 1997
FISCAL YEAR ENDED               OKLAHOMA, FISCAL YEAR            (1/27/97) *$90,619
SEPTEMBER 30, 1996              ENDED SEPTEMBER 30, 1997
(1/7/97)                        (1/22/97) *$43,873




50          Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
97-P-377 PASCUA YAQUI             97-P-449 COCHITI PUEBLO,        97-P-486 PEORIA TRIBE
TRIBE, FISCAL                    FISCAL YEAR ENDED                OF INDIANS OF OKLAHOMA,
YEAR ENDED                       DECEMBER 31, 1996                FISCAL YEAR ENDED
SEPTEMBER 30, 1996               (2/11/97)                        MARCH 31, 1998 (2/18/97)
(1/27/97) *$129,580                                               *$7,078
                                 97-P-476 YAKUTAT
97-P-378 PASCUA YAQUI            TLINGIT TRIBE, FISCAL            97-P-487 LITTLE HOOP
TRIBE, FISCAL                    YEAR ENDED                       COMMUNITY COLLEGE,
YEAR ENDED                       DECEMBER 31, 1997                FISCAL YEAR ENDED
SEPTEMBER 30, 1997               (2/13/97) *$714                  SEPTEMBER 30, 1997
(1/27/97) *$74,501                                                (2/18/97)
                                                                   97-P-513 NATIVE VILLAGE
97-P-391 CHEROKEE BOYS           97-P-477 MUCKLESHOOT             OF GAMBELL, FISCAL YEAR
CLUB, INC., FISCAL YEAR          INDIAN TRIBE, FISCAL YEAR        ENDED
ENDED JUNE 30, 1997              ENDED                            DECEMBER 31, 1997
(1/29/97)                        DECEMBER 31, 1997                (2/21/97)
                                 (2/13/97)
97-P-397 TRINIDAD                                                 97-P-518 WICHITA AND
RANCHERIA, FISCAL YEAR           97-P-478 PONCA TRIBE OF          AFFILIATED TRIBES, FISCAL
ENDED DECEMBER 31, 1997          NEBRASKA, FISCAL YEAR            YEAR ENDED SEPTEMBER
(1/30/97) *$17,318               ENDED SEPTEMBER 30, 1997         30, 1997 (2/21/97) *$6,011
                                 (2/13/97) *$11,342
97-P-402 NORTHWEST                                                97-P-520 QUINAULT
INDIAN FISHERIES                 97-P-479 SKAGIT SYSTEM           INDIAN NATION, FISCAL
COMMISSION, FISCAL YEAR          COOPERATIVE, FISCAL              YEAR ENDED
ENDED SEPTEMBER 30, 1997         YEAR ENDED                       SEPTEMBER 30, 1997
(2/3/97) *$82,511                DECEMBER 31, 1997                (2/24/97) *$22,468
                                 (2/14/97) *$5,466
97-P-403 NORTHWEST                                                97-P-523 CONFEDERATED
INDIAN COLLEGE, FISCAL           97-P-480 SKAGIT SYSTEM           TRIBES OF THE UMATILLA
YEAR ENDED JUNE 30, 1996         COOPERATIVE, FISCAL              INDIAN RESERVATION,
(2/3/97)                         YEAR ENDED                       FISCAL YEAR ENDED
                                 DECEMBER 31, 1996                DECEMBER 31, 1996
97-P-404 MOORETOWN               (2/14/97) *$5,306                (2/25/97) *$127,258
RANCHERIA, FISCAL YEAR
ENDED DECEMBER 31, 1997          97-P-482 JENA BAND OF            97-P-536 COW CREEK BAND
(2/3/97)                         CHOCTAW INDIANS, FISCAL          OF UMPQUA TRIBE OF
                                 YEAR ENDED DECEMBER 31,          INDIANS, FISCAL YEAR
97-P-405 SANTA FE                1997 (2/6/97)                    ENDED DECEMBER 31, 1997
INDIAN SCHOOL, INC.,                                              (2/25/97)
FISCAL YEAR ENDED                97-P-484 KOOTENAI TRIBE
JUNE 30, 1997 (2/3/97)           OF IDAHO, FISCAL YEAR
                                 ENDED SEPTEMBER 30, 1997
97-P-442 YUROK TRIBE,            (2/18/97) *$27,675
FISCAL YEAR ENDED
SEPTEMBER 30, 1997               97-P-485 CONFEDERATED
(2/7/97)                         TRIBES OF THE CHEHALIS
                                 RESERVATION, FISCAL
97-P-443 ENTERPRISE              YEAR ENDED
RANCHERIA, FISCAL YEAR           DECEMBER 31, 1997
ENDED DECEMBER 31, 1997          (2/18/97) *$38,345
(2/7/97) *$620


             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997          51
97-P-540 ROSEBUD SIOUX           97-P-559 TUNICA-BILOXI           97-P-621 POINT NO POINT
TRIBE, FISCAL                    INDIANS OF LOUISIANA,            TREATY COUNCIL, FISCAL
YEAR ENDED                       FISCAL YEAR ENDED                YEAR ENDED
SEPTEMBER 30, 1996               DECEMBER 31, 1996                DECEMBER 31, 1995 (3/18/97)
(2/27/97) *$219,790              (3/5/97)
                                                                  97-P-622 POINT NO POINT
97-P-551 CHOCTAW NATION          97-P-584 AGDAAGUX                TREATY COUNCIL,
OF OKLAHOMA, FISCAL              TRIBAL COUNCIL, FISCAL           FISCAL YEAR ENDED
YEAR ENDED SEPTEMBER             YEAR ENDED                       DECEMBER 31, 1997 (3/18/97)
30, 1997                         SEPTEMBER 30, 1997 (3/6/97)
(3/4/97) *$994,544                                                97-P-626 APACHE TRIBE
                                 97-P-588 ALAMO NAVAJO            OF OKLAHOMA, FISCAL
97-P-552 ASSINIBOINE             SCHOOL BOARD, INC.,              YEAR ENDED
AND SIOUX TRIBES-FORT            FISCAL YEAR ENDED                DECEMBER 31, 1995
PECK RESERVATION, FISCAL         JUNE 30, 1997 (3/6/97)           (3/18/97)
YEAR ENDED SEPTEMBER             *$13,955
30, 1997 (3/4/97)                                                 97-P-627 APACHE TRIBE
                                 97-P-594 SAC AND FOX             OF OKLAHOMA, FISCAL
97-P-553 OGLALA SIOUX            NATION OF OKLAHOMA,              YEAR ENDED
TRIBAL PUBLIC SAFETY             FISCAL YEAR ENDED                DECEMBER 31,1996
COMMISSION, FISCAL YEAR          DECEMBER 31, 1996                (3/18/97) *$7,349
ENDED                            (3/12/97) *$8,336
SEPTEMBER 30, 1997                                                97-P-629 LAS VEGAS
(3/4/97) *$319,174               97-P-595 SENECA-CAYUGA           PAIUTE TRIBE, FISCAL
                                 TRIBE OF OKLAHOMA,               YEAR ENDED
97-P-554 CONFEDERATED            FISCAL YEAR ENDED                DECEMBER 31, 1997
TRIBES OF THE GRAND              SEPTEMBER 30, 1997               (3/19/97) *$295,972
RONDE COMMUNITY OF               (3/11/97)
OREGON, FISCAL YEAR                                               97-P-630 MANZANITA BAND
ENDED DECEMBER 31, 1997          97-P-597 KARUK TRIBE,            OF MISSION INDIANS,
(3/4/97) *$76,210                FISCAL YEAR ENDED                FISCAL YEAR ENDED
                                 SEPTEMBER 30, 1997               DECEMBER 31, 1997
97-P-555 NORTHWEST               (3/11/97) *$28,814               (3/19/97)
INDIAN COLLEGE, FISCAL
YEAR ENDED JUNE 30, 1997         97-P-616 BERRY CREEK             97-P-631 MANZANITA BAND
(3/4/97)                         RANCHERIA, FISCAL YEAR           OF MISSION INDIANS,
                                 ENDED DECEMBER 31, 1997          FISCAL YEAR ENDED
97-P-556 KAIBAB BAND OF          (3/13/97)                        DECEMBER 31, 1995
PAIUTE INDIANS, FISCAL                                            (3/19/97)
YEAR ENDED                       97-P-618 BIG VALLEY
DECEMBER 31, 1997 (3/4/97)       RANCHERIA BAND OF POMO           97-P-632 SALT RIVER
                                 INDIANS, FISCAL YEAR             PIMA-MARICOPA INDIAN
97-P-558 TUNICA-BILOXI           ENDED                            COMMUNITY, FISCAL YEAR
INDIANS OF LOUISIANA,            DECEMBER 31, 1997                ENDED
FISCAL YEAR ENDED                (3/14/97)                        SEPTEMBER 30, 1997
DECEMBER 31, 1995                                                 (3/19/97)
(2/4/97)                         97-P-620 NATIVE VILLAGE
                                 OF FORT YUKON, FISCAL
                                 YEAR ENDED
                                 DECEMBER 31, 1997 (3/18/97)
                                 *$9,868



52           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
7-P-634 BOIS FORTE               97-P-659 SAINT STEPHENS          MULTI-OFFICE
BAND OF CHIPPEWA                 INDIAN SCHOOL
INDIANS, FISCAL YEAR             EDUCATIONAL                      97-P-163 WASHINGTON
ENDED SEPTEMBER 30, 1997         ASSOCIATION, INC., FISCAL        STATE PARKS AND
(3/19/97)                        YEAR ENDED JUNE 30, 1998         RECREATION COMMISSION,
                                 (3/25/97)                        FISCAL YEAR ENDED
97-P-651 GREAT LAKES                                              JUNE 30, 1998 (11/19/96)
INDIAN FISH AND WILDLIFE         97-P-660 WHITE EARTH
COMMISSION, FISCAL YEAR          RESERVATION TRIBAL               97-P-164 WASHINGTON
ENDED DECEMBER 31, 1997          COUNCIL, FISCAL YEAR             STATE PARKS AND
(3/19/97)                        ENDED SEPTEMBER 30, 1996         RECREATION COMMISSION,
                                 (3/25/97)                        FISCAL YEAR ENDED
97-P-652 1854 AUTHORITY,                                          JUNE 30, 1999 (11/19/96)
FISCAL YEAR ENDED                97-P-661 SENECA NATION
DECEMBER 31, 1997                OF INDIANS, FISCAL YEAR          97-P-444 MONTANA
(3/19/97)                        ENDED SEPTEMBER 30, 1996         DEPARTMENT OF NATURAL
                                 (3/25/97)                        RESOURCES AND
97-P-653 HOWONQUET                                                CONSERVATION, FISCAL
INDIAN COUNCIL-SMITH             97-P-680 ASSOCIATION OF          YEAR ENDED
RIVER RANCHERIA,                 VILLAGE COUNCIL                  JUNE 30, 1997 (2/7/97)
FISCAL YEAR ENDED                PRESIDENTS, FISCAL YEAR
DECEMBER 31, 1997 (3/21/97)      ENDED DECEMBER 31, 1997          97-P-512 NEVADA
                                 (3/27/97)                        DEPARTMENT OF
97-P-654 HOWONQUET                                                CONSERVATION
INDIAN COUNCIL-SMITH             97-P-681 ASSOCIATION OF          AND NATURAL RESOURCES,
RIVER RANCHERIA,                 VILLAGE COUNCIL                  DIVISION OF WILDLIFE,
FISCAL YEAR ENDED                PRESIDENTS, FISCAL YEAR          FISCAL YEAR
DECEMBER 31, 1995 (3/21/97)      ENDED DECEMBER 31, 1995          ENDED JUNE 30, 1996
                                 (3/27/97)                        (2/21/97)
97-P-655 ROUND VALLEY
INDIAN TRIBES, FISCAL            INSULAR AREAS                    97-P-535 UTAH
YEAR ENDED                                                        DEPARTMENT OF NATURAL
DECEMBER 31,1997 (3/21/97)       Guam                             RESOURCES,
                                                                  GEOLOGICAL SURVEY,
97-P-656 PAIUTE INDIAN           97-P-328 GOVERNMENT              FISCAL YEAR ENDED
TRIBE OF UTAH, FISCAL            OF GUAM, FISCAL YEAR             JUNE 30, 1997 (2/25/97)
YEAR ENDED                       ENDED SEPTEMBER 30, 1997
DECEMBER 31,1997 (3/21/97)       (1/17/97) *$2,591,929            97-P-557 UTAH
*$816                                                             DEPARTMENT
                                 U.S. Virgin Islands              OF NATURAL RESOURCES,
97-P-658 SAINT STEPHENS                                           DIVISION OF OIL, GAS, AND
INDIAN SCHOOL                                                     MINING, FISCAL YEAR
EDUCATIONAL                      97-P-67 DEPARTMENT OF
                                                                  ENDED JUNE 30, 1998
ASSOCIATION, INC., FISCAL        PLANNING AND NATURAL
                                                                  (3/4/97)
YEAR ENDED                       RESOURCES, FISCAL YEAR
JUNE 30, 1999                    ENDED SEPTEMBER 30, 1996
                                 (10/17/96)                       97-P-601 IDAHO STATE
(3/25/97)                                                         HISTORICAL SOCIETY,
                                                                  FISCAL YEAR ENDED
                                 97-P-456 ISLAND
                                                                  JUNE 30, 1998 (3/11/97)
                                 RESOURCES FOUNDATION,
                                 FISCAL YEAR ENDED
                                 JUNE 30, 1998 (2/13/97)


             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997            53
NATIONAL PARK                    OFFICE OF SURFACE                97-P-157 KANSAS
SERVICE                          MINING                           DEPARTMENT OF WILDLIFE
                                                                  AND PARKS, FISCAL YEAR
                                 RECLAMATION AND                  ENDED
97-P-221 KENTUCKY                ENFORCEMENT
DEPARTMENT OF LOCAL                                               JUNE 30, 1997
GOVERNMENT, FISCAL                                                (11/18/96) *$352
                                 97-P-238 VIRGINIA
YEAR ENDED JUNE 30, 1997         DEPARTMENT OF
(12/4/96)                                                         97-P-230 OHIO
                                 CONSERVATION AND                 DEPARTMENT OF NATURAL
                                 RECREATION, FISCAL YEAR          RESOURCES,
97-P-312 SOUTH CAROLINA          ENDED JUNE 30, 1997
DEPARTMENT OF ARCHIVES                                            FISCAL YEAR ENDED
                                 (12/13/96)                       JUNE 30, 1997
AND HISTORY, FISCAL YEAR
ENDED                                                             (12/9/96)
                                 97-P-369 NORTH DAKOTA
JUNE 30, 1997                    STATE PUBLIC SERVICE
(1/14/97)                                                         97-P-283 MASSACHUSETTS
                                 COMMISSION, FISCAL YEAR          DEPARTMENT OF FISHERIES
                                 ENDED JUNE 30, 1998              AND WILDLIFE AND
97-P-313 SOUTH CAROLINA          (1/23/97) *$444
PARKS, RECREATION AND                                             ENVIRONMENTAL LAW
TOURISM, FISCAL YEAR                                              ENFORCEMENT, FISCAL
ENDED JUNE 30, 1997
                                 U.S. FISH AND                    YEAR ENDED
(1/14/97)                        WILDLIFE SERVICE                 JUNE 30, 1997 (1/7/97)

                                 97-P-71 MASSACHUSETTS            97-P-345 OKLAHOMA
97-P-406 IOWA                    DIVISION OF FISHERIES AND        DEPARTMENT OF WILDLIFE
DEPARTMENT OF NATURAL            WILDLIFE, TWO FISCAL             CONSERVATION, FISCAL
RESOURCES, FISCAL YEAR           YEARS ENDED JUNE 30, 1997        YEAR ENDED
ENDED JUNE 30, 1998              (10/21/96)                       JUNE 30, 1998 (1/22/97)
(2/3/97)
                                 97-P-72 MASSACHUSETTS            97-P-446 INDIANA
97-P-439 NATIONAL TRUST          DIVISION OF                      DEPARTMENT OF NATURAL
FOR HISTORIC                     ENVIRONMENTAL                    RESOURCES, FISCAL YEAR
PRESERVATION, TWO                LAW ENFORCEMENT, TWO             ENDED
FISCAL YEARS ENDED               FISCAL YEARS ENDED JUNE          JUNE 30, 1997
SEPTEMBER 30, 1998 (2/6/97)      30, 1997 (10/21/96)              (2/6/97)

97-P-657 MONTANA                 97-P-73 MASSACHUSETTS            97-P-483 AMERICAN
DEPARTMENT OF FISH,              DIVISION OF MARINE               FISHERIES SOCIETY, FISCAL
WILDLIFE AND PARKS,              FISHERIES, TWO FISCAL            YEAR ENDED DECEMBER
FISCAL YEAR ENDED                YEARS ENDED                      31, 1995 (2/18/97)
JUNE 30, 1998 (3/25/97)          JUNE 30, 1997 (10/21/96)
*$6,268                                                           97-P-567 TENNESSEE
                                 97-P-103 WEST VIRGINIA           WILDLIFE RESOURCES
                                 DIVISION OF NATURAL              AGENCY, FISCAL YEAR
                                 RESOURCES, FISCAL YEAR           ENDED JUNE 30, 1997
                                 ENDED JUNE 30, 1997              (3/5/97)
                                 (10/29/96)




54           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
U.S. GEOLOGICAL
SURVEY

97-P-311 WYOMING
GEOLOGICAL SURVEY,
FISCAL YEAR ENDED
JUNE 30, 1998 (1/14/97)

97-P-400 KANSAS STATE
WATER OFFICE, FISCAL
YEAR ENDED
JUNE 30, 1998 (1/31/97)




             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997   55
                                               APPENDIX 3

                MONETARY IMPACT OF AUDIT ACTIVITIES FROM
                  OCTOBER 1, 1996, THROUGH MARCH 31, 1997
                                                        FUNDS TO
                                QUESTIONED              BE PUT TO
                                  COSTS                BETTER USE*           REVENUES**      TOTAL
ACTIVITY

Bureau of Indian
Affairs                                  $908,193            $6,060,754                 0     $6,968,947

Bureau of Reclamation                             0            1,285,167                0      1,285,167

Insular Areas: ***
     - Commonwealth of
       the Northern
       Mariana Islands                      80,309                       0              0         80,309
     - Federated States of
     Micronesia                            166,523                       0              0       166,523
     - Guam                             5,328,718              3,596,013                0      8,924,731
     - Republic of Palau                   137,840                       0              0       137,840
     - U.S. Virgin Islands                 907,500             6,100,000         1,745,000     8,752,500

Minerals Management
Service                                    181,734                       0              0       181,734

National Park Service                             0            1,312,979                0      1,312,979

Office of the Secretary                    527,000                       0              0       527,000

Office of Surface Mining
Reclamation and
Enforcement                                       0                    444              0           444

U.S. Fish and Wildlife
Service                                 5,320,762                 63,821                0      5,384,583

U.S. Geological Survey                            0               13,505                0         13,505

     Total                            $13,558,579           $18,432,683         $1,745,000   $33,736,262
* Includes monetary impact of indirect cost proposals negotiated.
** Represents lost or potential revenues.
*** Includes monetary impact of non-Federal funds ( see Appendix 4).




56             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
                                     APPENDIX 4

              NON-FEDERAL FUNDING INCLUDED IN
             MONETARY IMPACT OF AUDIT ACTIVITIES
              DURING THE 6-MONTH PERIOD ENDED
                       MARCH 31, 1997

No. 97-I-40 - "Division of Agriculture, Department of Economic Development and
Agriculture, Government of the Virgin Islands," dated October 21, 1996. All of the $90,000
reported as monetary impact represents insular area funds.

No. 97-I-241 - "Guam Mass Transit Authority, Government of Guam," dated March 31,
1997. Of the $4,977,487 reported as monetary impact, $4,290,472 represents insular area
funds.

No. 97-I-243 - "Workmen’s Compensation Program, Government of the Virgin Islands,"
dated December 30, 1997. All of the $2,530,000 reported as monetary impact represents
insular area funds.

No. 97-I-257 - "Small Business Development Agency, Government of the Virgin Islands,"
dated January 15, 1997. All of the $6,100,000 reported as monetary impact represents insular
area funds.

No. 97-I-591 - "Guam Legislature, Government of Guam," dated March 24, 1997. All of the
$1,004,084 reported as monetary impact represents insular area funds.




         Semiannual Report to the Congress: October 1, 1996 - March 31, 1997             57
                                                    APPENDIX 5

                                        TABLE I
                            INSPECTOR GENERAL AUDIT REPORTS
                                 WITH QUESTIONED COSTS

                                                                                                         Unsupported
                                       No. of Reports*                Questioned Costs                    Costs**
A. For which no
management decision had
been made by the
commencement of the
reporting period                                             75                  $45,905,261                      $3,672,261

B. Which were issued
during the reporting period
                                                             34                   13,558,579                            76,974

     Total (A+B)                                            109                  $59,463,840                      $3,749,235

C. For which a
management decision was
made during the reporting
period                                                       44                  $17,598,197                         $736,169

     (i) dollar value of
       disallowed costs                                      29                   $6,550,630                          $16,000

     (ii) dollar value of
        costs not
       disallowed                                            19                  $11,047,567                         $720,169

D. For which no
management decision had
been made by the end of
the reporting period                                         65                  $41,865,643                      $3,013,066

E. For which no
management decision was
made within 6 months of
issuance                                                     42                  $34,282,723                      $2,936,092
* Report totals cannot be reconciled because some reports have dollar amounts in both the allowed and disallowed categories.
** Unsupported costs are included in questioned costs.




58              Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
                                                    APPENDIX 5

                         TABLE II
           INSPECTOR GENERAL AUDIT REPORTS WITH
      RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                            No. of Reports*               Dollar Value**
A. For which no management decision had been made by the
commencement of the reporting period                                                              42       $265,609,876

B. Which were issued during the reporting period                                                  83          18,432,683***

   Total (A+B)                                                                                  125        $284,042,559

C. For which a management decision was made during th e                                           81         $24,449,480
reporting period

   (i) dollar value of recommendations that were agreed                                           81         $24,386,848***
    to by management

   (ii) dollar value of recommendations that were not                                              1                62,632
    agreed to by management

D. For which no management decision had been made by the
end of the reporting period                                                                       44       $259,593,079

E. For which no management decision was made within 6
months of issuance                                                                                36       $255,920,143
* Report totals cannot be reconciled because some reports have dollar amounts in both the agreed and disagreed categories.
** Amounts include preaward audits.
*** Amounts include indirect cost proposals negotiated.




                Semiannual Report to the Congress: October 1, 1996 - March 31, 1997                                          59
                                                    APPENDIX 5

                            TABLE III
          INSPECTOR GENERAL AUDIT REPORTS WITH LOST OR
                 POTENTIAL ADDITIONAL REVENUES


                                                                            No. Of Reports*                Dollar Value
A. For which no management decision had been made by
the commencement of the reporting period
                                                                                                   8           $185,068,613

B. Which were issued during the reporting period                                                   2              $1,745,000

     Total (A+B)                                                                                 10            $186,813,613

C. For which a management decision was made during the
reporting period

   (i) dollar value of recommendations that were
 agreed to by management                                                                           0                        0

   (ii) dollar value of recommendations that were not
 agreed to by management                                                                           0                        0

D. For which no management decision had been made by
the end of the reporting period                                                                  10            $186,813,613

E. For which no management decision was made within 6
months of issuance                                                                                 8           $185,068,613
*Report totals cannot be reconciled because some reports have dollar amounts in both the agreed and disagreed categories.




60              Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
                                                          APPENDIX 6
            SUMMARY OF AUDIT REPORTS OVER 6 MONTHS OLD
                 PENDING MANAGEMENT DECISIONS

      This listing includes a summary of internal, contract (except preawards), grant, and single audit reports that were over 6 months old
      on March 31, 1997, and still pending a management decision. It provides report number, title, issue date, number of unresolve     d
      recommendations, and unresolved amount of monetary benefits identified in the audit report.



INTERNAL                                          BUREAU OF                                             INSULAR AREAS
AUDITS                                            RECLAMATION
                                                                                                        American Samoa
                                                  92-I-1128 REPAYMENT OF
BUREAU OF LAND                                    MUNICIPAL AND                                         93-I-1600 REVIEW OF
MANAGEMENT                                        INDUSTRIAL WATER                                      GRANT ADMINISTRATION,
                                                  SUPPLY INVESTMENT                                     DEPARTMENT OF
94-I-496 SALE OF                                  COSTS (08/13/92) -                                    EDUCATION, AMERICAN
MATERIALS FROM PUBLIC                             1 RECOMMENDATION AND                                  SAMOA GOVERNMENT
LANDS, BUREAU OF LAND                             $958,000 UNRESOLVED                                   (09/30/93) -
MANAGEMENT (03/31/94) -                                                                                 3 RECOMMENDATIONS AND
1 RECOMMENDATION AND                              92-I-1151 REVIEW OF THE                               $306,637 UNRESOLVED
$3,062,000 UNRESOLVED                             COST ALLOCATION FOR
                                                  THE CENTRAL ARIZONA
96-I-1025 NEVADA LAND                             PROJECT (08/17/92) -                                  Commonwealth of the
EXCHANGE ACTIVITIES,                              3 RECOMMENDATIONS AND                                 Northern Mariana
BUREAU OF LAND                                    $77,000,000 UNRESOLVED                                Islands
MANAGEMENT (07/15/96) -                           (Resolution is pending outcome
5 RECOMMENDATIONS AND                             of litigation.)                                       94-I-936 FOLLOWUP
$14,926,000 UNRESOLVED                                                                                  OF RECOMMENDATIONS
                                                  93-I-577 PROPOSED                                     CONCERNING THE
96-I-1265 OCCUPANCY                               DEFERRAL OF NOTICE OF                                 ECONOMIC DEVELOPMENT
TRESPASS RESOLUTION,                              SUBSTANTIAL COMPLETION                                LOAN FUND,
BUREAU OF LAND                                    OF THE CENTRAL ARIZONA                                COMMONWEALTH
MANAGEMENT (09/30/96) -                           PROJECT (02/19/93) -                                  DEVELOPMENT AUTHORITY
2 RECOMMENDATIONS                                 2 RECOMMENDATIONS                                     (07/18/94) -
UNRESOLVED                                        UNRESOLVED (Resolution is                             3 RECOMMENDATIONS
                                                  pending outcome of litigation.)                       UNRESOLVED
96-I-1268 WITHDRAWN
LANDS, DEPARTMENT OF                              96-I-644 WORKING CAPITAL                              96-I-596 MANAGEMENT OF
THE INTERIOR (09/30/96) -                         FUND, BUREAU OF                                       PUBLIC LAND,
2 RECOMMENDATIONS                                 RECLAMATION (3/29/96) -                               COMMONWEALTH OF THE
UNRESOLVED                                        3 RECOMMENDATIONS AND                                 NORTHERN MARIANA
                                                  $35,000,000 UNRESOLVED                                ISLANDS (3/20/96) -
                                                                                                        6 RECOMMENDATIONS AND
                                                                                                        $45,877,257 UNRESOLVED




                Semiannual Report to the Congress: October 1, 1996 - March 31, 1997                                                           61
Guam                            95-I-1202 FEDERAL GRANTS         93-I-572 SUPPLY AND
                                ADMINISTRATION, GUAM             EQUIPMENT
92-I-597 SELECTION,             COMMUNITY COLLEGE                MANAGEMENT,
PROCUREMENT, AND                (08/22/95)                       DEPARTMENT OF
ADMINISTRATION OF               1 RECOMMENDATION                 EDUCATION, GOVERNMENT
WATER DISTRIBUTION              UNRESOLVED                       OF THE VIRGIN ISLANDS
PROJECTS, PUBLIC UTILITY                                         (02/19/93) -
AGENCY OF GUAM,                 Republic of the Marshall         9 RECOMMENDATIONS AND
GOVERNMENT OF GUAM              Islands                          $310,000 UNRESOLVED
(03/20/92) -
3 RECOMMENDATIONS AND           94-I-21 CAPITOL                  93-I-670 PERSONNEL,
$533,000 UNRESOLVED             RELOCATION PROJECT,              PROPERTY MANAGEMENT,
                                REPUBLIC OF THE                  AND PROCUREMENT
93-I-706 SELECTED SPECIAL       MARSHALL ISLANDS                 PRACTICES, BUREAU OF
REVENUE FUNDS,                  (10/18/93) -                     CORRECTIONS,
GOVERNMENT OF GUAM              2 RECOMMENDATIONS                GOVERNMENT OF THE
(03/15/93) -                    UNRESOLVED                       VIRGIN ISLANDS (03/11/93) -
7 RECOMMENDATIONS AND                                            14 RECOMMENDATIONS
$39,330,411 UNRESOLVED                                           AND $265,823 UNRESOLVED
                                U.S. Virgin Islands
93-I-1195 IMPACT OF THE                                          94-I-248 PROPERTY
                                91-I-467 FOLLOWUP OF             MANAGEMENT FUNCTIONS,
COMPACT OF FREE                 RECOMMENDATIONS
ASSOCIATION ON THE                                               POLICE DEPARTMENT,
                                CONTAINED IN REPORT ON           GOVERNMENT OF THE
GOVERNMENT OF GUAM              THE ROAD FUND,
(06/28/93) -                                                     VIRGIN ISLANDS (01/24/94) -
                                GOVERNMENT OF THE                3 RECOMMENDATIONS AND
1 RECOMMENDATION AND            VIRGIN ISLANDS (02/19/91) -
$15,911,978 UNRESOLVED                                           $457,000 UNRESOLVED
                                1 RECOMMENDATION
                                UNRESOLVED                       95-I-41 DIVISION OF
94-I-106 REVIEW OF
GUAM'S                                                           TOURISM, DEPARTMENT OF
                                92-I-1086 PERSONNEL              ECONOMIC DEVELOPMENT
GOVERNMENTWIDE                  MANAGEMENT,
TRAVEL PRACTICES                                                 AND AGRICULTURE,
                                GOVERNMENT OF THE                GOVERNMENT OF THE
(11/26/93) -                    VIRGIN ISLANDS (08/03/92) -
16 RECOMMENDATIONS                                               VIRGIN ISLANDS (10/28/94) -
                                6 RECOMMENDATIONS AND            4 RECOMMENDATIONS
AND $1,689,650                  $51,542 UNRESOLVED
UNRESOLVED                                                       UNRESOLVED
                                93-I-363 INMATE CARE,            95-I-1258 SCHOOL LUNCH
94-I-980 FOOD STAMP             REHABILITATION, AND
PROGRAM, DEPARTMENT                                              PROGRAM, DEPARTMENT
                                SAFETY, BUREAU OF                OF EDUCATION,
OF PUBLIC HEALTH AND            CORRECTIONS,
SOCIAL SERVICES                                                  GOVERNMENT OF THE
                                GOVERNMENT OF THE                VIRGIN ISLANDS (09/12/95) -
(07/25/94) -                    VIRGIN ISLANDS (12/31/92) -
17 RECOMMENDATIONS                                               1 RECOMMENDATION
                                10 RECOMMENDATIONS               UNRESOLVED
AND $646,028 UNRESOLVED         UNRESOLVED




62          Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
96-I-722 GRANTS FOR THE          U.S. GEOLOGICAL                  CONTRACT AND
CONSTRUCTION OF HEALTH           SURVEY
CARE FACILITIES,                                                  GRANT AUDITS
GOVERNMENT OF THE                92-I-541 ACCOUNTING FOR
VIRGIN ISLANDS (05/03/96) -      FISCAL YEAR 1990
                                                                  BUREAU OF INDIAN
1 RECOMMENDATION                 REIMBURSABLE                     AFFAIRS
UNRESOLVED                       EXPENDITURES OF
                                 ENVIRONMENTAL                    94-E-784 COSTS CLAIMED
96-E-828 ACCOUNTING              PROTECTION AGENCY                BY DIVERSIFIED BUSINESS
CONTROLS FOR DISASTER            SUPERFUND MONEY,                 TECHNOLOGIES
ASSISTANCE FUNDS,                WATER RESOURCES                  CORPORATION UNDER
POLICE DEPARTMENT,               DIVISION (03/09/92) -            CONTRACT NO. CBM000047
GOVERNMENT OF THE                7 RECOMMENDATIONS AND            (06/10/94) - $825,170
VIRGIN ISLANDS (05/31/96) -      $325,261 UNRESOLVED              UNRESOLVED (Circumstances
2 RECOMMENDATIONS                                                 beyond the Bureau's control
UNRESOLVED                       93-I-144 ACCOUNTING FOR          have delayed resolution of the
                                 FISCAL YEAR 1991                 costs.)
MINERALS                         REIMBURSABLE
MANAGEMENT                       EXPENDITURES OF                  94-E-919 COSTS CLAIMED
SERVICE                          ENVIRONMENTAL                    BY DIVERSIFIED BUSINESS
                                 PROTECTION AGENCY                TECHNOLOGIES
96-I-1255 SELECTED               SUPERFUND MONEY,                 CORPORATION UNDER
ACTIVITIES OF THE                WATER RESOURCES                  CONTRACT NO. CBM000147
ROYALTY MANAGEMENT               DIVISION (11/09/92) -            (06/30/94) - $247,414
SYSTEM, MINERALS                 2 RECOMMENDATIONS AND            UNRESOLVED (Circumstances
MANAGEMENT SERVICE               $940,702 UNRESOLVED              beyond the Bureau's control
(09/30/96) -                                                      have delayed resolution of the
3 RECOMMENDATIONS AND            94-I-983 ACCOUNTING FOR          costs.)
$3,860,000 UNRESOLVED            FISCAL YEAR 1992
                                 REIMBURSABLE                     BUREAU OF
NATIONAL PARK                    EXPENDITURES OF                  RECLAMATION
                                 ENVIRONMENTAL
SERVICE                          PROTECTION AGENCY                93-E-394 CLAIM FOR
                                 SUPERFUND MONEY                  ADDITIONAL
96-I-806 EMERGENCY               (07/25/94) -
MEDICAL AND SEARCH                                                COMPENSATION
                                 2 RECOMMENDATIONS AND            SUBMITTED BY
AND RESCUE SERVICES,             $588,247 UNRESOLVED
NATIONAL PARK SERVICE                                             TORNO-AMERICA, INC.,
(06/10/96) -                                                      UNDER CONTRACT NO.
2 RECOMMENDATIONS AND                                             9-SP-40-0770/DC (01/08/93) -
$4,501,000 UNRESOLVED                                             $2,364,646 UNRESOLVED

                                                                  95-E-197 REQUEST FOR
                                                                  EQUITABLE ADJUSTMENT
                                                                  SUBMITTED BY QUALITY
                                                                  MECHANICAL
                                                                  CONTRACTORS, INC.
                                                                  (11/18/94) - $523,168
                                                                  UNRESOLVED




             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997             63
95-E-698 EQUITABLE                U.S. BUREAU OF                   U.S. GEOLOGICAL
ADJUSTMENT SUBMITTED              MINES                            SURVEY
BY KEARNEY ELECTRIC,
INC., UNDER CONTRACT              95-E-1393 KEYSTONE               93-E-339 CLOSING
NO. 1-8-30-09150 (03/22/95) -     COMPUTER RESOURCES,              STATEMENT, TGS
$211,048 UNRESOLVED               INC., CLAIM FOR                  TECHNOLOGY, INC.
                                  EQUITABLE ADJUSTMENT             (12/22/92) - $520,235
96-E-727 PCL                      (09/28/95) - $215,415            UNRESOLVED
CONSTRUCTION SERVICES,            UNRESOLVED
INC., CLAIM SUBMITTED                                              96-E-1062 PHYCOTECH,
UNDER CONTRACT                                                     TERMINATION
NO. 1-CC-30-09150
                                  U.S. FISH AND
                                  WILDLIFE SERVICE                 SETTLEMENT PROPOSAL
(04/17/96) -                                                       SUBMITTED TO THE U.S.
$7,349,810 UNRESOLVED                                              GEOLOGICAL SURVEY FOR
                                  96-E-428 DISTRICT OF
                                  COLUMBIA, COSTS                  CONTRACT
96-E-1050 PCL CIVIL                                                NO. 14334-94-C-40145
CONSTRUCTORS, INC.,               INCURRED UNDER SPORT
                                  RESTORATION GRANTS               (08/06/96) - $11,843
CLAIM SUBMITTED UNDER                                              UNRESOLVED
BUREAU OF RECLAMATION             FROM THE U.S. FISH AND
CONTRACT                          WILDLIFE SERVICE
NO. 1-CC-30-09150                 (02/20/96) - $11,770             SINGLE AUDITS
(07/19/96) -                      UNRESOLVED
$752,873 UNRESOLVED                                                BUREAU OF INDIAN
                                  96-E-889 EXPENDITURES            AFFAIRS
96-E-1054 HARRIS/                 CLAIMED BY THE
ARIZONA REBAR, INC.,              COMMONWEALTH OF THE              96-A-1122 NORTHWESTERN
CLAIM SUBMITTED UNDER             NORTHERN MARIANA                 BAND OF THE SHOSHONI
BUREAU OF RECLAMATION             ISLANDS FOR FISCAL               NATION, FISCAL YEAR
CONTRACT                          YEARS 1993 AND 1994              ENDED DECEMBER 30, 1994
NO. 1-CC-30-09150                 UNDER FEDERAL AID                (08/15/96) -
(07/22/96) - $822,533             GRANTS FROM THE U.S.             1 RECOMMENDATION
UNRESOLVED                        FISH AND WILDLIFE
                                                                   UNRESOLVED (Circumstances
                                  SERVICE (06/10/96) - $858,267
                                                                   beyond the Bureau’s control
INSULAR AREAS                     UNRESOLVED
                                                                   have delayed resolution.)
                                  96-E-1010 EXPENDITURES
Republic of the Marshall          CLAIMED BY THE
                                                                   96-A-1209 PUYALLUP TRIBE
Islands                                                            OF INDIANS, FISCAL YEAR
                                  GOVERNMENT OF GUAM
                                                                   ENDED SEPTEMBER 30, 1994
                                  UNDER FEDERAL AID
95-E-951 GRANT AND TRUST                                           (09/05/96) -
                                  GRANTS FROM THE
FUNDS PROVIDED FOR THE                                             19 RECOMMENDATIONS
                                  U.S. FISH AND WILDLIFE
RONGELAP RESETTLEMENT                                              AND $7,829 UNRESOLVED
                                  SERVICE FROM OCTOBER 1,
PROJECT, REPUBLIC OF THE                                           (Unresolved findings pertain to
                                  1990, THROUGH
MARSHALL ISLANDS                                                   FWS.)
                                  SEPTEMBER 30, 1994
(05/22/95) - $215,960             (07/03/96) - $321,194
UNRESOLVED                        UNRESOLVED




64            Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
INSULAR AREAS                  93-A-110 MARIANA                 94-A-818 COMMON-
                               ISLANDS HOUSING                  WEALTH UTILITIES
                               AUTHORITY, FISCAL YEAR           CORPORATION, FISCAL
Commonwealth of the            ENDED SEPTEMBER 30, 1990         YEAR ENDED
Northern Mariana               (10/26/92) -                     SEPTEMBER 30, 1991
Islands                        12 RECOMMENDATIONS               (06/16/94) -
                               AND $124,450 UNRESOLVED          42 RECOMMENDATIONS
91-A-731 COMMON-                                                UNRESOLVED
WEALTH UTILITIES               93-A-225 MARIANA
CORPORATION, FISCAL            ISLANDS HOUSING                  94-A-836 COMMON-
YEAR ENDED                     AUTHORITY, FISCAL YEAR           WEALTH OF THE
SEPTEMBER 30, 1988             ENDED SEPTEMBER 30, 1991         NORTHERN MARIANA
(04/26/91) -                   (11/19/92) -                     ISLANDS, FISCAL YEAR
12 RECOMMENDATIONS             8 RECOMMENDATIONS AND            ENDED SEPTEMBER 30, 1993
AND $6,087,882                 $1,119,377 UNRESOLVED            (06/20/94) -
UNRESOLVED                                                      59 RECOMMENDATIONS
                               93-A-336 KARIDAT                 UNRESOLVED
91-A-803 MARIANA               (NORTHERN MARIANAS
ISLANDS HOUSING                CATHOLIC SOCIAL                  94-A-1075 NORTHERN
AUTHORITY, FISCAL YEAR         SERVICES CORPORATION)            MARIANAS COLLEGE,
ENDED SEPTEMBER 30, 1986       (12/17/92) -                     COMMONWEALTH OF THE
(05/07/91) -                   5 RECOMMENDATIONS                NORTHERN MARIANA
2 RECOMMENDATIONS AND          UNRESOLVED                       ISLANDS, FISCAL YEAR
$1,537,321 UNRESOLVED                                           ENDED SEPTEMBER 30, 1991
                               93-A-1563 COMMON-                (07/29/94) -
91-A-823 MARIANA               WEALTH DEVELOPMENT               30 RECOMMENDATIONS
ISLANDS HOUSING                AUTHORITY, FISCAL YEAR           AND $4,600 UNRESOLVED
AUTHORITY, FISCAL YEAR         ENDED SEPTEMBER 30, 1988
ENDED SEPTEMBER 30, 1987       (09/13/93) -                     94-A-1083 MARIANA
(05/10/91) -                   52 RECOMMENDATIONS               ISLANDS HOUSING
4 RECOMMENDATIONS AND          AND $4,998,398                   AUTHORITY, FISCAL YEAR
$455,857 UNRESOLVED            UNRESOLVED                       ENDED SEPTEMBER 30, 1993
                                                                (08/03/94) -
91-A-824 MARIANA               94-A-525 COMMON-                 5 RECOMMENDATIONS
ISLANDS HOUSING                WEALTH DEVELOPMENT               UNRESOLVED
AUTHORITY, FISCAL YEAR         AUTHORITY, FISCAL YEAR
ENDED SEPTEMBER 30, 1988       ENDED SEPTEMBER 30, 1989         95-A-784 COMMONWEALTH
(05/10/91) -                   (04/15/94) -                     PORTS AUTHORITY,
2 RECOMMENDATIONS AND          45 RECOMMENDATIONS               FISCAL YEAR ENDED
$196,593 UNRESOLVED            AND $6,078,308                   SEPTEMBER 30, 1994
                               UNRESOLVED                       (04/12/95) -
92-A-1179 MARIANA                                               10 RECOMMENDATIONS
ISLANDS HOUSING                94-A-574 COMMON-                 UNRESOLVED
AUTHORITY,                     WEALTH UTILITIES
FISCAL YEAR ENDED              CORPORATION, FISCAL
SEPTEMBER 30, 1989             YEAR ENDED
(08/13/92) -                   SEPTEMBER 30, 1990
12 RECOMMENDATIONS             (05/06/94) -
AND $168,711 UNRESOLVED        61 RECOMMENDATIONS
                               AND $166,509 UNRESOLVED




           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997        65
95-A-1131 COMMON-               94-A-374 STATE OF CHUUK,         94-A-527 STATE OF
WEALTH OF THE                   FEDERATED STATES OF              POHNPEI, FEDERATED
NORTHERN MARIANA                MICRONESIA, FISCAL YEAR          STATES OF MICRONESIA,
ISLANDS PUBLIC SCHOOL           ENDED SEPTEMBER 30, 1992         FISCAL YEAR ENDED
SYSTEM, FISCAL YEAR             (02/28/94) -                     SEPTEMBER 30, 1992
ENDED SEPTEMBER 30, 1992        15 RECOMMENDATIONS               (04/19/94) -
(07/17/95) -                    UNRESOLVED                       21 RECOMMENDATIONS
15 RECOMMENDATIONS                                               AND $2,764 UNRESOLVED
UNRESOLVED                      95-A-180 CHUUK
                                ORGANIZATION FOR                 Yap
Federated States of             COMMUNITY ACTION,
Micronesia                      FISCAL YEAR ENDED                94-A-371 STATE OF YAP,
                                SEPTEMBER 30, 1993               FEDERATED STATES OF
95-A-1043 FEDERATED             (11/17/94) -                     MICRONESIA, FISCAL YEAR
STATES OF MICRONESIA            1 RECOMMENDATION                 ENDED SEPTEMBER 30, 1992
NATIONAL GOVERNMENT,            UNRESOLVED                       (02/25/94) -
FISCAL YEAR ENDED                                                22 RECOMMENDATIONS
SEPTEMBER 10, 1993              Kosrae                           UNRESOLVED
(06/27/95) -
10 RECOMMENDATIONS              94-A-367 STATE OF                95-A-57 YAP COMMUNITY
UNRESOLVED                      KOSRAE, FEDERATED                ACTION PROGRAM FOR
                                STATES OF MICRONESIA,            TWO FISCAL YEARS ENDED
96-A-482 FEDERATED              FISCAL YEAR ENDED                SEPTEMBER 30, 1993
STATES OF MICRONESIA,           SEPTEMBER 30, 1992               (10/19/94) -
STATUS OF NATIONAL              (02/24/94) -                     5 RECOMMENDATIONS
GOVERNMENT, FISCAL              9 RECOMMENDATIONS                UNRESOLVED
YEAR ENDED                      UNRESOLVED
SEPTEMBER 30, 1994                                               Guam
(2/29/96) -                     Pohnpei
19 RECOMMENDATIONS
                                                                 96-A-44 GOVERNMENT OF
AND $57,900 UNRESOLVED          91-A-398 POHNPEI STATE           GUAM, FISCAL YEAR
                                GOVERNMENT, FISCAL               ENDED SEPTEMBER 30, 1991
Chuuk                           YEAR ENDED                       (10/13/95) -
                                SEPTEMBER 30, 1989               51 RECOMMENDATIONS
91-A-505 CHUUK STATE            (02/04/91) -                     UNRESOLVED
GOVERNMENT, FISCAL              1 RECOMMENDATION AND
YEAR ENDED                      $98,216 UNRESOLVED
                                                                 96-A-45 GOVERNMENT OF
SEPTEMBER 30, 1989                                               GUAM, FISCAL YEAR
(02/20/91) -                    94-A-491 POHNPEI                 ENDED SEPTEMBER 30, 1992
1 RECOMMENDATION AND            COMMUNITY ACTION                 (10/13/95) -
$665,817 UNRESOLVED             AGENCY, TWO FISCAL               62 RECOMMENDATIONS
                                YEARS ENDED                      UNRESOLVED
92-A-519 CHUUK STATE            SEPTEMBER 30, 1992
GOVERNMENT, FISCAL              (04/04/94) -
                                                                 96-A-264 GUAM ECONOMIC
YEAR ENDED                      5 RECOMMENDATIONS
                                                                 DEVELOPMENT
SEPTEMBER 30, 1990              UNRESOLVED
                                                                 AUTHORITY, FISCAL YEAR
(02/25/92) -                                                     ENDED SEPTEMBER 30, 1994
1 RECOMMENDATION AND                                             (01/11/96) -
$1,940,938 UNRESOLVED                                            9 RECOMMENDATIONS
                                                                 UNRESOLVED



66          Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
96-A-821 GUAM ECONOMIC          93-A-1053 PALAU                  U.S. Virgin Islands
DEVELOPMENT                     COMMUNITY ACTION
AUTHORITY, FISCAL YEAR          AGENCY, FISCAL YEAR              92-A-107 VIRGIN ISLANDS
ENDED SEPTEMBER 30, 1995        ENDED SEPTEMBER 30, 1991         WATER AND POWER
(05/24/96) -                    (05/11/93) -                     AUTHORITY (10/16/91) -
5 RECOMMENDATIONS               12 RECOMMENDATIONS               3 RECOMMENDATIONS
UNRESOLVED                      UNRESOLVED                       UNRESOLVED

Republic of the Marshall        93-A-1629 REPUBLIC OF            93-A-177 UNIVERSITY OF
Islands                         PALAU, FISCAL YEAR               THE VIRGIN ISLANDS, TWO
                                ENDED SEPTEMBER 30, 1990         FISCAL YEARS ENDED
91-A-91 REPUBLIC OF THE         (09/30/93) -                     SEPTEMBER 30, 1991
MARSHALL ISLANDS                22 RECOMMENDATIONS               (11/05/92) -
COMMUNITY ACTION                AND $401,843 UNRESOLVED          7 RECOMMENDATIONS
AGENCY, FISCAL YEAR                                              UNRESOLVED
ENDED SEPTEMBER 30, 1988        94-A-499 REPUBLIC OF
(10/19/90) -                    PALAU, FISCAL YEAR               96-A-1144 GOVERNMENT
4 RECOMMENDATIONS AND           ENDED SEPTEMBER 30, 1991         OF THE VIRGIN ISLANDS,
$43,023 UNRESOLVED              (04/06/94) -                     TWO FISCAL YEARS ENDED
                                11 RECOMMENDATIONS               SEPTEMBER 30, 1990
96-A-104 REPUBLIC OF THE        AND $517,693 UNRESOLVED          (08/20/96) -
MARSHALL ISLANDS,                                                16 RECOMMENDATIONS
FISCAL YEAR ENDED               94-A-882 REPUBLIC OF             UNRESOLVED
SEPTEMBER 30, 1994              PALAU, FISCAL YEAR
(11/01/95) -                    ENDED SEPTEMBER 30, 1992         MULTI-OFFICE
75 RECOMMENDATIONS              (06/27/94) -
AND $1,068,317                  37 RECOMMENDATIONS               95-A-991 NORTH DAKOTA,
UNRESOLVED                      AND $4,085 UNRESOLVED            TWO FISCAL YEARS ENDED
                                                                 JUNE 30, 1992 (06/01/95) -
                                95-A-1395 MICRONESIAN            9 RECOMMENDATIONS
Republic of Palau               OCCUPATIONAL COLLEGE,            UNRESOLVED
                                PALAU, TWO FISCAL YEARS
92-A-368 PALAU                  ENDED
COMMUNITY ACTION                SEPTEMBER 30, 1992
                                                                 U.S. FISH AND
AGENCY, FISCAL YEAR             (09/28/95) -                     WILDLIFE SERVICE
ENDED SEPTEMBER 30, 1990        6 RECOMMENDATIONS
(01/24/92) -                    UNRESOLVED                       96-A-372 DELAWARE,
2 RECOMMENDATIONS AND                                            FISCAL YEAR ENDED
$2,593 UNRESOLVED                                                JUNE 30, 1994 (2/15/96) -
                                Trust Territory of the
                                                                 4 RECOMMENDATIONS AND
92-A-885 REPUBLIC OF            Pacific Islands                  $33,662 UNRESOLVED
PALAU, FISCAL YEAR
ENDED SEPTEMBER 30, 1989        91-A-1112 TRUST                  96-A-629 ARIZONA, FISCAL
(06/05/92) -                    TERRITORY OF THE PACIFIC         YEAR ENDED JUNE 30, 1994
14 RECOMMENDATIONS              ISLANDS, FISCAL YEAR             (03/28/96) -
AND $40,262 UNRESOLVED          ENDED SEPTEMBER 30, 1990         5 RECOMMENDATIONS
                                (07/31/91) - $437,482            UNRESOLVED
                                UNRESOLVED




            Semiannual Report to the Congress: October 1, 1996 - March 31, 1997          67
96-A-630 ALASKA, FISCAL
YEAR ENDED JUNE 30, 1994
(03/28/96) -
4 RECOMMENDATIONS AND
$72,509 UNRESOLVED

96-A-1139 NATIONAL FISH
AND WILDLIFE
FOUNDATION, FISCAL YEAR
ENDED SEPTEMBER 30, 1995
(08/15/96) -
1 RECOMMENDATION
UNRESOLVED




68         Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
                                                           APPENDIX 7
     SUMMARY OF INTERNAL AUDIT REPORTS OVER 6 MONTHS
            OLD PENDING CORRECTIVE ACTION

     This is a listing of internal audit reports with management decisions over 6 months old for which corrective action has not bee      n
     completed. It provides report number, title, issue date, and the number of recommendations without final corrective action. These
     audits continue to be monitored by the Focus Leader for Management Control and Audit Followup, Assistant Secretary - Policy           ,
     Management and Budget, for completion of corrective action. Note: The insular area reports contain recommendations mad               e
     specifically to the insular area governors and other territorial officials, who do not report to the Secretary and are not subject to the
     policy, guidance, and administrative oversight established by the Assistant Secretary - Policy, Management and Budget       .




INTERNAL AUDITS                                   BUREAU OF LAND                                           95-I-638 ONSHORE OIL AND
                                                  MANAGEMENT                                               GAS LEASING ACTIVITIES,
                                                                                                           BUREAU OF LAND
BUREAU OF INDIAN                                  90-I-100 DRAINAGE                                        MANAGEMENT (03/20/95) -
AFFAIRS                                           PROTECTION PROGRAM                                       2 RECOMMENDATIONS
                                                  (09/19/90) -
95-I-598 BUREAU OF                                1 RECOMMENDATION                                         95-I-709 WIND ENERGY
INDIAN AFFAIRS PRINCIPAL                                                                                   RIGHT-OF-WAY GRANTS,
FINANCIAL STATEMENTS                              92-I-828 ONSHORE                                         BUREAU OF LAND
FOR FISCAL YEARS 1993                             GEOPHYSICAL                                              MANAGEMENT (03/31/95) -
AND 1994 (02/28/95) -                             EXPLORATION PROGRAM                                      4 RECOMMENDATIONS AND
3 RECOMMENDATIONS                                 (05/26/92) -                                             $2,837,296
                                                  2 RECOMMENDATIONS
95-I-1402 WAPATO                                                                                           95-I-747 RIGHT-OF-WAY
IRRIGATION PROJECT,                               94-I-1249 BUREAU OF LAND                                 GRANTS, BUREAU OF LAND
BUREAU OF INDIAN                                  MANAGEMENT FINANCIAL                                     MANAGEMENT (03/31/95) -
AFFAIRS (09/30/95) -                              STATEMENTS FOR FISCAL                                    8 RECOMMENDATIONS
3 RECOMMENDATIONS AND                             YEARS 1992 AND 1993
$2,173,459                                        (08/31/94) -                                             96-I-638 INSPECTION OF
                                                  1 RECOMMENDATION                                         SELECTED
96-I-641 REVIEW OF INDIAN                                                                                  ADMINISTRATIVE
IRRIGATION PROJECTS,                              94-I-1351 LAW                                            ACTIVITIES, COLORADO
BUREAU OF INDIAN                                  ENFORCEMENT ACTIVITIES                                   STATE OFFICE, BUREAU OF
AFFAIRS (03/29/96) -                              (09/30/94) -                                             LAND MANAGEMENT
13 RECOMMENDATIONS                                1 RECOMMENDATION AND                                     (03/29/96) -
AND $14,000,000                                   $1,300,000                                               2 RECOMMENDATIONS

96-I-1266 ADMINISTRATION                          95-I-379 FOLLOWUP                                        96-I-1267 INSPECTION AND
OF DELINQUENT LOANS BY                            OF RECOMMENDATIONS                                       ENFORCEMENT PROGRAM
THE PHOENIX AREA OFFICE,                          RELATING TO BUREAU OF                                    AND SELECTED RELATED
BUREAU OF INDIAN                                  LAND MANAGEMENT USER                                     ACTIVITIES, BUREAU OF
AFFAIRS (09/30/96) -                              CHARGES FOR                                              LAND MANAGEMENT
1 RECOMMENDATION                                  MINERAL-RELATED                                          (09/30/96) -
                                                  DOCUMENT PROCESSING                                      11 RECOMMENDATIONS
                                                  (01/23/95) -                                             AND $1,600,000
                                                  2 RECOMMENDATIONS




                Semiannual Report to the Congress: October 1, 1996 - March 31, 1997                                                              69
BUREAU OF                        95-I-1204 FINANCIAL              INSULAR AREAS
RECLAMATION                      MANAGEMENT OF THE
                                 COLUMBIA BASIN PROJECT,
                                 PACIFIC NORTHWEST
                                                                  American Samoa
91-I-1445 IMPLEMEN-
TATION OF THE FEDERAL            REGION (08/22/95) -
                                 1 RECOMMENDATION AND             96-I-533 AMERICAN
FINANCIAL SYSTEM                                                  SAMOA LEGISLATURE,
(09/30/91) -                     $7,000
                                                                  AMERICAN SAMOA
2 RECOMMENDATIONS                                                 GOVERNMENT (03/22/96) -
                                 95-I-1376 FOLLOWUP OF
                                 RECOVERY OF OPERATION            7 RECOMMENDATIONS AND
92-I-887 MISCELLANEOUS                                            $1,707,308
REVENUE COLLECTION               AND MAINTENANCE
AND DISTRIBUTION                 PROGRAM EXPENSES
(06/12/92) -                     (09/29/95) -                     Commonwealth of the
2 RECOMMENDATIONS                5 RECOMMENDATIONS AND            Northern Mariana
                                 $19,465,000
                                                                  Islands
93-I-810 IMPLEMENTATION
OF THE COLORADO RIVER            95-I-1383 RECOVERY OF
                                 OPERATION AND                    94-I-1323 UTILITIES RATE
BASIN SALINITY CONTROL                                            STRUCTURE,
PROGRAM (03/31/93) -             MAINTENANCE COSTS,
                                 COLUMBIA BASIN PROJECT           COMMONWEALTH OF THE
3 RECOMMENDATIONS                                                 NORTHERN MARIANA
                                 (09/29/95) -
                                 4 RECOMMENDATIONS AND            ISLANDS (09/30/94) -
93-I-1641 PICK-SLOAN                                              3 RECOMMENDATIONS
                                 $1,070,000
MISSOURI RIVER BASIN
PROGRAM COST                                                      95-I-106 CONTRACTING
ALLOCATION (09/30/93) -          96-I-313 AWARD AND
                                 ADMINISTRATION OF                AND CONTRACT
5 RECOMMENDATIONS                                                 ADMINISTRATION,
                                 CONTRACT NO.
                                 1425-2-CC-40-12260 WITH          COMMONWEALTH
94-I-884 DEVELOPMENT                                              UTILITIES CORPORATION,
                                 ENVIRONMENTAL
STATUS OF THE DOLORES                                             COMMONWEALTH OF THE
                                 CHEMICAL CORPORATION
AND THE                                                           NORTHERN MARIANA
                                 RELATED TO THE
ANIMAS-LA PLATA                                                   ISLANDS (11/14/94) -
                                 SUMMITVILLE MINE SITE
PROJECTS (07/11/94) -                                             5 RECOMMENDATIONS AND
                                 CLEANUP, BUREAU OF
1 RECOMMENDATION                                                  $5,963,022
                                 RECLAMATION (03/14/96) -
                                 2 RECOMMENDATIONS
94-I-930 IRRIGATION OF
INELIGIBLE LANDS
                                                                  Guam
                                 96-I-1026 FOLLOWUP OF
(07/11/94) -
                                 RECOMMENDATIONS                  92-I-1360 GOVERNMENT OF
3 RECOMMENDATIONS
                                 CONCERNING THE                   GUAM RETIREMENT FUND
                                 VALUATION OF PROJECT             (09/18/92) -
95-I-870 RECREATION
                                 FACILITIES PROPOSED FOR          7 RECOMMENDATIONS
MANAGEMENT ACTIVITIES
                                 SALE, BUREAU OF
AT SELECTED SITES
                                 RECLAMATION (07/29/96) -         Republic of Palau
(05/17/95) -
                                 1 RECOMMENDATION
2 RECOMMENDATIONS
                                                                  92-I-1368 BILLINGS AND
                                 96-I-1033 LOWER
                                                                  COLLECTIONS OF THE
                                 COLORADO RIVER BASIN
                                                                  REPUBLIC OF PALAU’S
                                 DEVELOPMENT FUND,
                                                                  GROSS REVENUE TAX
                                 BUREAU OF RECLAMATION
                                                                  (09/28/92) -
                                 (07/30/96) -
                                                                  3 RECOMMENDATIONS AND
                                 1 RECOMMENDATION
                                                                  $4,035,095



70           Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
U.S. Virgin Islands              92-I-657 GAS CONTRACT            92-I-204 NATIONAL
                                 SETTLEMENTS (03/30/92) -         NATURAL LANDMARKS
91-I-1188 SECURITY AND           1 RECOMMENDATION                 PROGRAM (12/05/91) -
MAINTENANCE OF                                                    4 RECOMMENDATIONS
CORRECTIONAL FACILITIES,         96-I-1264 NEGOTIATED
GOVERNMENT OF THE                ROYALTY SETTLEMENTS,             93-I-1615 RECREATIONAL
VIRGIN ISLANDS (08/29/91) -      MINERALS MANAGEMENT              ASSISTANCE PROVIDED TO
16 RECOMMENDATIONS               SERVICE (09/30/96) -             STATE AND LOCAL
AND $1,000,000                   2 RECOMMENDATIONS                GOVERNMENTS (09/30/93) -
                                                                  1 RECOMMENDATION
91-I-1431 FOLLOWUP OF
AUDIT OF THE
                                 MULTI-OFFICE                     94-I-7 NATIONAL PARK
GOVERNMENT                                                        SERVICE GRANT TO THE
                                 92-I-140 COMPLIANCE WITH         CITY OF CHESTER,
EMPLOYEES’ RETIREMENT
                                 THE FEDERAL MANAGERS’            PENNSYLVANIA (10/05/93) -
SYSTEM, GOVERNMENT OF
                                 FINANCIAL INTEGRITY ACT          1 RECOMMENDATION AND
THE VIRGIN ISLANDS
                                 OF 1982 FOR FISCAL YEAR          $199,999
(09/30/91) -
                                 1991, BUREAU OF LAND
1 RECOMMENDATION
                                 MANAGEMENT (11/18/91) -          94-I-1211 CONCESSIONS
                                 1 RECOMMENDATION                 MANAGEMENT
92-I-90 PRISON
OVERCROWDING, BUREAU                                              IMPROVEMENT (09/26/94) -
                                 95-I-1320 PAYROLL/               1 RECOMMENDATION
OF CORRECTIONS
                                 PERSONNEL SYSTEM,
(10/28/91) -
                                 DEPARTMENT OF THE                95-I-647 SELECTED
5 RECOMMENDATIONS
                                 INTERIOR (09/25/95) -            ADMINISTRATIVE
                                 2 RECOMMENDATIONS AND            FUNCTIONS, U.S. VIRGIN
92-I-688 COSTS INCURRED
                                 $314,434                         ISLANDS NATIONAL PARK,
BY THE
DEJONGH/WILLIAMS JOINT                                            NATIONAL PARK SERVICE
                                 96-I-609 SAFETY AND              (03/20/95) -
VENTURE ON THE VIRGIN
                                 HEALTH PROGRAM,                  2 RECOMMENDATIONS
ISLANDS CAPITAL
                                 DEPARTMENT OF THE
IMPROVEMENT PROGRAM
                                 INTERIOR (03/29/96) -            96-I-49 SPECIAL USE FEES,
(03/31/92) -
                                 3 RECOMMENDATIONS AND            NATIONAL PARK SERVICE
10 RECOMMENDATIONS
                                 $11,800,00                       (10/27/95) -
95-I-52 SELECTED                                                  1 RECOMMENDATION
ADMINISTRATIVE                   NATIONAL PARK
FUNCTIONS, ST. CROIX             SERVICE                          OFFICE OF THE
INTERIM HOSPITAL,                                                 SECRETARY
GOVERNMENT OF THE                91-I-532 WASTE DISPOSAL
VIRGIN ISLANDS (10/31/94) -      ACTIVITIES AND                   93-I-53 OFFICE OF
2 RECOMMENDATIONS                HOUSEBOAT RENTAL                 CONSTRUCTION
                                 OPERATIONS AT GLEN               MANAGEMENT, FACILITIES
MINERALS                         CANYON NATIONAL                  MANAGEMENT (10/23/92) -
MANAGEMENT                       RECREATION AREA                  2 RECOMMENDATIONS
                                 (03/08/91) -
SERVICE                          2 RECOMMENDATIONS                94-I-38 FOLLOWUP
92-I-130 OFFSHORE                                                 OF RECOMMENDATIONS
INSPECTION PROGRAM                                                PERTAINING TO THE OFFICE
(11/12/91) -                                                      OF AIRCRAFT SERVICES
3 RECOMMENDATIONS                                                 (10/29/93) -
                                                                  2 RECOMMENDATIONS


             Semiannual Report to the Congress: October 1, 1996 - March 31, 1997          71
U.S. FISH AND                   96-I-636 NATIONAL
WILDLIFE SERVICE                BIOLOGICAL SERVICE
                                FINANCIAL STATEMENTS
93-I-864 AUTOMATED              FOR FISCAL YEARS 1994
DATA PROCESSING                 AND 1995 (03/29/96) -
MANAGEMENT (03/31/93) -         2 RECOMMENDATIONS
1 RECOMMENDATION
                                96-I-1239 INVENTORY
94-I-62 LAW                     MANAGEMENT AND
ENFORCEMENT SPECIAL             VALUATION, NATIONAL
FUNDS, U.S. FISH AND            MAPPING DIVISION,
WILDLIFE SERVICE                U.S. GEOLOGICAL SURVEY
(11/08/93) -                    (09/30/96) -
1 RECOMMENDATION                2 RECOMMENDATIONS

94-I-408 FARMING
OPERATIONS CONDUCTED
BY THE U.S. FISH AND
WILDLIFE SERVICE
(03/21/94) -
1 RECOMMENDATION

95-I-208 FOLLOWUP OF
RECOMMENDATIONS
CONCERNING USER
CHARGES AND
COLLECTIONS, U.S. FISH
AND WILDLIFE SERVICE
(12/02/94) -
1 RECOMMENDATION

95-I-376 CONCESSION FEES,
U.S. FISH AND WILDLIFE
SERVICE (01/17/95) -
1 RECOMMENDATION

U.S. GEOLOGICAL
SURVEY

95-I-725 FEDERAL-STATE
COOPERATIVE PROGRAM,
WATER RESOURCES
DIVISION, U.S. GEOLOGICAL
SURVEY (03/31/95) -
3 RECOMMENDATIONS AND
$6,800,000




72          Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
                                       APPENDIX 8
        CROSS-REFERENCES TO THE INSPECTOR GENERAL ACT

                                                                                    Page
Inspector General Act, as amended

Section 4(a)(2)         Review of Legislation and Regulations                          9

Section 5(a)(1)         Significant Problems, Abuses, and Deficiencies              10-24

Section 5(a)(2)         Recommendations With Respect to Significant Problems,       10-24
                        Abuses, and Deficiencies

Section 5(a)(3)         Summary of Audits From Agency’s Previous Report on          69-72
                        Which Corrective Action Has Not Been Completed

Section 5(a)(4)         Matters Referred to Prosecutive Authorities                    v

Section 5(a)(5)         Summary of Instances Where Information Was Refused          N/A*

Section 5(a)(6)         List of Audit Reports                                       26-55

Section 5(a)(7)         Summary of Significant Reports                              10-24

Section 5(a)(8)         Statistical Table - Questioned Costs                          58

Section 5(a)(9)         Statistical Table - Recommendations That Funds Be             59
                        Put To Better Use

Section 5(a)(10)        Summary of Audit Reports Issued Before the                  61-68
                        Commencement of the Reporting Period for Which
                        No Management Decision Has Been Made

Section 5(a)(11)        Significant Revised Management Decisions Made               N/A*
                        During the Reporting Period

Section 5(a)(12)        Management Decisions With Which the                         N/A*
                        Inspector General Is in Disagreement




*
N/A: Not applicable.

              Semiannual Report to the Congress: October 1, 1996 - March 31, 1997     73
                                               APPENDIX 9
          STATUTORY AND ADMINISTRATIVE RESPONSIBILITIES
The Inspector General Act of 1978 (Public Law 95-452), as amended, sets forth specific requirements fo r
semiannual reports to be made to the Secretary for transmit tal to the Congress. A selection of other statutory and
administrative responsibilities of the OIG follows:

                             STATUTORY AUDIT RESPONSIBILITIES

P.L. 96-510          Comprehensive Environmental Response, Compensation and Liability Act
                       (Superfund)
P.L.   97-357        Insular Areas Act of 1982
P.L.   97-451        Federal Oil and Gas Royalty Management Act of 1982
P.L.   98-502        Single Audit Act of 1984
P.L.   99-499        Superfund Amendments and Reauthorization Act of 1986
P.L.   101-576       Chief Financial Officers Act of 1990
P.L.   104-316       General Accounting Office Act of 1996, Section 108, to require DOI-OIG
                      to audit the Central Utah Project Cost Allocation.

General Accounting Office "Government Auditing Standards"

                              ADMINISTRATIVE RESPONSIBILITIES

Office of Management and Budget Circulars and Bulletin :

       A-21          Cost Principles for Educational Institutions
       A-25          User Charges
       A-50          Audit Followup
       A-76          Performance of Commercial Activities
       A-87          Cost Principles for State and Local Governments
       A-88          Indirect Cost Rates, Audit, and Audit Followup at Educational Institutions
       A-102         Grants and Cooperative Agreements With State and Local Governments
       A-110         Uniform Administrative Requirements for Grants and Other Agreements
                       With Institutions of Higher Education, Hospitals, and Other Nonprofit
                       Organizations
       A-122         Cost Principles for Nonprofit Organizations
       A-123         Internal Control Systems
       A-127         Financial Management Systems
       A-128         Audits of State and Local Governments
       A-129         Managing Federal Credit Programs
       A-131         Value Engineering
       A-133         Audits of Institutions of Higher Education and Other Nonprofit
                       Institutions
       97-01         Audit Requirements for Federal Financial Statements (Bulletin)




74               Semiannual Report to the Congress: October 1, 1996 - March 31, 1997
                  CRIMINAL AND CIVIL INVESTIGATIVE AUTHORITIES

Criminal investigative authorities include:

      - Title 18, United States Code, section on crime and criminal procedures as they pertain to OIG’s
      oversight of DOI programs and employee misconduct.

Civil and administrative investigative authorities include civil monetary penalty authorities such as those at:

      - Title 31, United States Code, Section 3801 et seq., the Program Fraud Civil Remedies Act.




               Semiannual Report to the Congress: October 1, 1996 - March 31, 1997                                75
                          GENERAL INFORMATION


Send Requests for Publications to:

U.S. Department of the Interior      (202) 208-4599
Office of Inspector General
1849 C Street, NW.
Mail Stop 5341, MIB
Washington, DC 20240

Facsimile Number:                    (202) 208-4998

World Wide Web Site:                 www.access.gpo.gov/doi




HOTLINE
Toll Free Numbers:                   1-800-424-5081
                                     TDD 1-800-354-0996

FTS/Commercial Numbers:              (202) 208-5300
                                     TDD (202) 208-2420

U.S. Department of the Interior
Office of Inspector General
1849 C Street, NW.
Mail Stop 5341, MIB
Washington, DC 20240
